<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2010 
Energy and Water Development Appropriations Act.]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

         Prepared Statement of the Red River Valley Association
    Mr. Chairman and members of the subcommittee, I am Wayne Dowd, 
President, and pleased to represent the Red River Valley Association, 
629 Spring St., Shreveport, Louisiana. Our organization was founded in 
1925 with the express purpose of uniting the citizens of Arkansas, 
Louisiana, Oklahoma and Texas to develop the land and water resources 
of the Red River Basin.
    The Resolutions contained herein were adopted by the Association 
during its 84th Annual Meeting in Shreveport, Louisiana, on February 
19, 2009, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association. A 
summary of the civil works projects and requested funding is included 
in this testimony.
    The President's fiscal year 2010 budget included $5.1 billion for 
the civil works programs. It is $350 million more than proposed in 
fiscal year 2009 and $300 million less than what Congress enacted in 
the fiscal year 2009 Omnibus bill, $5.4 billion. The problem is also 
how the administration distributes funds. A few projects received the 
full ``Corps Capability'' to the detriment of many projects that 
receive no funding. Even though this is one of the largest 
administrative budgets, the $5.1 billion level does not come close to 
the real needs of our Nation. A more realistic funding level to meet 
the existing needs of the civil works program is $8 billion for fiscal 
year 2010. The traditional civil works programs remain at the low, 
unacceptable level as in past years. These projects are the backbone to 
our Nation's infrastructure for waterways, flood prevention, water 
supply and ecosystem restoration. We remind you that civil works 
projects are a true ``jobs program'' in that up to 85 percent of 
project funding is contracted to the private sector; 100 percent of the 
construction, as well as much of the architect and engineering work. 
Not only do these projects provide jobs, but provide economic 
development opportunities for our communities to grow and prosper, 
creating permanent jobs.
    We want to point out that we appreciate the funding Congress 
enacted in the fiscal year 2009 Omnibus Bill; however, it is $200 
million less than appropriated in fiscal year 2008. We encourage 
Congress to increase the ``water'' share of the total Energy and Water 
bill closer to 20 percent to reach the $8 billion capability.
    Another proposal allocates O&M funding by watershed regions and 
eliminates funding by individual project. We do not accept this concept 
since you will loose ownership and identity of each project; therefore, 
lose grass root support. If this was done, due to reprogramming 
constraints, then reprogramming should be addressed. Major 
reprogramming issues are with CG projects, not with O&M projects. Fund 
O&M by project, not watershed basins.
    We have great concerns over the issue of ``earmarks''. Civil Works 
projects are not earmarks! Civil Works projects go through a process; 
reconnaissance study, feasibility study, benefit to cost ratio test, 
EIS, peer review, review by agencies, public review and comment, final 
Chief of Engineer approval, authorization by all of Congress in a WRDA 
bill and signed by the President. WRDA 2007 added an independent review 
of major projects. No other Federal program goes through such a 
rigorous approval process. Each justified project ``stands alone'', are 
proven to be of national interest and should be funded by project. For 
most projects there is local sponsor cost sharing during the 
feasibility study, construction and for O&M. Those who have 
contributed, in most cases--millions of dollars--to the process, must 
have the ability to have a say for their projects to get funded. That 
voice is through their Congressional delegation. We believe that 
earmarks are not in the national interest, but it does not pertain to 
the civil works program. For civil works it is an issue of priority of 
projects to be funded and who will determine that, OMB or Congress! We 
hope Congress keeps their responsibility to set civil works priorities 
and to determine how its citizen's tax dollars are spent.
    The President's budget proposes eliminating the current fuel tax to 
fund the Inland Waterways Trust Fund (IWTF) and replace it with a barge 
lock-use fee. This change creates an unfair tax to industries on 
waterways with locks versus waterways without locks. The needs of the 
IWTF should be analyzed and determine what increase to the existing 
fuel tax would maintain the necessary income flow to keep projects 
funded from the Inland Water Trust Fund. The lockage fee proposal is 
unfair to tributary waterways with locks and we request it not be 
implemented.
    I would now like to comment on some of our specific requests for 
the future economic well being of the citizens residing in the four 
State Red River Basin regions. It is noted that at the time for 
testimony submission the details of the President's fiscal year 2010 
budget have yet to be released.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are extremely proud of our 
public ports, municipalities and State agencies that have created this 
success. This upward ``trend'' in usage will continue as new industries 
commence operations. A major power company, CLECO, is investing $1 
billion in its Rodemacher Plant near Boyce, Louisiana, on the lower Red 
River and has started moving over 3 million tons of ``petroleum coke'' 
and limestone, by barge, in the 4th quarter 2008. These projects are a 
reality and there are many more industries considering using our 
Waterway.
    You are reminded that the Waterway is not complete, 6 percent 
remains to be constructed, $121 million. We appreciate Congress' 
appropriation level in fiscal year 2009 of $7,656,000. There is a 
capability for $21 million of work, but we realistically request $12 
million to keep the project moving toward completion, ``J. Bennett 
Johnston Waterway (CG)''.
    Now that the J. Bennett Johnston Waterway is reliable year round we 
must address efficiency. Presently a 9-foot draft is authorized for the 
J. Bennett Johnston Waterway. All waterways below Cairo, Illinois are 
authorized at 12-foot, to include the Mississippi River, Atchafalaya 
River, Arkansas River and Gulf Intracoastal Waterway. A 12-foot channel 
would allow an additional one-third capacity, per barge, which will 
greatly increase the efficiency of our Waterway and further reduce 
transportation rates. This one action would have the greatest, positive 
impact to reduce rates and increase competition, bringing more 
industries to use waterborne transportation. We request a 1-year 
reconnaissance study be funded to evaluate this proposal, at a cost of 
$100,000. Fact: Approximately 95 percent is already at 12-foot year 
round.
    The feasibility study to continue navigation from Shreveport-
Bossier City, Louisiana, into the State of Arkansas will be completed 
in CY 2010. This region of SW Arkansas and NE Texas continues to suffer 
major unemployment and this navigation project, although not the total 
solution, will help revitalize the economy. Due to the time lapsed in 
the study the ``freight rates'' calculated a number of years ago they 
must be re-evaluated this year. We request funding of $100,000 to 
conduct the re-evaluation of freight rates, ``Navigation into SW 
Arkansas''.
    Flood Prevention.--What will happen when we ignore our levee 
systems? We know the Red River levees in Arkansas do not meet Federal 
standards, which is why we have the authorized project, ``Red River 
Below Denison Dam, TX, AR & LA''. Now is the time to bring these levees 
up to standards, before a major flood event, which will occur.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Five of 11 levee sections have been completed and brought to 
Federal standards.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current safety standards. These 
levees do not have a gravel surface roadway, threatening their 
integrity during times of flooding. It is essential for personnel to 
traverse the levees during a flood to inspect them for problems. 
Without the gravel surface the vehicles will cause rutting, which can 
create conditions for the levees to fail. A gravel surface will insure 
inspection personnel can check the levees during the saturated 
conditions of a flood.
    Appropriations of $15 million will construct one more levee section 
in Lafayette County, AR and continue the rock surfacing of levees in 
Louisiana, ``Red River Below Denison Dam, AR & LA''.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Arkansas and North 
Louisiana. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as roads, 
electric power lines and bridges; as well as increased dredging cost in 
the navigable waterway in Louisiana. These bank stabilization projects 
are compatible with subsequent navigation into Arkansas and we urge 
that they be continued in those locations designated by the Corps of 
Engineers to be the areas of highest priority. We appreciated the 
Congressional funding in past fiscal years and request you fund this 
project at a level of $11 million in fiscal year 2010, ``Red River 
Emergency Bank Protection''.
    Water Quality.--The Assistant Secretary of the Army (Civil Works), 
in October 1998, agreed to support a re-evaluation of the Wichita River 
Basin tributary of the project. The re-evaluation report was completed 
and the Director of Civil Works signed the Environmental Record of 
Decision. The plan was found to be economically justified. Then the ASA 
(CW) directed that construction would not proceed until a local sponsor 
was found to assume 100 percent of the O&M for the project. The 2007 
WRDA bill included language that clarified that all aspects of this 
project will be at full Federal expense, to include O&M.
    Over the past years there has been a renewed interest by the 
Lugart-Altus Irrigation District to evaluate construction of Area VI, 
of the Chloride Control Project, in Oklahoma. They have obtained the 
support of many State and Federal legislators, as well as a letter from 
the Oklahoma Governor in support of a re-evaluation report.
    Total request for the ``Chloride Control Project'': $9,000,000 for 
the Texas and Oklahoma areas.
    Water Supply.--Lake Kemp, just west of Wichita Falls, TX, is a 
major water supply for the needs of this region. Due to siltation the 
available storage of water has been impacted. A reallocation study is 
needed to determine water distribution needs and raising the 
conservation pool. Total O&M of $664,000 is requested for fiscal year 
2010 ($214,000 is required for the base annual O&M, $300,000 for the 
study and $150,000 for service bridge and gate repair).
    A water re-allocation study has been completed for Lake Texoma. It 
will provide for an additional 600,000 acre-feet for municipal use. The 
release of the study has been delayed at the Corps HQ for over a year. 
Congress needs to request that this re-allocation study be approved and 
released.
    Studies.--We have a number of General Investigation (GI) studies 
that have been funded and have local sponsors prepared to cost share 
feasibility studies. Some of those important studies include: Bossier 
Parish Flood Control Study, LA--$350,000; Cross Lake Water Supply 
Study, LA--$100,000; SE Oklahoma Water Resource Study, OK--$500,000; SW 
Arkansas Study, AR--$100,000; Washita River Basin, OK--$500,000 and 
Wichita River Basin, TX--$100,000. These studies are important to have 
projects ready for future construction.
    Operation & Maintenance.--Full O&M capability levels are not only 
important for our Waterway project but for all our Corps projects and 
flood control lakes. The backlog of critical maintenance only becomes 
worse and more expensive with time. The ``2007 Summer Flood of Record'' 
was devastating to the recreation industry at Lake Texoma, on the main 
stem Red River, as well as a number of other Oklahoma lakes. We urge 
you to appropriate funding to address this serious issue, either 
through an emergency supplemental or the appropriation bill. We request 
that the Corps O&M projects be funded at the expressed, full Corps 
capability.
    American Recovery and Reinvestment Act of 2009.--The original 
administrative submission did not include civil works funding. We want 
to thank Congress for including $4.6 billion in the ``stimulus'' 
package for civil works projects, especially in the O&M account. These 
additional funds will be important to address our long list of backlog 
needs.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four State Red River Valley region. The Civil Works 
program directly relates to national security by investing in economic 
infrastructure. If waterways are closed companies will not relocate to 
other parts of the country--they will move over seas. If we do not 
invest now there will be a negative impact on our ability to compete in 
the world market threatening our national security.

                  RED RIVER VALLEY ASSOCIATION FISCAL YEAR 2010 APPROPRIATIONS--CIVIL WORKS \1\
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                           Fiscal Year     RRVA Fiscal      President
                                           2009 Approp      Year 2010      Fiscal Year        Local Sponsor
                                             Omnibus         Request      2010  Budget         Requirements
----------------------------------------------------------------------------------------------------------------
Studies (GI):
    Navigation into SW Arkansas:         ..............            $100  ..............  (ARRC)
     Feasibility.
    Red River Waterway, LA-12' Channel,  ..............             100  ..............  (RRWC)
      Recon.
    Bossier Parish, LA.................            $191             350  ..............  (Bossier Levee)
    Cross Lake, LA Water Supply                     229             100  ..............  (Shreveport)
     Supplement.
    SE Oklahoma Water Resource Study:               311             500  ..............  (OWRB)
     Feasibili-  ty.
    SW Arkansas Ecosystem Restoration:              143             184  ..............  (?)
     Recon Study.
    Cypress Valley Watershed, TX.......  ..............             100  ..............  (?)
    Sulphur River Basin, TX............  ..............           1,000  ..............  (Sulphur Auth)
    Washita River Basin, OK............             191             500  ..............  (L)
    Wichita River Basin above Lake       ..............             100  ..............  (L)
     Kemp, TX: Recon.
    Red River Above Denison Dam, TX &    ..............             100  ..............  (L)
     OK:  Recon.
    Red River Waterway, Index, AR to     ..............              44  ..............  (?)
     Denison  Dam.
    Mountain Fork River Watershed, OK &  ..............  ..............  ..............  (?)
     AR, Recon.
    Walnut Bayou, Little River, AR.....  ..............             100  ..............  (ANRC)
    Red River Waterway, Index to         ..............  ..............  ..............  (?)
     Denison, Bendway Weir.
Construction General (CG):
    Red River Waterway: J.B. Johnston             7,656          21,000  ..............  (RRWC)
     Waterway, LA.
    Chloride Control Project, TX & OK..           2,201           9,000  ..............  N/A
    Red River Below Denison Dam; AR &             2,105          11,000  ..............  (Levee Districts)
     LA.
        Bowie County Levee, TX.........  ..............  ..............  ..............  (Levee Districts)
    Red River Emergency Bank Protection           2,817          15,000  ..............  (Levee Districts)
    Big Cypress Valley Watershed, TX:    ..............           1,450  ..............  (Jefferson)
     section 1135.
    Palo Duro Creek, Canyon, TX:         ..............             100  ..............  (Canyon, TX)
     section 205.
    Millwood, Grassy Lake, AR: section          ( \2\ )             350  ..............  (?)
     1135.
    Little River County/Ogden Levee,     ..............             300  ..............  (ASWC)
     AR, PED.
    McKinney Bayou, AR, PED............  ..............  ..............  ..............  .......................
    Miller County Levee, AR, section     ..............  ..............  ..............  (Miller Levee)
     1135.
Operation and Maintenance (O&M):
    J. Bennett Johnston Waterway, LA...           9,797          16,230  ..............  .......................
    Lake Kemp, TX--Total Need..........             198             664  ..............  .......................
        Basic Annual O&M...............  ..............             214  ..............  .......................
        Reallocation Study.............  ..............             300  ..............  .......................
        Service Bridge & Gate Repair...  ..............             150  ..............  .......................
    Lake Texoma, TX & OK--Total Need...           6,164           9,393  ..............  .......................
        Basic Annual O&M...............  ..............           6,393  ..............  .......................
        Suppl. EIS.....................  ..............           1,000  ..............  .......................
        Backlog Maintenance............  ..............           2,000  ..............  .......................
    Chloride Control Project, TX & OK..           1,348           5,824  ..............  .......................
----------------------------------------------------------------------------------------------------------------
\1\ Depending on final Stimulus funding RRVA fiscal year 2010 requests may change. Details of the President's
  fiscal year 2010 budget have NOT yet been released.
\2\ YES.

NOTE: Local Sponsor Column--Sponsor indicated in ( ); (?) indicates No Sponsor identified and need one to
  continue (L) indicates Sponsor not required now but need one for feasibility; N/A--No Sponsor required.

                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and the members of the subcommittee, thank you for the 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2010 appropriations for the U.S. Army Corps of Engineers 
(Corps) and Bureau of Reclamation.
    The Nature Conservancy's recommendations represent a priority set 
of efforts that are both individually important and collectively 
designed to demonstrate innovations in restoration to help guide future 
resource allocation. Further, if done well, ecosystem restoration 
projects pay dividends through services such as provision of more 
reliable and higher quality water, natural flood attenuation, 
sustaining commercial fisheries, and supporting economically-important 
outdoor recreation. Moreover, the Nation's resiliency to climate change 
will be substantially dictated by the health of our ecosystems. In 
short, we believe the public investments we are requesting now will pay 
far larger dividends for decades to come.

                     CORPS CONSTRUCTION PRIORITIES

    Continuing Authorities Program.--We thank the subcommittee for 
continuing its strong support of the section 1135: Project 
Modifications for Improvement of the Environment and section 206: 
Aquatic Ecosystem Restoration programs. However, demand for these 
programs continues to outstrip funding. The Conservancy requests that 
the programs be fully funded by appropriating $40 million for section 
1135 and $50 million for section 206.
    The Conservancy seeks funding for two section 1135 projects. The 
Spunky Bottoms project (IL) is a model floodplain restoration and 
reconnection effort on the Illinois River that needs $400,000 to 
complete a feasibility study in fiscal year 2010; the Conservancy is 
the non-Federal cost share partner. Additional dollars will be 
necessary for the planning, specifications, construction and monitoring 
phases, totaling approximately $7.5 million. The Chain Bridge Flats 
project (D.C.) needs $100,000 to complete a reconnaissance report to 
restore a globally rare habitat along the Potomac River.
    The Conservancy also seeks funding for three section 206 projects: 
Emiquon Preserve (IL), a floodplain restoration and reconnection 
project that needs $600,000 to complete a feasibility study, sign a 
project partnership agreement, and begin design; Camp Creek (OR), a 
headwaters stream restoration project that needs $575,000 to sign a PCA 
and complete construction; and Navajo Reservation Implementation (NM), 
which needs $510,000 for restoration on the San Juan River. The 
Conservancy is the cost share partner for Emiquon and Camp Creek.
    We continue to be concerned about the subcommittee's guidance for 
these programs. The prioritization requirements and ``no new starts'' 
rule in the fiscal year 2009 report block the implementation of 
important conservation priorities that enjoy strong support from their 
local communities. We urge the subcommittee to adopt a more flexible 
approach. Appropriating the requested amounts will help address the 
backlog in these programs, as will funds from the American Recovery and 
Reinvestment Act.
    Estuary Restoration Program.--The Estuary Restoration Program is a 
national, multi-level, multi-agency strategy to restore our Nation's 
estuaries that benefits fish, shellfish and wildlife; improves surface 
and groundwater resources; provides flood control; and enhances 
recreational opportunities. The Conservancy supports $10 million for 
the Estuary Restoration Program in fiscal year 2010.
    Upper Mississippi River Navigation and Ecosystem Sustainability 
Program.--The Navigation and Ecosystem Sustainability Program (NESP) is 
a dual purpose authority for integrated management of the Upper 
Mississippi River (UMR) system's habitat and navigation facilities. All 
activities implemented under the existing Environmental Management 
Program (EMP) can be transitioned into NESP, but it is critical to fund 
both programs until the transition is complete. While the Corps has the 
capability to execute a $50 million budget for NESP in fiscal year 2010 
for ecosystem restoration and navigation projects, and we support this 
funding level, we also recognize the current budgetary constraints and 
acknowledge that a more realistic NESP fiscal year 2010 new start 
request should be $35 million. The Conservancy also supports $33.2 
million for EMP in fiscal year 2010.
    Missouri River Fish and Wildlife Recovery Program (MRRP).--Under 
this program, the Corps has completed 30 projects in the lower Missouri 
basin States to assist in the recovery of three listed species, 
restoring more than 40,000 acres of habitat. New authority was provided 
in WRDA 2007 for the expenditure of funds in the upper basin States and 
for the Intake Dam project on the Yellowstone River in Montana. 
Construction of fish passage and screens at Intake Dam is a priority 
for the recovery of the endangered pallid sturgeon and other warm-water 
fish. The Conservancy supports $85 million for the MRRP in fiscal year 
2010, including sufficient funding to continue progress on the design 
and construction of fish passage and screens at Intake Dam.
    South Florida Everglades Ecosystem Restoration Program.--Corps 
flood control projects, coupled with agricultural and urban 
development, have degraded one of the most diverse and ecologically 
rich wetlands ecosystems in the world. WRDA 2007 authorized 
construction of the first projects under the Comprehensive Everglades 
Restoration Plan (CERP). We place priority on funding the restoration 
of the Kissimmee River, a project that is almost 75 percent complete 
and already a restoration success story. The Conservancy requests $300 
million for the South Florida Ecosystem Restoration Program in fiscal 
year 2010.
    Puget Sound and Adjacent Waters.--The Puget Sound and Adjacent 
Waters Program provides funding for early action projects to restore 
Puget Sound and its watershed. The Conservancy requests $3.5 million 
for Puget Sound and Adjacent Waters in fiscal year 2010. Identification 
of these early action projects is informed by the Puget Sound Nearshore 
Ecosystem Restoration project (in the Investigations account), for 
which the Conservancy requests $1.5 million in fiscal year 2010.
    Hamilton City Flood Damage Reduction and Ecosystem Restoration.--
This project will increase flood protection for Hamilton City, CA and 
surrounding agricultural lands and restore approximately 1,500 acres of 
riparian habitat. The PED phase for this project will be complete in 
fiscal year 2009, the non-Federal sponsor is in place and the project 
received construction authorization in WRDA 2007. The Conservancy 
supports $15 million in fiscal year 2010 to complete the first phase of 
construction.
    Chesapeake Bay Oyster Recovery.--Eastern oyster populations in the 
Chesapeake Bay have been decimated from historical levels by a century 
of overfishing, disease and pollution. This project will help move the 
oyster population towards sustainable levels. The requested 
appropriation will create more than 60 acres of additional oyster 
habitat. The Conservancy supports $4 million in fiscal year 2010 for 
this program.

                       SUSTAINABLE RIVERS PROJECT

    The Sustainable Rivers Project (SRP) is an initiative launched by 
the Corps that recognizes the urgent need to update decades-old water 
management practices to meet society's needs today and in the coming 
decades. The SRP is developing and demonstrating innovative approaches 
to reservoir operations that restore critical ecosystems and valuable 
ecosystem services, while continuing to provide for (and often 
improving) water supply and flood risk management. These innovative 
approaches also offer substantial promise for social and ecological 
adaptation to climate change. The SRP currently involves work in 8 
river basins containing 36 Federal reservoirs, as well as training and 
development of next-generation decision support tools for water 
management. The Conservancy requests $3 million for the Corps' 
Institute for Water Resources to support engineering and scientific 
needs of current and new SRP sites.
    Savannah Basin Comprehensive Water Resources Study.--The Savannah 
River basin is experiencing tremendous growth, and recent droughts have 
highlighted the need to comprehensively address water use issues in the 
basin. The reconnaissance phase of this study evaluated water 
management in the reservoirs and indicated that future needs may not be 
met under current management practices. The feasibility phase will 
consider a new set of rules that could meet future demands while 
protecting more than 200 miles of river and tens of thousands of acres 
of wetlands. The Conservancy supports $250,000 in fiscal year 2010.
    Willamette River Floodplain Restoration Study.--The Corps and the 
Conservancy are working together to identify ecological flow 
requirements downstream of Corps dams, and to incorporate those flows 
into dam operations. Initial efforts have focused on the Middle and 
Coast Forks of the Willamette, in conjunction with a study to identify 
floodplain habitat restoration opportunities, and implementation and 
monitoring of flow releases are ongoing. Flow analysis has begun in 
additional tributaries, with the ultimate goal of system-wide changes 
in dam operation and floodplain management to meet ecological goals. 
The Conservancy supports $150,000 in fiscal year 2010 to continue this 
study.
    Connecticut River Watershed Study.--This project will restore 410 
miles of river flow and thousands of acres of natural habitat in the 
Connecticut River Basin. The basin is a priority landscape for the 
Conservancy due to its high quality tributary systems, unique natural 
communities and multitude of ESA-listed species. The study identifies 
dam management modifications for environmental benefits while 
maintaining beneficial human uses. We support $450,000 in fiscal year 
2010 for this study.
    Bill Williams River--Alamo Dam.--Numerous Federal, State and 
private partners have invested significant funding in determining the 
flow needs of downstream ecosystems and working with the Corps to 
change operations at Alamo Dam to provide these flows. This request 
will provide additional baseline information about the River and 
continue long-term monitoring to guide future management actions on 
rivers across the southwestern U.S. The Conservancy supports an 
Operations and Maintenance appropriation for Alamo Dam in fiscal year 
2010 that includes $250,000 for these purposes.

                  OTHER CORPS INVESTIGATION PRIORITIES

    Thames River Basin Watershed Study.--The Thames River Basin 
ecosystem, including its tributaries to Long Island Sound, depends on 
naturally variable water flow, good water quality and suitable habitat. 
This study will determine what research and measures are necessary to 
improve the management of water control structures in the basin. We 
support $100,000 in fiscal year 2010 to complete the reconnaissance 
phase.
    Middle Potomac River Watershed Comprehensive Study.--This study 
will develop a comprehensive, multi-jurisdictional sustainable 
watershed management plan for the Middle Potomac River watershed, 
balancing the ecological functions and services provided by the river 
with the human demands upon it. To support the completion of the 
watershed assessment, we support $844,000 in fiscal year 2010.
    Yellowstone River Corridor Comprehensive Study.--Funding this 
ongoing study of economics, fisheries, and wetlands studies will help 
ensure that the longest free-flowing river in the lower 48 States 
maintains its natural functions while supporting irrigation and other 
economic uses of its waters. The Conservancy supports $750,000 for 
fiscal year 2010.
    Lake Champlain Canal Feasibility Study.--Invasive species are the 
most significant threat to the native biodiversity of Lake Champlain in 
New York and Vermont. Several new invaders are poised to enter Lake 
Champlain through the Champlain Canal in coming years, and an invasive 
species dispersal barrier is urgently needed. The Corps is authorized 
to study the feasibility of such a barrier and to construct and operate 
it. The Conservancy supports $500,000 for the feasibility study in 
fiscal year 2010.
    Susquehanna River Basin Low Flow Management and Environmental 
Restoration.--Drought conditions, combined with current and projected 
demands for water use, have the potential to impact natural ecosystems 
in the Susquehanna River basin and the upper Chesapeake Bay. This 
appropriation will fund a basin-wide study to investigate low flow 
conditions and establish ecologically based goals and standards for low 
flow management. The Conservancy supports $285,000 in fiscal year 2010 
for this project.
    Navajo Reservation Watershed Management, Restoration and 
Development.--The San Juan River watershed is severely impacted by 
water withdrawals, flow regulation at Navajo Dam and runoff from 
petroleum extraction and agriculture. This project will formulate a 
conservation strategy for the watershed within the Navajo Nation. The 
Conservancy supports $315,000 in fiscal year 2010 for this project.
    Pecos River Environmental Management Planning.--The Pecos River 
below Santa Rosa Dam is severely affected by flow regulation, 
irrigation, water withdrawals and runoff, preventing native vegetation 
from regenerating and causing frequent drying. This project will help 
develop a comprehensive strategy that identifies key conservation 
targets, critical threats and practical actions to address them. The 
Conservancy supports $840,000 in fiscal year 2010 for this project.

                             CORPS EXPENSES

    Mid-Atlantic River Basin Commissions.--We applaud the subcommittee 
for restoring Federal funding to the Delaware, Potomac, and Susquehanna 
River Basin Commissions in fiscal year 2009. They are essential to 
advancing and coordinating the water management and conservation 
interests of the Federal Government, the affected States, and the 
Conservancy. We support $2,365,000 for the Commissions in fiscal year 
2010.

                         BUREAU OF RECLAMATION

    Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Programs.--These programs take a balanced approach to 
restore four endangered fish species in the Colorado River system while 
allowing water use to continue in the arid West. A full appropriation 
will fund work on remaining major capital projects, including the 
completion of fish screens at the Hogback Diversion Dam and Tusher Wash 
Dam. The Conservancy supports $3.2 million in fiscal year 2010 for 
these Programs.
    Platte River Recovery Implementation Program.--An agreement between 
the Governors of Wyoming, Nebraska and Colorado and the Secretary of 
the Interior sets forth a plan to restore five endangered or threatened 
species in the Platte River basin. The Conservancy supports $14,038,500 
for this recovery effort in fiscal year 2010.
    Over the course of the past 10 years, restoration funding through 
the Corps has frequently focused on a select set of large-scale 
programs. These programs have been essential to restoring and 
maintaining some of America's most precious and imperiled ecosystems. 
At the same time, the role of smaller-scale projects should not be 
underestimated for their cumulative benefit and power as demonstrations 
to guide broader-scale efforts. We encourage the subcommittee to 
address the needs of these critical projects while continuing to 
support large-scale programs.
    All of the restoration projects supported in this testimony will 
create the same kinds of on-the-ground jobs created through the 
American Recovery and Reinvestment Act. The restored wetland and water 
resources resulting from these projects will also contribute ongoing 
value to local and regional economies through the important ecosystem 
services provided by healthy waterways and wetlands.
    Thank you for the opportunity to present our comments on the Energy 
and Water Appropriations bill.
                                 ______
                                 
  Prepared Statement of the American Society of Civil Engineers (ASCE)

    Mr. Chairman and members of the subcommittee, the American Society 
of Civil Engineers (ASCE) welcomes the opportunity to provide our views 
on the budget estimates for the U.S. Army Corps of Engineers (USACE or 
the Corps) and the U.S. Bureau of Reclamation (Bureau) for fiscal year 
2010.
    In its recent report on the concurrent resolution for fiscal year 
2010, the House Budget Committee said that the United States faces two 
significant deficits: the first, a budget in deficit this year alone by 
$1.752 trillion, according to the Office of Management and Budget 
(OMB); the second, an economy running at 6.8 percent, or $1 trillion, 
below its potential.
    These are daunting numbers, and Congress confronts a major 
challenge in funding the operations of the Government in light of the 
depressed economy and the continuing Federal deficits.
    But ASCE believes the Nation faces a third deficit--one that is as 
important as the first two. The United States must manage a continuing 
infrastructure investment deficit. Federal outlays for basic public 
works systems have declined relative to gross domestic product (GDP) 
over the past several decades.
    In its 2009 Report Card for America's Infrastructure, ASCE reported 
that the Nation needs to invest approximately $2.2 trillion over the 
next 5 years to maintain the Nation's total infrastructure in good 
condition.
    Even with current and planned investments from Federal, State, and 
local governments in the next 5 years, the ``gap'' between the overall 
need and actual spending will total more than $1 trillion by 2014.
    Within the Nation's general water resources alone, ASCE identified 
a 5-year funding gap of more than $20 billion.
    Nowhere is the infrastructure investment deficit more acute than in 
our waterways. Of the 257 locks still in use on the Nation's inland 
waterways, 30 were built in the 19th century and another 92 are more 
than 60 years old. The average age of all federally owned or operated 
locks is nearly 60 years, well past their planned design life of 50 
years. The cost to replace the present system of locks is estimated at 
more than $125 billion.
congress should appropriate $7 billion for the u.s. corps of engineers 

                CIVIL WORKS PROGRAM IN FISCAL YEAR 2010

    The U.S. Army Corps of Engineers has one of the Federal 
Government's largest environmental responsibilities. The Corps provides 
ecosystem restoration, constructs sustainable facilities, regulates 
waterways and manages natural resources, and cleans up contaminated 
military bases.
    Forty-one States, 16 State capitals and all States east of the 
Mississippi River are served by commercially navigable waterways. The 
U.S. inland waterway system consists of 12,000 miles of navigable 
waterways in four systems that connect with most of the States in the 
United States. The entire system contains 257 locks. The waterways 
include the Mississippi River, the Ohio River Basin, the Gulf 
Intercoastal Waterway, and the Pacific Coast systems.
    Three-quarters of the Nation's inland waterways (9,000 miles) are 
within the Mississippi River system. The next largest segment is the 
Ohio River system (2,800 miles). The Gulf Coast Intercoastal Waterway 
system is 1,109 miles, and the Columbia River system is only 596 miles 
long, the shortest of the four major systems.
    The network includes nearly 11,000 miles of the ``fuel-taxed inland 
waterway system.'' Commercial waterway operators on these designated 
waterways pay a fuel tax, deposited in the Inland Waterways Trust Fund, 
which funds half the cost of new construction and major rehabilitation 
of the inland waterway infrastructure.
    Because of their ability to move large amounts of cargo, the inland 
waterways are a strategic economic and military resource. A recent 
analysis by the U.S. Army War College concluded that ``the strategic 
contributions of these inland waterways are not well understood. The 
lack of adequate understanding impacts decisions contributing to 
efficient management, adequate funding, and effective integration with 
other modes of transportation at the national level. Recommendations 
demonstrate that leveraging the strategic value of U.S. inland 
waterways will contribute to building an effective and reliable 
national transportation network for the 21st century.''
    The current system of inland waterways lacks resilience in that 
waterway usage is increasing but facilities are aging and many are well 
past their design life of 50 years. Recovery from any event of 
significance would be harmed by the age and deteriorated condition of 
the system. Future investment must focus on life-cycle maintenance, 
system interdependencies, redundancy, security, and recovery from 
natural and man-made hazards.
    In spite of inadequate budgets in recent years, the Corps continues 
to keep the waterways functioning. It will open new twin 1,200-foot 
locks on the Ohio River to replace a single, shorter lock built in 
1921. The Corps is currently constructing new, larger locks in several 
States, including Illinois, Kentucky, Louisiana, Pennsylvania, and West 
Virginia.
    The Corps also is embarking on major renovations of several older 
locks. These projects represent a $3.5 billion investment in 
modernizing the Nation's inland waterways. They also include 
significant investments in environmental restoration and management.
    The Corps is bringing new technology online to make waterways 
navigation safer. The latest innovation is called ``real-time current 
and velocities.'' This system alerts waterways users to the real-time 
speed of wind and currents on inland waterways. A total of six systems 
will be completed by the end of 2009.
    In addition to the infrastructure mentioned above, the Corps has 
major responsibilities in other areas. It protects coastlines; develops 
flood-reduction and hydropower projects; oversees 4,300 recreation 
areas at 420 lakes in 43 States; and operates 134 multiple-purpose 
projects that contain storage for water supply in 26 States and Puerto 
Rico.
    The USACE also shares responsibility among Federal, State and local 
agencies, and private landowners for raising awareness and 
understanding of the risks associated with living and working behind 
levees.
    The fiscal year 2009 appropriation for the Corps of Engineers is 
$5.4 billion, but the construction backlog for the Corps tops $60 
billion nationwide. Even with the addition of $4.6 billion for fiscal 
year 2009 through the American Recovery and Reinvestment Act, the 
investment deficit on our waterways remains at an estimated $20.5 
billion through 2014.
    The President's budget proposal for fiscal year 2010 is $5.1 
billion. Despite the difficult budget climate and the dismal economic 
picture, we urge an appropriation of $7 billion in fiscal year 2010 to 
begin the long overdue process of rebuilding America's water resources 
infrastructure.

    CONGRESS SHOULD APPROPRIATE $1.3 BILLION FOR THE U.S. BUREAU OF 
                    RECLAMATION IN FISCAL YEAR 2010

    The Bureau of Reclamation's mission is to ``manage, develop, and 
protect water and related resources in an environmentally and 
economically sound manner in the interest of the American public.'' The 
Bureau is the Nation's largest wholesale water supplier; it administers 
348 reservoirs with a total storage capacity of 245 million acre-feet 
of water. It provides water to more than 31 million customers and 
supplies 20 percent of western farmers with water to irrigate 10 
million acres of farmland.
    In addition, the Bureau is the Nation's second largest producer of 
hydroelectric power, generating more than 40 billion kilowatt-hours of 
energy each year--an amount equivalent to the energy provided by 80 
million barrels of crude oil. In the 100 years since Reclamation's 
creation, the Federal Government has invested almost $21 billion in 
original development costs for its infrastructure and other facilities.
    The Bureau operates 348 dams and reservoirs, 58 hydropower 
generation facilities, more than 8,000 miles of canals, more than 
24,000 miles of water distribution laterals, and more than 13,000 miles 
of drains. ASCE notes that most of Reclamation's major dams, 
reservoirs, hydroelectric plants, and irrigation systems are 50 or more 
years old. In December 2007, the Bureau calculated that nearly 80 of 
the 348 dams (approximately 23 percent) are 90 to 100 years old or 
older.
    The Bureau has identified an estimated $3 billion in total 
infrastructure investment needs over the next 20 years.
    We concur with former Commissioner Robert Johnson, who informed 
Congress in 2008 that, although the Bureau and its more than 350 
operating partners have successfully operated and maintained the 
infrastructure to date, the aging process will inevitably lead to 
increased pressure on budgets and user rates to keep infrastructure 
service and reliability corresponding with past levels. The Bureau and 
its partners anticipate a steady increase in infrastructure repair 
needs that will continue to grow over time, the Bureau said last April.
    The fiscal year 2009 appropriation was $1.1 billion, the same as 
fiscal year 2008, for dams, canals, water treatment and conservation, 
and rural water projects. The fiscal year 2010 proposal is $1.020 
billion. Congress should appropriate $1.3 billion for the U.S. Bureau 
of Reclamation in fiscal year 2010, with the bulk of the increase set 
aside for infrastructure renewal under the Bureau's 5-year capital 
improvement plan.
                                 ______
                                 
 Prepared Statement of the Board of Levee Commissioners for the Yazoo-
                           Mississippi Delta

 U.S. ARMY CORPS OF ENGINEERS MISSISSIPPI RIVER & TRIBUTARIES PROJECT 
                 FISCAL YEAR 2010 REQUEST--$500 MILLION

    As the front line flood protection provider for the approximately 
300,000 Mississippians who reside within the 10 counties of our levee 
district, the Yazoo-Mississippi Delta Levee Board humbly requests that 
you allocate adequate funding to fully fund the Mississippi River and 
Tributaries Project (MR&T) at the Corps of Engineers' capability level 
for the 2010 fiscal year--$500 million.
    And yes, we do know that is a lot of money. Even in this time--one 
which many of us believed we'd never see--of trillion dollar deficits 
and untold trillions in evaporated wealth, we do indeed know that $500 
million is a lot of money.
    We know that these are perilous times for our Nation, times in 
which the collective wisdom and sound judgment of you men and women 
will be nothing less than critical to our well being as a people. We 
know there are simply fiscal limits and we know that priorities must be 
and will be set.
    But we also know that flood control is nothing less than vital to 
America's heartland. In many cases, such as our part of the Mississippi 
Delta, flood control is the primary factor allowing those who live 
there to live there. The heartland produces much of the food and fiber 
which allows us to feed and clothe not only our Nation, but much of the 
world. But there can be no food, there can be no fiber if the most 
fertile soils this side of the Nile delta were to be under water--were 
to be again inundated by the same water which created them.
    The Mainline Mississippi River Levee System, truly one of the 
world's greatest engineering marvels, is literally all that stands 
between the human beings who live and produce and prosper up and down, 
along either side of the Mississippi River--the largest, most powerful 
and often most fickle flowing waterway on the North American continent. 
Our levees are strong, true and tested, but like all the creations of 
man, they must be maintained; they must be vigilantly strengthened and 
repaired from the ravages of the power they contain every day.
    We ask that the MR&T's levees be funded at levels of $69.972 
million for construction, $61.2 million for channel improvements, 
$13.522 million for levee maintenance and $79.309 million for channel 
maintenance.
    There are many projects, many efforts within the flood control 
umbrella that is the MR&T, and there are many who will speak to you on 
behalf of them, but for our people, for the lives and livelihoods of 
those we are dedicated to protect, there is only this levee board to 
speak. And so we now will.
    For us there must remain one overriding priority--the Upper Yazoo 
Project. Ladies and Gentlemen, this effort designed to protect 
thousands from chronic flooding along the Yazoo/Coldwater river system, 
is perhaps the least controversial flood control project in the Nation, 
favored not only by our citizenry but the environmental community, as 
well. It is designed and it is demonstratively effective within its 
completed reaches. It need only be adequately funded to provide long 
awaited relief to those who have suffered for many years.
    We ask that you provide the Corps capability funding level of $24.4 
million in 2010.
    We also ask that this collective Congress provide funding for the 
following projects affecting our district and its people at the 2010 
capability levels:

------------------------------------------------------------------------

------------------------------------------------------------------------
                    CONSTRUCTION
Backwater...........................................            $325,000
Main Stem...........................................             $25,000
MS Delta Headwaters.................................         $25 million
Big Sunflower River.................................       $2.18 million
Reformulation Study.................................          $3 million

                     MAINTENANCE

Revetments and Dikes................................       $58.2 million
Sardis Lake.........................................     $14.483 million
Arkabutla Lake......................................     $13.793 million
Enid Lake...........................................      $12.69 million
Grenada Lake........................................     $13.231 million
Greenwood...........................................       $1.85 million
Yazoo City..........................................            $550,000
Yazoo Main Stem.....................................      $3.154 million
Yazoo Tributaries...................................            $953,000
Big Sunflower.......................................      $4.311 million
Yazoo Backwater.....................................            $905,000
------------------------------------------------------------------------

    Thank you for your careful consideration of our requests and we 
trust that once again, as has been so critical for our people on so 
many occasions over the years, the old adage will once again be 
validated: ``The President proposes, but the Congress disposes.''
                                 ______
                                 
     Prepared Statement of the California State Coastal Conservancy

                                SUMMARY

    On behalf of the California State Coastal Conservancy, I want to 
thank the subcommittee for this opportunity to present our priorities 
for fiscal year 2010 and, at the same time, express our appreciation 
for your support of the Conservancy's projects in past years. The 
Conservancy respectfully requests needed funding for the following 
critical U.S. Army Corps of Engineers projects during fiscal year 2010. 
All of these requests reflect Corps of Engineers capability for the 
individual projects: $18 million for the Matilija Dam Ecosystem Project 
(Construction General); $7,750,000 for Napa River Salt Marsh Project 
(Construction General); $18,500,000 for the Hamilton Bel-Marin Keys 
Wetland Restoration Project (Construction General) and $2,800,000 for 
the South San Francisco Bay Shoreline Study (General Investigations).

                         CONSERVANCY BACKGROUND

    The California Coastal Conservancy, established in 1976, is a State 
agency that uses entrepreneurial techniques to purchase, protect, 
restore and enhance coastal resources while providing public access to 
the shore. We work in partnership with local governments, other public 
agencies, nonprofit organizations, and private landowners to accomplish 
these goals.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay, 
resulting in completed projects in every coastal county and all 9 San 
Francisco Bay Area counties. Through these projects, the Conservancy: 
protects and improves coastal wetlands, streams, and watersheds; works 
with local communities to revitalize urban waterfronts; assists local 
communities in solving complex land-use problems; and protects 
agricultural lands and supports coastal agriculture, to list a few of 
its main activities.
    Since our establishment in 1976, the Coastal Conservancy has: 
helped build more than 300 access ways and trails opening more than 80 
miles of coastal and bay lands for public use; assisted in the 
completion of over 100 urban waterfront projects; and joined in 
partnership endeavors with more than 100 local land trusts and other 
nonprofit groups, making local community involvement an integral part 
of the Coastal Conservancy's work.

  MATILIJA DAM ECOSYSTEM RESTORATION PROJECT--CORPS OF ENGINEERS, LOS 
                            ANGELES DISTRICT

    In fiscal year 2010 we are seeking $18,500,000 in Construction 
funding for the Army Corps of Engineers Construction General account to 
finalize design and begin the removal of the Matilija Dam in Ventura 
County, California. Approximately $1 million will be utilized to 
finalize design activities and the remaining $14 million in Corps 
capability will be used to advance construction of the project. Of that 
amount, approximately $7,500,000 would be designated for construction 
activities associated with the high-flow bypass of the dam with the 
remaining $5,500,000 being utilized for the building of levees 
downstream from the site.
    The Matilija Dam Ecosystem Restoration Project, authorized in 
Public Law 110-114, is a project of vital importance and consists of 
the removal of the no longer needed or functional 200-foot tall 
Matilija Dam, located on a tributary to the Ventura River. The dam is 
currently unusable as sediment has filled in its reservoir. Completion 
of the project will reopen 17.3 miles of unimpeded habitat for the 
endangered steelhead trout and other aquatic species. In addition, the 
project will restore over 2,800 acres of habitat that will support a 
wide variety of native species, including 25 special status species 
while replenishing area beaches by allowing sand (now trapped behind 
the Dam) to flow to coastal beaches upon the Dam's removal.
    The removal of Matilija Dam will also provide extensive economic 
benefits in addition to the environmental benefits that will be 
accrued. Specifically, over the life of the project we can expect an 
increase in California's economic output of $250 million and the 
creation of 1,500 jobs for the $100 million investment in the 
construction of the project. In the more immediate future (3 years) 
there would be an economic benefit of $150 million and the creation of 
over 900 jobs making the project a sound investment in California and 
the Nation's economy.
    This project is one of the largest dam removal projects in the 
Country and enjoys broad support from many local, State and Federal 
agencies. To remove the dam, 6 million cubic yards of sediments will be 
moved or recontoured and a high flow sediment bypass system will be 
constructed at a water diversion downstream. In addition, a silt 
removal system will be installed along the diversion canal. 
Furthermore, levees will be built in several places along the river 
channel to protect property from flooding due to the expected increases 
in stream channel elevation in the first years after removal of the 
dam. The project also involves removal of invasive plants and the 
installation of replacement water wells.

   NAPA RIVER SALT MARSH--CORPS OF ENGINEERS, SAN FRANCISCO DISTRICT

    For fiscal year 2010, we are seeking $8 million in construction 
funds to continue to advance this critical project that is nearly two-
thirds complete. The only remaining work is that which was authorized 
for construction in Public Law 110-114 and must be undertaken by the 
U.S. Army Corps of Engineers. The funds requested would allow the Corps 
of Engineers to complete design and begin construction of their portion 
of the Napa River Salt Marsh Project which includes the restoration of 
Ponds 6-8. It is important to note that the project can be completed 
quickly as it only requires a total of $13 million to construct the 
Ponds 6-8 improvements over an estimated 2-year construction period.
    Substantial funding during the current fiscal year is essential to 
ongoing project success as the local sponsors have spent their full 
share and have no additional State or local funds dedicated to the 
project to continue its implementation. State and local partners 
expended their share on completion of Phases I and II of the project. 
Phase I involved opening 3,000 acres of salt ponds (Ponds 3, 4, and 5) 
to full tidal action in 2006 and is the largest tidal restoration 
project in the San Francisco Bay to date. Phase II involved the 
restoration of 1,700 acres (Ponds 1/1A, and 2) to managed ponds for 
waterfowl and shorebirds in 2007. Without Federal funding this fiscal 
year, the project will continue to be halted, benefits will continue to 
be delayed and project costs will increase greatly.
    The project is part of a larger environmental restoration effort to 
restore the Nation's second largest estuary the San Francisco Bay, and 
its watershed, to its natural state. This restoration effort is 
expected to improve the environmental sustainability of the Estuary 
while providing great scenic and recreational values for the local 
community. Federal funds are critically required for the completion of 
the project whose extensive benefits to the region include: providing 
extensive wetland habitat in San Francisco Bay; the beneficial use for 
recycled water in the North Bay; improved open space and recreational 
opportunities; and resolving urgent issues associated with 
deterioration of the site's levee, water control structures, and water 
quality.
    Our request reflects Corps capability and funding will be utilized 
to complete design of Ponds 6-8. In addition, funding will initiate 
design of the recycled water pipeline, an item expressly included by 
Congress in the project's authorization. Funds will also be used to 
secure necessary permits and approvals and begin construction of Ponds 
6-8.
    The 10,000 acre Napa River Salt Marsh was purchased by the State of 
California from Cargill in 1994 and is managed by the California 
Department of Fish and Game. The State Coastal Conservancy has been the 
non-Federal sponsor working with the Corps on the Feasibility Study. 
The Corps' Feasibility Study was completed and the Chief's Report was 
signed in December 2004.

     HAMILTON BEL-MARIN KEYS WETLAND RESTORATION PROJECT--CORPS OF 
                   ENGINEERS, SAN FRANCISCO DISTRICT

    In fiscal year 2010, the California State Coastal Conservancy is 
seeking $18,500,000 in Construction funding for the Hamilton Bel-Marin 
Keys Wetland Restoration Project. The project was authorized by 
Congress in 1999 (Public Law 106-53) and our request reflects Corps 
capability for the project.
    This project is of critical importance as it will provide nearly 
700 acres of restored tidal and seasonal wetlands at a former Army base 
and provides much needed habitat for several threatened and endangered 
species; as well as, shorebirds and waterfowl migrating along the 
Pacific Flyway. Because the project requires large volumes of dredged 
sediment for completion, this project will result in a greatly reduced 
need to dispose of sediment in the Bay and Pacific Ocean, which has 
direct benefits to aquatic life. Furthermore, the project also 
beneficially uses dredged material from the San Francisco Bay which 
provides for increased navigation and maritime commerce, a much needed 
economic stimulus for the region. In addition to the extensive 
environmental and maritime navigation benefits, the project will also 
serve as a key driver for the regional economy as implementation and 
full funding is expected to bring approximately 304 jobs to Marin 
County, California.
    The project was provided full funding in the Omnibus Appropriations 
Act of 2009 and as a result work is currently underway. As a result of 
this significant commitment, the majority of the required site 
preparation has been completed on the former Army Airfield, including 
the construction of miles of levees. The main runway and taxiways are 
now in the process of being buried under millions of cubic yards of 
clean dredged sediment. Subsequently, the easterly levee will be 
breached allowing tidal waters to once again flood the site. 
Significant progress has been made as over 2.4 million cubic yards 
being delivered to Hamilton as of January 2009. To complete the 
Airfield portion of the project an additional 5 million cubic yards of 
sediment is needed. Under the current schedule it is expected that 
completion of the Airfield portion of the project will occur between 
2013 and 2015. Following completion of the Airfield, the Corps will 
work on the adjacent Antenna field and Bel-Marin Keys V property for a 
total project area of nearly 2,500 acres.
    The project enjoys broad support from environmental groups, labor 
and maritime interests as well as local government in Marin County. Key 
supporters include the San Francisco Bay Joint Venture, the County of 
Marin, the Port of Oakland, the Bay Planning Coalition, the Bay 
Institute, the Save San Francisco Bay Association, the National Audubon 
Society, and many others.

   SOUTH SAN FRANCISCO BAY SHORELINE STUDY--CORPS OF ENGINEERS, SAN 
                           FRANCISCO DISTRICT

    The Conservancy is seeking $2,800,000 in Investigations funding to 
continue the Feasibility Study for this groundbreaking project that 
will provide tidal and fluvial flood protection to the south San 
Francisco Bay Area. The study was initiated in fiscal year 2005 and has 
been ongoing thanks to the support of the subcommittee. In fact, in the 
Omnibus Appropriations Act of 2009 the project received $2,800,000 
representing full capability for the project.
    This project is of national significance as it will provide tidal 
and fluvial flood protection for the south San Francisco Bay Area, 
including Silicon Valley, protecting approximately 42,800 acres, 7,400 
homes and businesses, and significant urban infrastructure, including 
major highways, hospitals and airport facilities. In addition, the 
project is being pursued in conjunction with the 2nd largest wetlands 
restoration project occurring in the United States and as such will 
provide extensive habitat for federally endangered species and 
migratory waterfowl.
    To continue to advance this important study it is imperative that 
local interests and the Federal Government work together to ensure a 
reliable funding stream for the project. To that end, continued Federal 
funds are necessary to keep the project on schedule as the 
Conservancy's co-local sponsor for the project, the Santa Clara Valley 
Water District, will be approaching voters in 2012 to secure local 
funding for the construction of the recommended project. When this 
occurs, the District needs to have a deliverable product that they can 
showcase to voters given the fact that California's Proposition 13 
requires that any new taxation be approved by a two-thirds majority of 
voters.
    During fiscal year 2010 we are seeking $2,800,000 in accordance 
with Corps of Engineers capabilities for the project during the current 
fiscal year. Funds in fiscal year 2010 are expected to be used for the 
following activities: Hydrology, Hydraulics and Coastal Analysis--$1 
million; Economics Analysis--$250,000; Plan Formulation--Alternatives 
Development $250,000; Habitat Evaluation Analysis--$150,000; NEPA--EIS 
Development--$400,000; Engineering & Design/Geotech--$200,000; Project 
Management--$400,000 and Surveys & Mapping--$150,000.
    The project enjoys substantial support among Federal, State and 
local agencies with the following agencies serving as active project 
partners: California State Coastal Conservancy; California Department 
of Fish and Game; U.S. Fish and Wildlife Service; U.S. Army Corps of 
Engineers, NOAA, U.S. Geological Survey; Santa Clara Valley Water 
District; Alameda County Flood Control and Water Conservation District; 
Hewlett, Packard, and Moore Foundations and the Goldman Fund. The 
project is also supported by the San Francisco Bay Joint Venture, the 
city of San Jose, The Bay Institute, Save the Bay, the Bay Trail 
Program, the National Audubon Society, and many other local 
governments, environmental groups, community groups, businesses, and 
recreation organizations.
                                 ______
                                 
      Prepared Statement of the Santa Clara Valley Water District

                                SUMMARY

    This statement urges the subcommittee's support for a fiscal year 
2010 appropriation of $100,000 to initiate a Reconnaissance Study of 
the Coyote Creek Watershed.

           STATEMENT OF SUPPORT--COYOTE CREEK WATERSHED STUDY

    Background.--Coyote Creek drains Santa Clara County's largest 
watershed, an area of more than 320 square miles encompassing most of 
the eastern foothills, the city of Milpitas, and portions of the Cities 
of San Jose and Morgan Hill. It flows northward from Anderson Reservoir 
through more than 40 miles of rural and heavily urbanized areas and 
empties into south San Francisco Bay.
    Prior to construction of Coyote and Anderson Reservoirs, flooding 
occurred in 1903, 1906, 1909, 1911, 1917, 1922, 1923, 1926, 1927, 1930 
and 1931. Since 1950, the operation of the reservoirs has reduced the 
magnitude of flooding, although flooding is still a threat and did 
cause damages in 1982, 1983, 1986, 1995, and 1997. Significant areas of 
older homes in downtown San Jose and some major transportation 
corridors remain susceptible to extensive flooding. The federally-
supported lower Coyote Creek Project (San Francisco Bay to Montague 
Expressway), which was completed in 1996, protected homes and 
businesses from storms which generated record runoff in the northern 
parts of San Jose and Milpitas.
    The proposed Reconnaissance Study would evaluate the reaches 
upstream of the completed Federal flood protection works on lower 
Coyote Creek.
    Objective of Study.--The objectives of the Reconnaissance Study are 
to investigate flood damages within the Coyote Creek Watershed; to 
identify potential alternatives for alleviating those damages which 
also minimize impacts on fishery and wildlife resources, provide 
opportunities for ecosystem restoration, provide for recreational 
opportunities; and to determine whether there is a Federal interest to 
proceed into the Feasibility Study Phase.
    Study Authorization.--In May 2002, the House of Representatives 
Committee on Transportation and Infrastructure passed a resolution 
directing the Corps to ``. . . review the report of the Chief of 
Engineers on Coyote and Berryessa Creeks . . . and other pertinent 
reports, to determine whether modifications of the recommendations 
contained therein are advisable in the interest of flood damage 
reduction, environmental restoration and protection, water conservation 
and supply, recreation, and other allied purposes . . .''.
    Fiscal Year 2006 Administration Budget Request and Funding.--The 
Coyote Watershed Study was one of only three ``new start'' studies 
proposed for funding nationwide in the administration fiscal year 2006 
budget request. Congress did not include funding for the study in the 
final fiscal year 2006 appropriations bill, or in any subsequent bills.
    Fiscal Year 2009 Funding.--Congress did not appropriate any funding 
to the project in fiscal year 2009.
    Fiscal Year 2010 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation of $100,000 to 
initiate a multi-purpose Reconnaissance Study within the Coyote Creek 
Watershed.

                                SUMMARY

    This statement urges the subcommittee's support for a fiscal year 
2010 appropriation of $2.25 million to complete the General 
Reevaluation Report, update of environmental documents, and commence 
design work for the Berryessa Creek Flood Protection Project element of 
the Coyote/Berryessa Creek Project.

 STATEMENT OF SUPPORT--COYOTE/BERRYESSA CREEK PROJECT--BERRYESSA CREEK 
                            PROJECT ELEMENT

    Background.--The Berryessa Creek Watershed is located in northeast 
Santa Clara County, California, near the southern end of the San 
Francisco Bay. A major tributary of Coyote Creek, Berryessa Creek 
drains 22 square miles in the city of Milpitas and a portion of San 
Jose.
    On average, Berryessa Creek floods once every 4 years. The most 
recent flood in 1998 resulted in significant damage to homes and 
automobiles. The proposed project on Berryessa Creek, from Calaveras 
Boulevard to upstream of Old Piedmont Road, will protect portions of 
the cities of San Jose and Milpitas. The flood plain is largely 
urbanized with a mix of residential and commercial development. Based 
on the U.S. Army Corps of Engineers (Corps) 2005 report, a 1 percent or 
100-year flood could potentially result in damages exceeding $179 
million. Benefit-to-cost ratios for the six project alternatives being 
evaluated range from 2:1 to 7.3:1.
    Study Synopsis.--In January 1981, the Santa Clara Valley Water 
District (District) applied for Federal assistance for flood protection 
projects under section 205 of the 1948 Flood Control Act. The Water 
Resources Development Act of 1990 authorized construction on the 
Berryessa Creek Flood Protection Project as part of a combined Coyote/
Berryessa Creek Project to protect portions of the cities of Milpitas 
and San Jose.
    The Coyote Creek element of the project was completed in 1996. The 
Berryessa Creek Project element proposed in the Corps' 1987 feasibility 
report consisted primarily of a trapezoidal concrete lining. This was 
not acceptable to the local community. The Corps and the District are 
currently preparing a General Reevaluation Report which involves 
reformulating a project which is more acceptable to the local community 
and more environmentally sensitive. Project features will include 
setback levees and floodwalls to preserve sensitive areas (minimizing 
the use of concrete), appropriate aquatic and riparian habitat 
restoration and fish passage, and sediment control structures to limit 
turbidity and protect water quality. The project will also accommodate 
the city of Milpitas' adopted trail master plan. Estimated total costs 
of the General Reevaluation Report work are $6.5 million, and should be 
completed in 2009.
    Fiscal Year 2009 Funding.--Congress appropriated $138,000 to the 
project in fiscal year 2009.
    Fiscal Year 2010 Funding Recommendation.--Based on the continuing 
threat of significant flood damage from Berryessa Creek and the need to 
complete the General Reevaluation Report, it is requested that the 
Congressional Committee support an appropriation of $2.25 million for 
the Berryessa Creek Flood Protection Project element of the Coyote/
Berryessa Creek Project.
                                 ______
                                 
       Prepared Statement of the Calaveras County Water District

                            PROJECT REQUESTS
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
NEW HOGAN WATER DISTRIBUTION SYSTEM (Construction General--     $600,000
 section 219)..............................................
COSGROVE CREEK FLOOD CONTROL PROJECT (Construction General--     200,000
 section 205)..............................................
CALAVERAS COUNTY REGIONAL WATER/WASTEWATER AND RECYCLED          600,000
 WATER FACILITIES PROGRAM--PHASE II (Construction General--
 section 5039).............................................
------------------------------------------------------------------------

                                OVERVIEW

    On behalf of the Calaveras County Water District, I want to thank 
the subcommittee for this opportunity to present our priorities for 
fiscal year 2010 and, at the same time, express our appreciation for 
your support of the District's projects in recent years. The Calaveras 
County Water District is respectfully seeking the following requests 
before the Senate Energy and Water Development Appropriations 
Subcommittee from the U.S. Army Corps of Engineers during fiscal year 
2010. We are seeking $600,000 from the Corps of Engineers Construction 
General Account section 219 for our New Hogan Water Distribution System 
request; $200,000 from the Corps of Engineers Construction General 
Account section 205 for the Cosgrove Creek Flood Control Project; and 
$600,000 from the Corps Construction General Account section 5039 for 
the Calaveras County Regional Water/Wastewater and Recycled Water 
Facilities Program Phase II.
    As background, our agency, the Calaveras County Water District 
(CCWD) was founded in the fall of 1946 and was organized under the laws 
of the State of California as a public agency for the purpose of 
developing and administering the water resources in Calaveras County. 
Therefore, CCWD is a California Special District and is governed by the 
California Constitution and the California Government and Water Codes. 
CCWD is not a part of, or under the control of, the County of 
Calaveras. CCWD was formed to preserve and develop water resources and 
to provide water and wastewater service to the citizens of Calaveras 
County.
    Under State law, CCWD, through its board of directors, has general 
powers over the use of water within its boundaries. These powers 
include, but are not limited to: the right of eminent domain, authority 
to acquire, control, distribute, store, spread, sink, treat, purify, 
reclaim, process and salvage any water for beneficial use, to provide 
sewer service, to sell treated or untreated water, to acquire or 
construct hydroelectric facilities and sell the power and energy 
produced to public agencies or public utilities engaged in the 
distribution of power, to contract with the United States, other 
political subdivisions, public utilities, or other persons, and subject 
to the California State Constitution, levy taxes and improvements.

                  NEW HOGAN WATER DISTRIBUTION PROJECT

    CCWD is seeking $600,000 in fiscal year 2010 for the New Hogan 
Water Distribution Project, a multi-phased project that will improve 
the region's water supply, significantly increase and protect water 
quality and provide significant environmental restoration that will 
greatly increase habitat for local wildlife while increasing 
recreational opportunities for the local community. The project will 
construct infrastructure to convey surface water to existing and 
expanding agricultural acreage in western Calaveras County. The area 
currently relies on a diminishing groundwater supply, which is 
experiencing water quality problems and has been identified by the 
State as an overdrafted groundwater basin. The project will include 
monitoring facilities to continually evaluate the region's sensitive 
groundwater basin and its response to conjunctive use operation and 
will also include enhanced modeling tools that evaluate the 
effectiveness of planned or proposed facilities for expanding 
conjunctive use in the region.
    The project will provide a sustainable water supply for the western 
Calaveras County region experiencing declining groundwater levels, 
water quality deterioration, expanding agriculture, significant 
population growth, and the continuing threat of drought. Infrastructure 
will be built to convey surface water from existing reservoirs and 
water rights and entitlements permitted or contracted by the Calaveras 
County Water District to areas at greatest risk for groundwater supply 
problems. Through introduction of surface water planned decades ago, 
the Calaveras County Water District will introduce conjunctive use to 
increase water supply reliability for all surface water and groundwater 
users within the western Calaveras County region. The project will 
benefit all of California as it will minimize the losses of naturally 
occurring springs and will improve stream-flow conditions for river 
tributaries of the Sacramento-San Joaquin River Delta, which provides 
two-thirds of the State of California with water. Finally, water 
conservation and wastewater recycling are critical elements that can 
reduce demands or stretch existing water supplies. Assessment of public 
outreach and environmental documentation needs will also be performed, 
as identified in a project management plan.
    Cost Breakdowns for this project in fiscal year 2010 are listed as 
follows: Negotiation Project Partnership Agreement (PPA) and initial 
planning, design, and construction contract $50,000; develop Calaveras-
Mokelumne Master Plan Concept $50,000; water supply and demand analysis 
$75,000; alternatives formulation and analysis $175,000; environmental 
program development $75,000; development of institutional partnerships 
and public outreach, $100,000; development of Feasibility Report 
$75,000.

                  COSGROVE CREEK FLOOD CONTROL PROJECT

    CCWD, in conjunction with Calaveras County, is seeking $200,000 in 
the Construction General section 205 account for the Cosgrove Creek 
Flood Control Project. The project will address flooding that occurs 
along the lower reaches of the creek, as well as flooding that occurs 
on Spring Creek. Flooding in these areas impacts over 400 people and 
100 structures located in the 100-year floodplain. The project will 
attenuate peak flows, address the beneficial use of peak flows, 
stabilize creek banks, improve natural conditions favorable to wetlands 
and riparian habitat, and increase recreational opportunities in the 
area. In addition to providing critical flood control for the region, 
the project will provide a number of ancillary benefits including; the 
beneficial use of flood flows including sprayfields, conjunctive use of 
recycled water and wetlands restoration. Further, the project will 
provide additional riparian habitat and much-needed recreational 
opportunities through the creation of hiking/riding trails and numerous 
athletic fields for use by the local community.

     CALAVERAS COUNTY REGIONAL WATER/WASTEWATER AND RECYCLED WATER 
                      FACILITIES PROGRAM--PHASE II

    CCWD third and final priority for fiscal year 2010 is a request for 
$600,000 to support the Calaveras County Regional Water/Wastewater and 
Recycled Water Facilities Program Phase II, a multi-phase, 
collaborative project to investigate strategic opportunities to correct 
water and wastewater utility deficiencies along the Highway 4 corridor 
in the Stanislaus River Watershed of Calaveras County.
    Utility regionalization and improved coordination are needed to 
support sustainable practices in the Sierra Nevada foothill 
communities. This project would create partnerships between local, 
State, and Federal agencies so that infrastructure improvements, 
replacement needs, and growth decisions can be coordinated in a manner 
that respects connections between water, wastewater, land use, and 
development within the watershed thereby greatly enhancing the 
utilization and safeguarding of our region's water resources.
    To accomplish these objectives CCWD will partner with Calaveras 
County, the city of Angels, Murphys Sanitary District, Union Public 
Utility District, and the Utica Power Authority. Through the 
identification of particular problem areas and collaboration with our 
local partners a ``living'' model will be developed to examine 
strategies for regionalizing water and wastewater facilities. A 
technical team consisting of project partners will develop preliminary 
concept plans based on shared goals, objectives, and priorities. 
Information will be circulated among all stakeholders and strong 
community involvement plan will be put forth that will incorporate the 
suggestions of the public and interested non-governmental 
organizations. This original model will then be further refined to 
evaluate concepts achieving maximum beneficial use to ensure a 
sustainable, cost-effective concept plan emerges for regional watershed 
implementation.
    Cost breakdowns for this critical project in fiscal year 2010 are 
listed as follows: Negotiation of PPA and Initial planning, design, and 
construction contract $50,000; development of regional water/wastewater 
and recycled water master plan concept $50,000; summary of existing 
facilities and regulatory setting $50,000; evaluation of wastewater and 
water supply needs $75,000; formulation and evaluation of alternatives 
$200,000; development of institutional partnerships and public outreach 
$100,000; and reparation of Feasibility Study $75,000.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2010 for 
programs under the jurisdiction of the subcommittee. The League is a 
national, nonprofit organization founded in 1922. We have nearly 37,000 
members and 270 community-based chapters nationwide. Our members are 
committed to advancing common sense policies that safeguard wildlife 
and habitat, support community-based conservation, and address pressing 
environmental issues. The following pertains to programs administered 
by the U.S. Army Corps of Engineers.
corps of engineers, operations and maintenance, upper mississippi river
    The League supports strong financial efforts for ecosystem 
restoration for the Upper Mississippi River (UMR). We have supported 
the Environmental Management Program (EMP) since its inception and 
continue to support this vital restoration program. EMP should be fully 
funded at its authorized level of $33.2 million and the current 
restriction for starting new EMP projects should be lifted. It is 
important to note that even this level of investment can serve only to 
slow the pace of UMR degradation, not achieve net restoration.
    The League has also strongly expressed its opinion that the large-
scale navigation modifications included in the Recommended Plan for the 
Upper Mississippi Navigation and Ecosystem Sustainability Program 
(NESP), as authorized by the Water Resources Development Act of 2007, 
have not been justified by the Corps and should not be pursued. 
Previous reviews from the National Academy of Sciences and the 
Assistant Secretary of the Army, Civil Works found that the navigation 
construction component of NESP was not economically justifiable.
    The League has strong roots in the Upper Mississippi River region. 
Protecting the basin has been a key issue for our members since we led 
the fight to create the Upper Mississippi River Fish and Wildlife 
Refuge in 1924. The League has spearheaded efforts to reform the lock 
and dam navigation system to ensure that flows and habitat remain as 
natural as possible. We also work to promote sustainable agriculture 
practices and implement farm conservation programs to reduce polluted 
runoff. Our testimony reflects many decades of experience on the Upper 
Mississippi River and our direct 15-year involvement with the Upper 
Mississippi River--Illinois Waterway (UMR-IWW) navigation study.
    The Upper Mississippi River is one of the most complex ecosystems 
on earth. It provides habitat for 50 species of mammals, 45 species of 
reptiles and amphibians, 37 species of mussels, and 241 species of 
fish. The need for ecosystem restoration is unquestionable. As the 
Corps correctly stated in its study of navigation expansion, this 
ecosystem is ``significantly altered, is currently degraded, and is 
expected to get worse.'' Researchers from the National Academy of 
Sciences have determined that river habitat is disappearing faster than 
it can be replaced through existing programs such as the Corps' 
Environmental Management Program, which was authorized at $33.2 million 
annually by Congress in 1999, but has never received full 
appropriations. As habitat vanishes, scientists warn that many species 
will decline and some will disappear.
    Our Nation relies on a healthy Mississippi River for commerce, 
recreation, drinking water, food supply and power. More than 12 million 
people annually recreate on and along the Upper Mississippi River 
spending $1.2 billion and supporting 18,000 jobs. More people recreate 
on the Upper Mississippi than visit Yellowstone National Park. Notably, 
barge traffic has remained static on the river for more than two 
decades with real declines in recent years.
    The Water Resources Development Act of 2007 authorizes the 
Navigation and Ecosystem Sustainability Program (NESP) for the Upper 
Mississippi River. NESP allocates $2.2 billion for new navigation-
related construction and $1.7 billion for ecosystem restoration over an 
initial 15-year project phase. Included in the $2.2 billion is over 
$256 million for small-scale and non-structural navigation projects 
that we fully support. However, we have consistently opposed the 
unnecessary spending of tax dollars on the economically unsound new 
locks, a position further bolstered by the continuing annual declines 
in barge traffic on the UMR.
    In assembling the UMR-IWW navigation study, the Corps recognized 
the critical need for UMR ecosystem restoration work and encouraged 
Congress to invest approximately $130 million annually in Upper 
Mississippi River habitat restoration efforts. With this demonstrated 
need in mind, the League strongly encourages the subcommittee to 
prioritize investment in ecosystem restoration. Appropriating 
significant funding for restoration will provide near-term economic 
stimulus in communities along the UMR and long-term conservation and 
economic benefits for the region and the Nation.
    The administration's budget does not request funding for NESP. The 
League supports increasing fiscal year 2010 NESP navigation funding to 
adequately cover the cost of initiating small-scale and non-structural 
navigation projects only. We strongly support increasing total 
ecosystem restoration funding incrementally, in an efficient and 
effective manner, to reach the total $130 million investment as soon as 
feasible.

     CORPS OF ENGINEERS, OPERATIONS AND MAINTENANCE, MISSOURI RIVER

    For fiscal year 2010, we urge the subcommittee to provide at least 
$70 million as the President has specifically requested for ecosystem 
restoration along the Missouri River. We believe it is essential to 
provide this minimum amount because the final fiscal year 2009 
appropriation is significantly below the request and the Corps 
identified approximately $26 million in restoration projects that could 
commence quickly to stimulate local economies, but these were not fully 
funded by the American Recovery and Reinvestment Act. In addition, 
through the Missouri River Recovery Program, the Army Corps has 
identified $105 million in projects, which have been designed and 
approved, that it could implement next fiscal year. With at least $70 
million, the Corps and U.S. Fish and Wildlife Service could begin 
important ecosystem restoration efforts that will produce long-term 
ecological and economic benefits, as well as provide economic stimulus 
throughout fiscal year 2010 by allowing the agencies to move forward 
with shovel-ready projects.
    The Missouri River basin encompasses land in 10 States and covers 
one-sixth of the continental United States. The Missouri, America's 
longest river, is one of the most altered ecosystems on earth. While 
recovery and restoration efforts have begun, much more needs to be 
done. League members, especially those in Iowa, Nebraska and South 
Dakota, want to see the recovery efforts continue and expand.
    The Corps, Fish and Wildlife Service and many State agencies have 
been working on restoring habitat for fish and wildlife species along 
the river. This work is critical for the Interior Least Tern and Pallid 
Sturgeon, which are listed as endangered under the Endangered Species 
Act, and the Piping Plover, which is listed as threatened. Moreover, 
the positive impacts of restoration extend to all fish and wildlife 
throughout the region.
    A recent study conducted by the Fish and Wildlife Service near 
Lisbon Bottoms in Missouri showed that over twice as many fish species 
were utilizing the created shallow water habitat (SWH) areas as the 
main channelized section of the river. A Corps' study has shown that 
the emergent sandbar habitat (ESH) projects have had tremendous 
response from nesting terns and plovers. These habitat restoration 
projects are working with the river--not against it.
    These projects have also been a boon for recreation along portions 
of the river. Anglers, hunters, boaters and others have been using some 
of these areas proving the old adage ``if you build it, they will 
come.'' Although the majority of the population lives in the lower 
basin, most recreational spending is currently occurring in the upper 
basin because facilities and opportunities are more abundant. These 
developed habitat projects are bringing people back to the river in the 
lower Missouri basin.
    In addition to boosting the economy through tourism, restoration 
projects can provide near-term economic stimulus in small communities 
throughout the region. As Congress and the administration considered 
the stimulus package earlier this year, the Corps identified $26 
million in restoration projects that could commence this spring and 
summer in Nebraska, Iowa, South Dakota and other basin States. In 
general, these projects involved removing barriers to fish passage on 
the Yellowstone River in Montana as well as restoring and creating 
habitat for terns, plovers and pallid sturgeon in the middle and lower 
basin. To perform this work, the Corps would contract with local 
construction companies, which would create or maintain jobs and inject 
dollars into the local economy through purchases of materials, fuel, 
food and lodging. Although these projects were not funded by the 
Recovery Act, with an appropriation of at least $70 million, the Corps 
could implement some of them next year. Doing so could help propel 
economic recovery at the community level at a time when we hope the 
national economy will also be improving.
    The League encourages the subcommittee to provide at least $70 
million for recovery and restoration efforts along the Missouri River. 
Benchmarks have been set by the Biological Opinion establishing goals 
for habitat restoration. With adequate funding and a lot of hard work 
on the ground, we can meet these goals and restore critical segments of 
America's longest river.
    We appreciate the opportunity to submit testimony and look forward 
to working with the subcommittee to strengthen the investment in 
ecosystem restoration and recovery along the Upper Mississippi and 
Missouri rivers.
                                 ______
                                 
        Prepared Statement of the Little River Drainage District

    Dear Congressman Visclosky, my name is Dr. Sam M. Hunter, DVM of 
Sikeston, Missouri. I am a veterinarian, landowner, farmer and resident 
of Southeast Missouri.
    I am the President of the Little River Drainage District, the 
largest such entity in the Nation. Our District serves as an outlet 
drainage and flood control District to parts of seven counties in 
Southeast Missouri. We provide flood control protection to a sizable 
area of Northeast Arkansas as well. Our District is solely tax 
supported by more than 3,500 private landowners in Southeast Missouri.
    My remarks will be directed toward the Mississippi River and 
Tributaries Project (MR&T) and the St. Francis River Basin portion of 
the MR&T. Those funds when properly expended are investments yielding a 
return of substantial benefits to the American taxpayer throughout this 
Nation. They are used to prevent flooding to much of our valuable 
farmland, to industrial sites, and to upgrade our ever aging locks and 
dam system on our navigable streams which will prevent unscheduled lock 
closures, modernize our hydro-electric plants, and restore some of our 
environmental assets. MR&T authorized by Congress in 1928 and still not 
completed is returning back to our Nation $25 for every $1 expended. 
What a good investment!!
    We are pleased to learn of the recent passage of the Omnibus bill 
for fiscal year 2009 and the Stimulus bill. The Omnibus bill provides 
$375 million for the MR&T Project for fiscal year 2009. The stimulus 
funding will likewise provide additional funds to improve much needed 
work on this excellent project. The Corps has a stated capability 
exceeding both amounts and will be able to execute those funds 
promptly.
    Many jobs will be realized and many products will be purchased 
throughout the entire Mississippi Valley and the watershed which 
discharge into this system. We must put people back to work and this 
should help in some small way. However, there still remains room for 
more funding. This District supports the request of the Mississippi 
Valley Flood Control Association for funding levels at $500 million for 
the MR&T Project. This project as well as all of the subsidiary 
projects within are returning back to the U.S. Treasury a minimum of $6 
for each $1 invested.
    We believe Congress needs to intervene and reverse the trend of 
OMB, and of past administrations. We have not seriously invested in our 
waterway infrastructure for decades but we MUST. Local economies will 
be affected positively by these investments. Local labor will be used 
as well as local businesses who will provide needed materials. This 
would be a major boost to our economy. Each year OMB and recent 
administrations have submitted low budget amounts for this worthwhile 
project and we have had to rely on Congress to ``fix'' the problem. You 
should not be burdened with this task. Someone needs to inform OMB what 
projects need funding which are assets to our Nation and not a 
liability.
    We must prioritize projects and eliminate projects that are not 
returning benefits back to this Nation. We must have our Federal 
Government live up to the commitments they have made to the citizens of 
this Nation. Private interests have made many investments based upon 
faith in the Federal Government following through on what it promised 
and what they had been told would be provided to them within a 
reasonable period of time. If a project is to be funded entirely by the 
Federal Government as directed by Congress then we must fulfill that 
obligation. If local interest is to provide a portion of the cost then 
local interest must meet that mandate as well. However, we do not need 
to hold any projects up because local interests are not financially 
able to meet their cost sharing needs provided that project returns a 
benefit back to this Nation. Let us move forward with a plan and let us 
work that plan and rebuild and bring our waterway infrastructure into 
the 21st century properly.
    Investing in our waterways is a great way to stimulate the economy, 
which currently is very much needed, and at the same time be building 
and making investments into a system for the future which will return 
back more dollars than expended. We petition you to give this vital 
industry of our Nation a strong endorsement and do all you can to 
ensure our waterways system and carriers stay competitive with our 
foreign competitors.
    I have the following comments for your benefit and consideration:

                         STIMULUS BILL FUNDING

    The Corps stated a capability to execute $12-$15 billion yet were 
only allocated $4.6 billion. This amount is gratefully appreciated but 
is a mere ``down payment'' to improve and upgrade our deteriorated 
infrastructure. Thousands of jobs could be generated should the Corps 
capability be met. The Corps continues the premier engineering and 
construction arm of the Federal Government. We need to let them do what 
they do best.

                             INFRASTRUCTURE

    The current administration stated often during its campaign and 
after that a genuine concerted priority would be to invest in this 
country's future, namely, its infrastructure.
    Our Federal road systems are crumbling! We must not wait for 
bridges to fail before we act. We need to move forward across our 
entire Nation upgrading our Federal highway system in its entirety. 
This will take long term commitments not just a ``stimulus'' now and 
then. We need to put a plan in place, work the plan and fund it 
properly.
    Are we truly interested in fuel independence--a cleaner 
environment--a better economy? If we are why don't we have someone step 
forward and be a champion for our ``waterways'' system? We have locks 
and dams which are an average of 50 years old. Parts are having to be 
fabricated since they are no longer manufactured. Tows are having to be 
broken up to pass because our locks and dams are too short and not 
modernized. Many undue delays are occurring. This does not permit our 
carriers to compete fairly with the foreign shipping industry. We must 
start a concerted effort to improve this part of our Nation's 
infrastructure.
    Locks, dams, hydropower, recreation, flood control, water supplies 
and all other benefits from the construction, operation and maintenance 
of these features on our rivers benefit our entire Nation not just a 
few. It is a national asset and it must be operated and funded as a 
national benefit. Private industry can not and will not operate this 
system fairly and in the best interest of our Nation.
    Environmentally moving goods and freight throughout our Nation via 
water is much cleaner, less intrusive and far more environmentally 
acceptable than highways or rail. Noise pollution, air pollution, land 
pollution are substantially less when we move the mass amount of goods 
possible by water.
    Fuel efficiency comparison is a ``no brainer''! For instance 1 
gallon of fuel moves 155 tons of freight by truck, 413 tons of freight 
by rail and 576 tons of freight by water. What part of this do we not 
understand? Why can't we realize such an endeavor would reduce much of 
our fuel needs and take much pressure off our highway system?
    Economically investing wisely in our waterways effects much of our 
Nation--not just a regional portion. Consider it being possible to 
board a waterborne vessel at the Port of New Orleans, Louisiana and one 
can touch 36 States of this Nation and 6 provinces in Canada without 
ever getting onto land. Over 75 percent of our population lives along 
water. Only two of our major cities are not on water, namely, Atlanta, 
Georgia and Denver, Colorado. With the many ports throughout the 
Mississippi Valley, which network many more people inland, it is 
evident many local economies will be benefitted when investments are 
made in our water infrastructure.
    We seem to be ready, willing and capable of improving the 
infrastructure of other Nations at the expense of our taxpayers but 
seem reluctant to do the same for our Nation. It is far past time to 
reward the American taxpayer with a return for the money he provides 
each year and stop using those funds to benefit those Nations who are 
our enemies.
    It has been estimated our waterway infrastructure needs $100-$120 
billion to modernize, upgrade and be made functional. Lets start now by 
setting a 10 year goal to modernize that system and then plan to meet 
that goal and exceed same when possible. Currently we are spending $13-
$15 billion per month to fight terrorism in Iraq and Afghanistan which 
is more spent in 1 year of what is needed to bring our waterways up to 
a finished plan. Perhaps we could cut the 10 year plan to even 5 years 
by eliminating much of that funding. Lets try!
    I wish to thank you very much for your time and kind attention and 
for taking the time to review the above. We would be very appreciative 
of anything this subcommittee can do to help us improve our 
environment, improve our livelihood, and improve the area in which we 
live and work which ultimately is good for America. We are also very 
appreciative of all this subcommittee has done for us in the past. We 
trust you will hear our pleas once more and act accordingly.
                                 ______
                                 
  Prepared Statement of Mayor Sara Presler, City of Flagstaff, Arizona

    Chairman Dorgan, Ranking Member Bennett, and distinguished members 
of the subcommittee, thank you for allowing me to testify on behalf of 
the city of Flagstaff, Arizona in support of $23 million in the Army 
Corps of Engineers budget for the Rio de Flag flood control project in 
fiscal year 2010. The Rio de Flag flood control project is critically 
important to the city, to northern Arizona, and, ultimately, to the 
Nation.
    As you may know, Mr. Chairman, with this subcommittee's help over 
the last several fiscal years, Rio de Flag received more than $15 
million to continue construction on this important project. We are 
extremely grateful that the subcommittee boosted this project well 
above the President's request every year, and we would appreciate your 
continued support for this project in fiscal year 2010.
    Furthermore, the amount of money invested in this project by the 
Federal Government--approximately $54 million (authorized by WRDA)--
will be saved exponentially in costs to the Federal Government in the 
case of a large and catastrophic flood, which could be more than $450 
million. It will also promote economic growth and redevelopment along 
areas that are currently underserved because of the flood potential.
    Like many other projects under the Army Corps's jurisdiction, Rio 
de Flag received no funding in the President's fiscal year 2010 budget, 
although the Corps has expressed a capability of $23 million to 
continue construction on the project and unwavering commitment to the 
project. We are hopeful that the subcommittee will fund the Rio de Flag 
project at $23 million when drafting its bill in order to keep the 
project on an optimal schedule.
    Flooding along the Rio de Flag dates back as far as 1888. The Army 
Corps has identified a Federal interest in solving this long-standing 
flooding problem through the Rio de Flag, Flagstaff, Arizona--
Feasibility Report and Environmental Impact Study (EIS). The 
recommended plan contained in this feasibility report was developed 
based on the following opportunities: (1) flood control and flood 
damage reduction; (2) environmental mitigation and enhancement; (3) 
water resource management; (4) public recreation; and (5) redevelopment 
opportunities. This plan will result in benefits to not only the local 
community, but to the region and the Nation.
    The feasibility study by the Corps of Engineers has revealed that a 
500-year flood could cause serious economic hardship to the city. In 
fact, a devastating 500-year flood could damage or destroy 
approximately 1,500 structures valued at more than $450 million. 
Similarly, a 100-year flood would cause an estimated $100 million in 
damages. In the event of a catastrophic flood, over half of Flagstaff's 
population of more than 60,000 would be directly impacted or affected.
    In addition, a wide range of residential, commercial, downtown 
business and tourism, and industrial properties are at risk. Damages 
could also occur to numerous historic structures and historic Route 66. 
The Burlington Northern & Santa Fe Railway (BNSF), one of the primary 
east-west corridors for rail freight, could be destroyed, as well as 
U.S. Interstate 40, one of the country's most important east-west 
interstate links. Additionally, a significant portion of Northern 
Arizona University (NAU) could incur catastrophic physical damages, 
disruptions, and closings. Public infrastructure (e.g., streets, 
bridges, water, and sewer facilities), and franchised utilities (e.g., 
power and telecommunications) could be affected or destroyed. 
Transportation disruptions could make large areas of the city 
inaccessible for days.
    Mr. Chairman, the intense wildfires that have devastated the West 
during the last several years have only exacerbated the flood potential 
and hazard in Flagstaff. An intense wildfire near Flagstaff could strip 
the soil of ground cover and vegetation, which could, in turn, increase 
runoff and pose an even greater threat of a catastrophic flood.
    In short, a large flood could cripple Flagstaff for years. This is 
why the city believes it is important to ensure that this project 
remains on schedule and that the Corps is able to utilize its expressed 
capability of $23 million in fiscal year 2010 for construction of this 
flood control project.
    In the city's discussions with the Corps, both the central office 
in Washington and its Los Angeles District Office also believe that the 
Rio de Flag project is of the utmost importance and both offices 
believe the project should be placed high on the subcommittee's 
priority list. We are hopeful that the subcommittee will consider this 
advice and also place the project high on its priority list and fully 
fund the project at $23 million for fiscal year 2010.
    It is important to note that the city has secured the necessary 
property rights to begin construction, and the city is prepared to 
assume the costs for the non-Federal portion of the cost-sharing 
agreement.
    The city of Flagstaff, as the non-Federal sponsor, is responsible 
for all costs related to required Lands, Easements, Rights-of-Way, 
Relocations, and Disposals (LERRD's). The city has already secured the 
necessary property rights to begin construction in 2004. Implementation 
of the city's Downtown and Southside Redevelopment Initiatives ($100 
million in private funds) are entirely dependent on the successful 
completion of the Rio de Flag project. The Rio de Flag project will 
also provide a critical missing bike/pedestrian connection under Route 
66 and the BNSF Railroad to replace the existing hazardous at grade 
crossings.
    Mr. Chairman, the Rio de Flag project is exactly the kind of 
project that was envisioned when the Corps was created because it will 
avert catastrophic floods, it will save lives and property, and it will 
promote economic growth. In short, this project is a win-win for the 
Federal Government, the city, and the surrounding communities.
    In conclusion, the Rio de Flag project should be considered a high 
priority for this subcommittee, and I encourage you to support full 
funding of $23 million for this project in the fiscal year 2010 Energy 
and Water Development Appropriations bill. Thank you in advance for 
your consideration.
                                 ______
                                 
   Prepared Statement of the Board of Mississippi Levee Commissioners

    Mr. Chairman and members of the subcommittee, this statement is 
prepared by Peter Nimrod, Chief Engineer for the Board of Mississippi 
Levee Commissioners, Greenville, Mississippi, and submitted on behalf 
of the Board and the citizens of the Mississippi Levee District. The 
Board of Mississippi Levee Commissioners is comprised of seven elected 
commissioners representing the counties of Bolivar, Issaquena, Sharkey, 
Washington, and parts of Humphreys and Warren counties in the Lower 
Yazoo Basin in Mississippi. The Board of Mississippi Levee 
Commissioners is charged with the responsibility of providing 
protection to the Mississippi Delta from flooding of the Mississippi 
River and maintaining major drainage outlets for removing the flood 
waters from the area. These responsibilities are carried out by 
providing the local sponsor requirements for the congressionally 
authorized projects in the Mississippi Levee District. The Mississippi 
Levee Board and the Mississippi Valley Flood Control Association 
support an appropriation of $500 million for fiscal year 2010 for the 
Mississippi River and Tributaries Project. This is the minimum amount 
that we consider necessary to allow for an orderly completion of the 
remaining work in the Valley and to provide for the operation and 
maintenance, as required, to prevent further deterioration of the 
completed flood control and navigation work.
    It is apparent that the administration loses sight of the fact that 
the Mississippi River and Tributaries Project provides protection to 
the Lower Mississippi Valley from waters generated across 41 percent of 
the Continental United States. These waters flow from 31 states and 2 
provinces of Canada and must pass through the Lower Mississippi Valley 
on its way to the Gulf of Mexico. We will remind you that the 
Mississippi River and Tributaries Project is one of, if not the most 
cost effective project ever undertaken by the United States Government. 
The foresight of the Congress in their authorization of the many 
features of this project is exemplary.
    The many projects that are part of the Mississippi River and 
Tributaries Project not only provide protection from flooding in the 
area, but the award of construction contracts throughout the Valley 
provides assistance to the overall economy of this area. The employment 
of the local workforce and purchases from local vendors by the 
contractors help stabilize the economy in one of the most impoverished 
areas of our country.
    Thanks to the additional funding provided by the Congress over the 
last several years over and above the administration's budget, work on 
the Mainline Mississippi River Levee Enlargement Project is continuing. 
Of the original 69 miles of deficient levees in the Mississippi Levee 
District, 23.2 miles of work has been completed, 12.2 miles are 
currently under contract, and another 4.7 miles will be awarded in late 
Summer, 2009. We are requesting $69.972 million for construction on the 
Mainline Mississippi River Levees in the Lower Mississippi Valley 
Division which will allow the Vicksburg and Memphis districts to keep 
existing contracts on schedule and award contracts to avoid any future 
unnecessary delays in completing this vital project. We are all well 
aware that the Valley some day will have to endure a Project Flood, we 
just don't know when. We must be prepared.
    The President's fiscal year 2010 budget did not include funding for 
any construction projects within the Yazoo Basin. This action is 
especially difficult to understand during a time when our Nation needs 
an economic boost. These are all projects authorized and funded so 
wisely by the Congress. All of these projects are encompassed in the 
footprint of the Delta Regional Authority, an area recognized by the 
Congress as requiring special economic assistance to keep pace with the 
rest of our great Nation. We can not lose sight of the fact that all of 
these projects are required to return more than a dollar in benefits 
for each dollar spent.
    The Final Report for the Yazoo Backwater Project was released in 
late 2007. The Yazoo Backwater Project will provide economic and 
environmental benefits to parts of six counties in the south 
Mississippi Delta. This project will build a pump that will evacuate 
floodwater that is generated over 4,093 square miles in the Mississippi 
Delta. The pump will lower the 100-year flood event by 4.5 feet thereby 
reducing urban and rural structural damages, providing benefits to the 
remaining agricultural lands, and reducing the frequency and duration 
of floods. Reforestation easements will be purchased on up to 55,600 of 
existing agricultural land which will provide benefits in every 
environmental category--wetlands, terrestrial, aquatics, and waterfowl 
resources as well as vastly improving water quality. The recommended 
plan for the Yazoo Backwater Project will balance economics with the 
environment. This is a model project that should be the standard for 
future public works projects in the United States. On August 31, 2008, 
EPA wrongly used it's authority under section 404(c) of the Clean Water 
Act (CWA) to veto the Yazoo Backwater Project even though it is exempt 
by section 404(r) of the CWA. We are requesting this project be funded 
by the Congress in the amount of $5 million. These funds will allow the 
Corps to begin acquisition of the reforestation easements and initiate 
the award of the pump supply contract.
    The Draft Supplemental Environmental Impact Statement for the Big 
Sunflower River Maintenance Project will be released next year. This 
maintenance project will restore flood control capacities to 130 miles 
of channels by removing sediment that has built up over the past 40 
years since the channels were originally improved. Our request for 
$5.591 million will allow right-of-way acquisition to continue and for 
the award of the first dredging contract. The residents in the 
Mississippi Delta continue to suffer damages from flooding while they 
wait for this maintenance project to reach their area.
    Work on the Delta Headwaters Project has proven effective in 
reducing sediments to downstream channels. To discontinue this project 
will only diminish water quality by increasing sediment, reducing the 
level of protection to the citizens of the Delta and increasing 
required maintenance. We are requesting $25 million to continue this 
project.
    The Upper Yazoo Project is critical to the Delta. The Corps of 
Engineers operates four major flood control reservoirs on the bluff 
hills overlooking the Mississippi Delta. These reservoirs hold back 
heavy spring rains and must have adequate outlet channel capacity to 
pass this excess runoff during the summer and fall months. Without 
completion of the Upper Yazoo Project, the Corps is forced to hold 
flood water from the previous spring, thereby reducing the ability to 
provide protection from the current year's flood water. We urge the 
Congress to provide $24.5 million allowing construction to continue and 
the award of additional channel enlargement items.
    Maintenance of completed works can not be over looked. The four 
flood control reservoirs over looking the Delta have been in place for 
50 years and have functioned as designed. Required maintenance must be 
performed to avoid any possibility of failure during a flood event. We 
are asking for $13.793 million for Arkabutla Lake, $12.69 million for 
Enid Lake, $13.231 million for Grenada Lake, and $14.483 million for 
Sardis Lake.
    We are requesting $13.522 million for Maintenance of the Mainline 
Mississippi River Levees in the Lower Mississippi Valley Division which 
will provide for repair of levee slides, slope repair, and repair of 
the gravel maintenance roadway which is so vital to access during high 
water.
    The Environmental Protection Agency (EPA) has been given too much 
power under section 404(c) of the Clean Water Act (CWA) which allows 
EPA to veto Congressionally authorized projects. During the early 
1990s, due to abuse of the 404(c) power by EPA, Congress considered 
removing this authority from EPA. EPA has again invoked this veto power 
on the Yazoo Backwater Project. EPA is saying that you can't lower the 
water level with a flood control project! By killing this project with 
404(c) veto authority, EPA is drawing a line in the sand over the 
future of flood control in our great Nation. EPA has vetoed the Yazoo 
Backwater Project even though it was approved, authorized and funded by 
Congress and exempt from a 404(c) veto by 404(r). It is now time to 
again take up this issue and remove the 404(c) veto power from EPA 
before they kill another flood control project that has been authorized 
by Congress.
    As Members of the Congress representing the citizens of our Nation 
who live with the Mississippi River everyday, you clearly understand 
both the benefits provided by this resource, and the destructive force 
that must be controlled during a flood. On behalf of the Mississippi 
Levee Board, I can not express enough, our appreciation for your 
efforts in providing adequate funding over the last several years that 
has allowed construction to continue on our much needed projects and 
thank you in advance for your kind consideration of our requests for 
fiscal year 2010.
                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

   Prepared Statement of Dave Freudenthal, Governor, State of Wyoming

    Dear Chairman Dorgan and Senator Bennett, I am requesting your 
support for an appropriation of $3,569,000 to the Bureau of Reclamation 
included in the President's fiscal year 2010 recommended budget in the 
Upper Colorado Region budget line item entitled ``Endangered Species 
Recovery Implementation Program.'' This budget line-item designates 
$1,950,000 for construction and construction management activities for 
the San Juan River Basin Recovery Implementation Program; $1,219,000 
for construction and construction management activities for the Upper 
Colorado River Endangered Fish Recovery Program; and $400,000 for Fish 
and Wildlife Management and Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs' objectives are 
to recover endangered fish species while water use and development 
proceeds in compliance with the Federal Endangered Species Act. Since 
1988, these programs have provided ESA section 7 compliance (without 
litigation) for nearly 1,800 Federal, tribal, State and privately 
managed water projects depleting more than 3 million acre-feet of water 
per year. These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. Substantial non-Federal cost-sharing funding 
exceeding 50 percent is embodied in both programs.
    The Department of the Interior recognized these programs with the 
Department of the Interior's Cooperative Conservation Award in April 
2008 as national model efforts demonstrating that collaborative 
conservation partnerships can successfully work to recover endangered 
species while addressing water needs to support growing western 
communities in a manner that fully respects State water law and 
interstate river compacts.
    We request the subcommittee's assistance for fiscal year 2010 
funding to ensure the Bureau of Reclamation's continuing financial 
participation, as authorized and directed by Public Law 106-392, as 
amended, in these two region-wide cooperative recovery programs. The 
State of Wyoming thanks you for the past support and assistance of your 
subcommittee; it has greatly facilitated the success of these multi-
state, multi-agency programs.
                                 ______
                                 
  Prepared Statement of Jon M. Huntsman, Jr., Governor, State of Utah

    Dear Chairman Dorgan and Senator Cochran, this letter serves to 
respectfully request your support for an appropriation of $3,569,000 to 
the Bureau of Reclamation included in the President's fiscal year 2010 
recommended budget in the Upper Colorado Region budget line item 
entitled ``Endangered Species Recovery Implementation Program,'' This 
budget line-item designates $1,950,000 for construction and 
construction management activities for the San Juan River Basin 
Recovery Implementation Program; $1,219,000 for construction and 
construction management activities for the Upper Colorado River 
Endangered Fish Recovery Program; and $400,000 for Fish and Wildlife 
Management and Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs' objectives are 
to recover endangered fish species while water use and development 
proceeds in compliance with the Federal Endangered Species Act. Since 
1988, these programs have provided ESA section 7 compliance (without 
litigation) for neatly 1,800 Federal, tribal, State and privately 
managed water projects depleting more than 3 million acre-feet of water 
per year. These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power, and 
environmental interests. Substantial non-Federal cost-sharing funding 
exceeding 50 percent is embodied in both programs.
    The Department of the Interior recognized these programs with the 
DOI's Cooperative Conservation Award in April 2008 as national model 
efforts demonstrating that collaborative conservation partnerships can 
successfully work to recover endangered species while addressing water 
needs to support growing western communities in a manner that fully 
respects State water law and interstate river compacts.
    Utah requests the subcommittee's assistance for fiscal year 2010 
funding to ensure the Bureau of Reclamation's continuing financial 
participation as authorized and directed by Public Law 106-392, as 
amended, in these two region-wide cooperative recovery programs. On 
behalf of the State of Utah, I thank you for the past support and 
assistance of your subcommittee; it has greatly facilitated the success 
of these multi-state, multi-agency programs.
                                 ______
                                 
  Prepared Statement of Bill Richardson, Governor, State of New Mexico

    Dear Chairman Dorgan and Senator Cochran, I am requesting. your 
support for an appropriation of $3,569,000 to the Bureau of Reclamation 
included in the President's fiscal year 2010 recommended budget in the 
Upper Colorado Region budget line item entitled ``Endangered Species 
Recovery Implementation Program.'' This budget line-item designates 
$1,950,000 for construction and construction management activities for 
the San Juan River Basin Recovery Implementation Program; $1,219,000 
for construction and construction management activities for the Upper 
Colorado River Endangered Fish Recovery Program: and $400,000 for Fish 
and Wildlife Management and Development activities to avoid jeopardy.
    The requested fiscal year 2010 appropriation for to San Juan River 
Recovery Program will be used for construction of critically needed 
fish passage structures in critical habitat on the San Juan River as 
well as providing for program management and development.
    The Upper Colorado and San Juan recovery programs' objectives are 
to recover endangered fish species while water use and development 
proceeds in compliance with the Federal Endangered Species Act. Since 
1988, these programs have provided ESA section 7 compliance (without 
litigation) for nearly 1,800 Federal, tribal, State and privately 
managed water projects depleting more than 3 million acre-feet of water 
per year. These highly successful cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. Substantial non-Federal cost-sharing funding 
exceeding 50 percent is embodied in both programs.
    The Department of the Interior recognized these programs with the 
Department of the Interior's Cooperative Conservation Award in April 
2008 as national model efforts demonstrating that collaborative 
conservation partnerships can successfully work to recover endangered 
species while addressing water needs to support growing western 
communities in a manner that fully respects State water law and 
interstate river compacts.
    We request the subcommittee's assistance for fiscal year 2010 
funding to ensure the Bureau of Reclamation's continuing financial 
participation, as authorized and directed by Public Law 106-392, as 
amended, in these two region wide cooperative recovery programs. The 
State of New Mexico thanks you for the past support and assistance of 
your subcommittee; it has greatly facilitated the success of these 
multi-state, multi-agency programs.
                                 ______
                                 
  Prepared Statement of Bill Ritter,. Jr., Governor, State of Colorado

    Dear Chairman Dorgan and Senator Bennett, I am requesting your 
support for an appropriation of $3,569,000 to the Bureau of Reclamation 
included in the President's fiscal year 2010 recommended budget in the 
Upper Colorado Region budget line item entitled ``Endangered Species 
Recovery Implementation Program.'' This budget line-item designates 
$1,950,000 for construction and construction management activities for 
the San Juan River Basin Recovery Implementation Program; $1,219,000 
for construction and construction management activities for the Upper 
Colorado River Endangered Fish Recovery Program; and $400,000 for Fish 
and Wildlife Management and Development activities to avoid jeopardy.
    These programs are long-standing partnerships among the States of 
Colorado, New Mexico, Utah and Wyoming, Indian tribes, Federal 
agencies, and water, power and environmental interests. These programs 
are successful and collaborative efforts that merit continued support 
by the Federal Government as a model method to recover threatened and 
endangered species, while allowing water development to occur in a 
manner that complies with the Endangered Species Act.
    The Department of the Interior recognized these programs with the 
Department of the Interior's Cooperative Conservation Award in April 
2008 as national models demonstrating that collaborative conservation 
partnerships can successfully work to recover endangered species while 
addressing water needs to support growing western communities in a 
manner that fully respects State water law and interstate river 
compacts. Since 1988, these programs have provided ESA compliance 
(without litigation) for nearly 1,800 Federal, tribal, State and 
privately managed water projects depleting more than 3 million acre-
feet of water per year. Substantial non-Federal cost-sharing funding 
exceeding 50 percent is embodied in both of these programs as 
authorized by Public Law 106-392, as amended.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. On 
behalf of the State of Colorado, I thank you for that support and I 
request the subcommittee's assistance, for fiscal year 2010 funding, to 
ensure the Bureau of Reclamation's continuing and vitally important 
financial participation in these regional cooperative recovery 
programs.
                                 ______
                                 
       Prepared Statement of the Wyoming Water Association (WWA)

    Dear Chairman Dorgan and Senator Bennett, on behalf of the members 
of the Wyoming Water Association, I am requesting your support for an 
appropriation in the President's recommended budget for fiscal year 
2010 of $3,569,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation I seek is as 
follows: $1,219,000 for construction activities for the Upper Colorado 
River Endangered Fish Recovery Program; $1,950,000 for construction 
activities for the San Juan River Basin Recovery Implementation 
Program; and $400,000 for Fish and Wildlife Management and Development 
activities to avoid jeopardy. This funding is authorized by Public Law 
106-392, as amended, and is included in the President's recommended 
budget for fiscal year 2010 within the Bureau of Reclamation's 
``Endangered Species Recovery Implementation Program'' budget line-
item.
    Founded in 1933, the Wyoming Water Association (WWA) is a Wyoming 
non-profit corporation and voluntary organization of private citizens, 
elected officials, and representatives of business, government 
agencies, industry and water user groups and districts. The 
Association's objective is to promote the development, conservation, 
and utilization of the water resources of Wyoming for the benefit of 
Wyoming people. The WWA provides the only statewide uniform voice 
representing all types of water users within the State of Wyoming and 
encourages citizen participation in decisions relating to multi-purpose 
water development, management and use.
    The Wyoming Water Association is a participant in the Upper 
Colorado River Endangered Fish Recovery Program. That program, and its 
sister program within the San Juan River Basin, are ongoing 
partnerships among the States of Colorado, New Mexico, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Federal Endangered Species Act. The Department of 
the Interior continues to recognize these programs as national models 
demonstrating that collaboratively partnerships can successfully work 
to recover endangered species while addressing water needs to support 
growing western communities in a manner that fully respects State water 
law and interstate compacts. Since 1988, these programs have provided 
ESA section 7 compliance (without litigation) for over 1,600 Federal, 
tribal, State and privately managed water projects depleting more than 
3 million acre-feet of water per year.
    The requested fiscal year 2010 appropriation will allow the San 
Juan River Recovery Implementation Program to complete a fish passage 
facility on the San Juan River and to initiate planning and design for 
a proposed similar structure in a following year. The funding for the 
Upper Colorado Recovery Program will be used for pre-construction 
efforts prior to the anticipated award of a contract in fiscal year 
2011 to construct a fish screen to avoid entrapment and a water 
conservation and canal automation project to provide additional water 
supplies for the endangered fishes. Substantial non-Federal cost-
sharing funding exceeding 50 percent is being provided for the capital 
construction projects benefiting the endangered fish and their habitats 
associated with both of these successful programs.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. On 
behalf of the members of the Wyoming Water Association, thank you for 
that support. We again request the subcommittee's assistance, with 
regard to fiscal year 2010 funding, to ensure the Bureau of 
Reclamation's continuing financial participation in these vitally 
important programs.
                                 ______
                                 
          Prepared Statement of the Southern Ute Indian Tribe

    Dear Chairman Dorgan and Senator Bennett, on behalf of the Southern 
Ute Indian Tribe, I am requesting your support for an appropriation in 
the President's recommended budget for fiscal year 2010 of $3,569,000 
to the Bureau of Reclamation (``Reclamation'') within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation the Tribe seeks 
on behalf of Reclamation is as follows: $1,219,000 for construction 
activities for the Upper Colorado River Endangered Fish Recovery 
Program; $1,950,000 for construction activities for the San Juan River 
Basin Recovery Implementation Program; and $400,000 for Fish and 
Wildlife Management and Development activities to avoid jeopardy. This 
funding is authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, the Southern Ute Indian Tribe, the Ute Mountain Ute Indian 
Tribe, the Navajo Nation, and the Jicarilla Apache Nation, Federal 
agencies and water, power and environmental interests. The programs' 
objectives are to recover endangered fish species while water use and 
development proceeds in compliance with the Endangered Species Act.
    The tribe appreciates the subcommittee's past support and requests 
the subcommittee's assistance for fiscal year 2010 funding to ensure 
Reclamation's continuing financial participation in these vitally 
important programs.
                                 ______
                                 
  Prepared Statement of the Fort Peck Reservation Rural Water System 
(Public Law 106-382), Assiniboine and Sioux Rural Water System, and the 
                     Dry Prairie Rural Water System

                         BUREAU OF RECLAMATION

Fiscal Year Budget Request
    The Fort Peck Assiniboine and Sioux Tribes and Dry Prairie Rural 
Water respectfully request fiscal year 2010 appropriations of 
$44,649,000 for the Bureau of Reclamation rural water program. The 
project is 22 percent complete. It has progressed well subject to 
available funds.
    Fiscal year 2010 funds will be used to construct critical elements 
of the Fort Peck Reservation Rural Water System, Montana, (Public Law 
106-382, October 27, 2000). The amount requested is based on need to 
build Phase II of the regional water treatment plant, pipelines to 
connect with the Town of Poplar and Dry Prairie systems on the east and 
west sides project. The request is within capability to spend funds in 
fiscal year 2010 and is set out in Table 1. The Schedule of Activities 
and Cash Flow analysis to build the major features of the regional 
system (water treatment plant and common pipelines) is included as 
Attachment A and demonstrate capability to use funds.

    TABLE 1.--FISCAL YEAR 2010 FUNDING REQUEST FORT PECK RESERVATION RURAL WATER SYSTEM (PUBLIC LAW 106-382)
----------------------------------------------------------------------------------------------------------------
                         Project Feature                              Federal       Non-Federal        Total
----------------------------------------------------------------------------------------------------------------
                        Fort Peck Tribes

Water Treatment Plant:
    Phase I, Clear Well Wash Water Recovery.....................  ..............  ..............  ..............
    Phase II, Main Treatment....................................     $20,317,000  ..............     $20,317,000
Pipelines:
    Water Treatment Plant to Poplar.............................      10,763,000  ..............      10,763,000
    Water Treatment Plant to Wolf Point.........................  ..............  ..............  ..............
FP OM Buildings.................................................         558,000  ..............         558,000
                                                                 -----------------------------------------------
      Subtotal..................................................      31,638,000  ..............      31,638,000
                                                                 ===============================================
                           Dry Prairie

Big Muddy to Plentywood.........................................       4,739,000      $1,496,000       6,235,000
Fort Kipp.......................................................         219,000          69,000         288,000
Porcupine Creek to Opheim:
    St. Marie to Nashua.........................................       4,619,000       1,458,000       6,077,000
    St. Marie to Opheim.........................................       3,434,000       1,084,000       4,518,000
                                                                 -----------------------------------------------
      Subtotal..................................................      13,011,000       4,107,000      17,118,000
                                                                 ===============================================
      Total.....................................................      44,649,000       4,107,000      48,756,000
----------------------------------------------------------------------------------------------------------------

Funding Status and Needs
    As shown in Table 2 below, the project will be 22 percent complete 
at the end of fiscal year 2009. Construction funds remaining to be 
spent after fiscal year 2009 will total $225.061 million within the 
current authorization (in October 2008 dollars). Administrative costs 
of extending the project completion to fiscal year 2015 and 
construction costs outside the authorized ceiling increase remaining 
costs to $245.969 million before considering inflation. Inflation at 
7.5 percent over the next 6 years, the average rate over the last 5 
years in Reclamation construction projects, is expected to increase 
remaining project costs to $314.001 million if the project is completed 
in fiscal year 2015. An average $52.33 million annually is required to 
complete the project by 2015 considering all factors. The project is 
seeking an amendment of Public Law 106-382 in this session of Congress 
to extend the project completion to December 31, 2015.

                   TABLE 2.--FUNDING STATUS AND NEEDS
------------------------------------------------------------------------

------------------------------------------------------------------------
Total Federal Funding Authority (October 2008 $)........    $289,110,000
Federal Funds Expended Through Fiscal Year 2009.........     $64,049,000
Percent Complete........................................           22.15
Amount Remaining After Fiscal Year 2009:
    Total Authorized (October 2008 $)...................    $225,061,000
    Overhead Adjustment for Extension to Fiscal Year        $245,969,000
     2015 and Other.....................................
    Adjusted for Inflation to Fiscal Year 2015 at 7.46      $314,001,000
     Percent Annually...................................
Years to Complete.......................................               6
Average Annual Required to End in Fiscal Year 2015 (Need     $52,333,000
 Extension of Public Law 106-382).......................
Fiscal Year 2010 Amount Requested.......................     $44,649,000
------------------------------------------------------------------------

    The request ($44.649 million) is less than the average annual 
appropriations needed to complete the project in fiscal year 2015 
($52.333 million annually), and is within the capability of the project 
to use funds for construction. The request will create an estimated 350 
full-time equivalent (FTE) construction jobs in an area of Montana with 
low per capita income and high unemployment.
    Cost indexing from fiscal year 1998 reflecting inflation increased 
the cost of the project from $176 million to $289 million, an increase 
of $113 million. (See Attachment D). Increases in the level of 
appropriations are needed to outpace inflation, which averaged 3.35 
percent for pipelines in the first 5 years of the project, 7.46 percent 
over the last 5 years and 13.80 percent last year.
Funding Has Not Been Adequate to Serve Any Tribal Users
    The sponsor tribes and Dry Prairie greatly appreciate the previous 
appropriations from the subcommittee that have permitted building the 
Missouri River intake (the water source), stages of the water treatment 
plant in multiple contracts, the Culbertson to Medicine Lake pipeline 
and branches serving rural users outside the Fort Peck Indian 
Reservation. However, funds have not been adequate to complete the 
water treatment plant, pipeline to Poplar and other features as 
proposed for fiscal year 2010. Service to tribal users and communities 
within the Fort Peck Indian Reservation is dependent upon completion of 
those facilities and has not been possible. No water has been delivered 
on the Fort Peck Indian Reservation.
Proposed Activities
    Public Law 106-382 (October 27, 2000) authorized the project, which 
includes all of the Fort Peck Indian Reservation in Montana and the Dry 
Prairie portion of the project outside the Reservation in Roosevelt, 
Sheridan, Daniels and part of Valley County.
            Fort Peck Indian Reservation
    On the Fort Peck Indian Reservation the tribes have used 
appropriations from previous years to:
  --Construct the Missouri River raw water intake, a critical feature 
        of the regional water project. The raw water pump station has 
        been constructed, and the raw water pipeline between the 
        Missouri River and the water treatment plant has been 
        constructed to within 2 miles of the water treatment plant.
  --The sludge lagoons at the water treatment plant have been 
        completed.
  --Phase I of the regional water treatment plant is under construction 
        and will be completed in fiscal year 2009 with funds 
        appropriated previously.
    The regional water treatment plant was divided into three 
construction phases over the past several years. This segregation of 
the project in smaller contracts increased the cost of the project 
significantly but was necessary due to inadequate funding to bid the 
project as a single unit, which would normally be the case. Rather than 
one contractor, there will ultimately be three contractors. Three sets 
of plans and specifications were required to coordinate new 
construction contracts with pieces already built. The Bureau of 
Reclamation approved the plans and specifications for the entire plant 
4 years ago. Capability to use funds has not been an issue.
    The remaining phase of the water treatment plant has been 
advertised for construction in contemplation of adequate funding in 
fiscal year 2010 ($20.317 million) to complete this essential component 
of the project. The bid opening is scheduled for April 7, 2009. 
American Recovery and Reinvestment Act (ARRA) of 2009 funds would 
offset the requirement for fiscal year 2010 appropriations. The project 
clearly meets the expectation of Congress for ARRA, but at the time of 
this writing, the availability of ARRA funds was not known.
    The request for fiscal year 2010 includes funds for construction of 
the essential pipelines from the water treatment plant to the community 
of Poplar (but not to Wolf Point). The pipeline to Poplar is a regional 
transmission pipeline east of the water treatment plant to serve the 
Fort Peck Indian Reservation and to eventually connect to Dry Prairie 
facilities east of the Reservation. The tribes will have capability to 
build the pipeline to Wolf Point in fiscal year 2010, which is a 
regional transmission pipeline west of the water treatment and serves 
the west sides of the Fort Peck Indian Reservation and Dry Prairie.
    The pipeline project from the water treatment plant to Poplar will 
provide a water supply from the Missouri River to replace groundwater 
contaminated by ``brine'' from oil drilling operations. The brine 
contamination is the subject of EPA orders against the responsible oil 
company. The replacement supplies will serve the community of Poplar 
and the surrounding rural area where wells have been contaminated. More 
wells are threatened. There is urgency in completing the regional 
project to Poplar before the advancing plume of contamination reaches 
existing community wells. Projections of the date that contamination 
will reach the Poplar community wells range from imminent danger to as 
much as a decade, but the anxiety of the tribes' leadership and 
membership cannot be overcome without completing the water treatment 
plant and connecting the regional pipeline to Poplar in fiscal year 
2010. This is a critical timeframe for the tribes. The staff and 
members of the subcommittee are urged to review this matter with the 
tribes and Bureau of Reclamation to clarify the urgency of completing 
necessary project facilities and alleviating the threat of 
contamination of the public water supply for the tribes' headquarters 
community of Poplar. (See Attachment E).
    The Bureau of Reclamation can confirm that the use of funds 
proposed for fiscal year 2010 is within the project's capability to 
spend (see Attachment A).
            Dry Prairie
    Dry Prairie has used previous appropriations to construct over 200 
miles of distribution pipelines from the community of Culbertson, an 
interim water source to be replaced when the regional water treatment 
plant and transmission pipeline have been completed on the Fort Peck 
Indian Reservation. The distribution system serves the communities of 
Froid and Medicine Lake and over 200 rural homes, farms and ranches. 
Pipelines were sized to serve the area north of the Missouri River, 
south of the Canadian border and between the Fort Peck Indian 
Reservation and the North Dakota border (see general location map, 
Attachment B) as funds are made available and water sources are 
expanded.
    The request for fiscal year 2010 funds of $13.011 million, 
supplemented by a non-Federal cost share of $4.107 million, will be 
used to complete pipelines starting in fiscal year 2009 to rural 
services on the west side of the Dry Prairie project between the 
communities of St. Marie and Nashua. An existing water treatment plant 
owned by the Boeing Co. at the former Glasgow Air Force Base will 
provide an interim water supply to serve the west side project until 
the regional water treatment plant of the tribes is complete and 
pipelines from Wolf Point to Nashua are constructed. The facilities 
constructed on the west side of the project are the same facilities 
required after connection of the regional water treatment plant. 
Therefore, no duplication of facilities are associated with the interim 
project.
    Dry Prairie will also assist the Assiniboine and Sioux Tribes in 
building pipelines from Culbertson on the east side of the project to 
the Reservation boundary to serve the tribal community of Fort Kipp 
with an interim water supply. The tribes are building facilities within 
the Reservation with fiscal year 2009 funding.
    Dry Prairie proposes to extend interim water supply capability 
between Culbertson and Plentywood with fiscal year 2010 funding. These 
facilities will be served from the tribes' regional water treatment 
plant when the plant and interconnecting main transmission pipelines 
are completed to Culbertson.
Master Plan
    The project master plan is provided for review as Attachment C. The 
request for fiscal year 2010 is shown in relation to the project 
components that remain to be completed after fiscal year 2009.
Administration's Support
    The project has reached 22 percent completion over a period of 9 
years and needs greater funding support to complete the project in 
2015. The administration's budget included the project in fiscal year 
2007 at the $5.0 million level but has not supported funds for the 
project since that time. The previous administration's support for the 
rural water program has diminished to include the Mni Wiconi and 
Garrison projects only. Congressional support is needed for the broader 
program of projects under construction.
    The tribes and Dry Prairie have worked extremely well and closely 
with the Bureau of Reclamation since the authorization of the project 
in fiscal year 2000. The Bureau of Reclamation has participated, 
reviewed and commented on the Final Engineering Report, and all 
comments were incorporated into the report. Agreement was reached on 
final presentation. OMB reviewed the Final Engineering Report prior to 
its submission to Congress in the final step of the approval process. 
The Commissioner, Regional and Area Offices of the Bureau of 
Reclamation have been consistently in full agreement with the need, 
scope, total costs, and the ability to pay analysis that supported the 
Federal and non-Federal cost shares. There have been no areas of 
disagreement or controversy in the formulation or implementation of the 
project.
    The Bureau of Reclamation collaborated with the tribes and Dry 
Prairie to conduct and complete value engineering investigations of the 
Final Engineering Report (planning), the Culbertson to Medicine Lake 
pipeline (design), the Poplar to Big Muddy River pipeline (design), the 
Missouri River intake (design) and the Regional Water Treatment plant 
(design). Each of these considerable efforts has been directed at ways 
to save construction and future operation, maintenance and replacement 
costs as planning and design proceed. Agreement with Reclamation has 
been reached in all value engineering sessions on steps to save Federal 
and non-Federal costs in the project.
    The Bureau of Reclamation conducted independent review of the final 
plans and specifications for the Missouri River raw water intake, the 
regional water treatment plant and the Culbertson to Medicine Lake 
Project. The Agency participated heavily during the construction phases 
of those projects and concurred in all aspects of construction from 
bidding through the completion of construction. The regional water 
treatment plant is under construction, and the Bureau of Reclamation is 
providing sound oversight.
    Cooperative agreements have been developed and executed between the 
Bureau of Reclamation and the tribes and between Bureau of Reclamation 
and Dry Prairie. Those cooperative agreements carefully set out goals, 
standards and responsibilities of the parties for planning, design and 
construction. All plans and specifications are subject to levels of 
review by the Bureau of Reclamation pursuant to the cooperative 
agreements. The sponsors collaborate to undertake activities that 
assure proper oversight and approval by the Bureau of Reclamation. Each 
year the tribes and Dry Prairie, in accordance with the cooperative 
agreements, develop a work plan setting out the planning, design and 
construction activities and the allocation of funding to be utilized on 
each project feature.
    Clearly, the Fort Peck Reservation Rural Water System is well 
supported by the Bureau of Reclamation. Congress authorized the project 
with a plan formulated in full cooperation and collaboration with the 
Bureau of Reclamation, and major project features are under 
construction with oversight by the Agency.

                        SUPPLEMENTAL BACKGROUND

Local Project Support
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was a logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other tribes in Indian water right settlement 
initiatives. The tribes did not seek financial compensation for the 
settlement of their water rights but sought development of meaningful 
water projects as now authorized.
    The 1999 Montana Legislature approved a funding mechanism from its 
Treasure State Endowment Program to finance the non-Federal share of 
project planning and construction. Demonstrating support of Montana for 
the project, there were only three votes against the statutory funding 
mechanism in both the full House and Senate. The 2001 through 2007 
Montana Legislatures have provided all authorizations and 
appropriations necessary for the non-Federal cost share. (The 2009 
legislature is in session and is expected to continue strong project 
support).
    Dry Prairie support is demonstrated by a financial commitment of 
all 14 communities within the service area to participate in the 
project. Rural support is strong, with about 70 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.
Need for Water Quality Improvement
    The Fort Peck Indian Reservation was previously designated as an 
``Enterprise Community'', underscoring the level of poverty and need 
for economic development in the region. The success of economic 
development within the Reservation will be significantly enhanced by 
the availability of higher quality, safe and more ample municipal, 
rural and industrial water supplies that this regional project will 
bring to the Reservation, made more necessary by persistent drought in 
the region. Outside the Fort Peck Indian Reservation, the Dry Prairie 
area has income levels that are higher than within the Reservation but 
lower than the State average.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located 2 to 3 miles from the river, including 
Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, Culbertson, and 
Bainville. As shown on the enclosed project map, a transmission system 
outside the Fort Peck Indian Reservation will deliver water 30 to 40 
miles north of the Missouri River. Therefore, the distances from the 
Missouri River to all points in the main transmission system are 
shorter than in other projects of this nature in Reclamation's Great 
Plains Region.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony regarding fiscal year 2010 Department 
of the Interior Appropriations and funding for the National Fish and 
Wildlife Foundation (Foundation). We respectfully request your approval 
of $5 million through the Bureau of Reclamation's Water and Related 
Resources fiscal year 2010 appropriation. This funding request for 
fiscal year 2010 is within the authorized level for the Foundation and 
would allow us to expand our historical partnership with the Bureau of 
Reclamation.
    In 2009, the Foundation is celebrating its 25th Anniversary and a 
remarkable history of bringing private partners together to leverage 
Federal funds to conserve fish, wildlife, plants and their habitats. 
The Foundation is required by law to match each federally-appropriated 
dollar with a minimum of one non-Federal dollar. We consistently exceed 
this requirement by leveraging Federal funds at a 3:1 ratio while 
providing thought leadership and emphasizing accountability, measurable 
results, and sustainable conservation outcomes. Funds appropriated by 
this subcommittee are fully dedicated to project grants and do not 
cover any overhead expenses of the Foundation.
    As of fiscal year 2008, the Foundation had awarded over 10,000 
grants to more than 3,500 national and community-based organizations 
through successful partnerships with the Department of the Interior 
agencies, including the Bureau of Reclamation (BOR), U.S. Fish and 
Wildlife Service (FWS), Bureau of Land Management (BLM). In addition, 
our collaborative inter-agency model has grown to include partnerships 
with the Environmental Protection Agency, National Oceanic and 
Atmospheric Administration, USDA Forest Service, USDA Natural Resources 
Conservation Service, and several other Federal agencies. This 
effective model brings together multiple Federal agencies with local 
government and private organizations to implement conservation 
strategies that directly benefit diverse habitats and a wide range of 
fish and wildlife species.

                       HISTORY OF BOR PARTNERSHIP

    BOR has been an important funding partner with the Foundation since 
1996. This subcommittee provided direct BOR appropriations to the 
Foundation during fiscal year 1996-fiscal year 2003 and we also have a 
long history of working with BOR through discretionary cooperative 
agreements. Some examples of our successful partnership include:
  --Pacific Grassroots Salmonid Initiative.--BOR was a partner with the 
        Foundation and NOAA to restore native fish habitat in 
        California, Oregon, and Alaska. Community-based grants support 
        projects for in-stream habitat restoration, fish passage 
        improvements, and barrier removals to benefit salmonids.
  --Bring Back the Natives Program.--BOR participated in a national 
        grant program to restore aquatic species back to historic 
        habitats with the Foundation, U.S. Fish and Wildlife Service, 
        Forest Service and Bureau of Land Management. Bring Back the 
        Natives has already benefited more than 120 species, including 
        29 listed species such as salmon, desert pupfish, modoc 
        suckers, tui and borax chubs and toiyabe spotted frog.
  --Lower Colorado River Multi-Species Conservation Program.--The 
        Foundation previously partnered with BOR as part of this 
        program to administer funds and coordination of on-the-ground 
        conservation activities. As part of the program, the Foundation 
        successfully acquired 1,400 acres of Southwestern Willow 
        Flycatcher riparian habitat in New Mexico and Arizona.
  --Williamson River Delta.--BOR is currently a partner in the 
        Foundation's efforts in the Williamson River Delta of Upper 
        Klamath Lake to protect, restore and maintain shoreline 
        wetlands critically important for the ESA-listed short-nosed 
        and Lost River suckers and to support monitoring efforts for 
        fish passage in the basin.

                     FISCAL YEAR 2010 OPPORTUNITIES

    Fiscal year 2010 appropriations through BOR would allow the 
Foundation to build more robust programs for our ongoing efforts and 
forge new and innovative partnerships with BOR that will be required to 
further develop water transaction programs to increase in-stream flows 
for fish, removing fish passage barriers, and improving water quality 
in reservoirs. These strategies are essential to the recovery of many 
important fish species and provide important recreational opportunities 
for the public.
    It is widely known that climate change will endanger some fish and 
wildlife populations and ecosystems more than others. In fiscal year 
2008, the Foundation initiated grant-making through new keystone 
initiatives, which focus on conservation and measurable impact on 
select species of birds, fish and sensitive habitats. With BOR and 
other agency funding in fiscal year 2010, we will accelerate 
implementation of these strategic initiatives, many of which seek to 
address the affects of climate change through wildlife and natural 
resource adaptation. To ensure success in these investments, we are 
incorporating monitoring and evaluation into the entire lifecycle of 
our strategic initiatives in order to identify the highest priority 
areas that will be resilient to climate change to assure long-term 
conservation effectiveness, measure progress, promote adaptive 
management, demonstrate results, and continuously learn from our grant-
making.
    With our partners, the Foundation has identified several species 
and ecosystems in need of immediate conservation action. In partnership 
with BOR, fiscal year 2010 funds will focus on restoration of in-stream 
flows, imperiled species recovery, and reservoir management.
  --Restoration of In-Stream Flows.--We recognize that climate change 
        will greatly exacerbate two existing water supply problems 
        which impact wildlife and the public--too little water during 
        critical fish migration periods and the seasonality of 
        freshwater supplies. The Foundation has successfully 
        implemented a water transactions program in the Columbia Basin 
        in partnership with the Bonneville Power Administration, local 
        water trusts, agencies and willing landowners. Building on this 
        success, the Foundation is working proactively with Federal, 
        State and local partners to expand voluntary water transaction 
        programs to benefit a diversity of wildlife species while 
        improving water flows year-round for human use. BOR funding in 
        fiscal year 2010 would support voluntary water transaction 
        programs in the Klamath Basin of Oregon and California to add 
        water storage capability in the watershed and increase 
        available flows to meet both fish and irrigation needs. In 
        central California, fiscal year 2010 funds would also support 
        in-stream flow restoration along the Upper Sacramento River and 
        water storage and increased flows in the Sierra Nevada alpine 
        wetlands, or wet meadows.
  --Imperiled Species Recovery.--Fiscal year 2010 funding would benefit 
        the recovery of multiple fish species in the key watersheds. 
        For example, wetland and stream habitat restoration on working 
        landscapes in the Upper Klamath Basin, Oregon, will benefit two 
        ESA-listed sucker species and native redband trout. In the 
        Lower Klamath Basin of northern California, habitat 
        restoration, fish passage improvement and a new water 
        transactions program would restore flows for Coho salmon, 
        Chinook salmon and steelhead trout. In the Upper Colorado River 
        Basin, our efforts will focus on the warmwater-coldwater 
        interface to improve habitat for Colorado Cutthroat trout, 
        native suckers and chubs on both public and private lands.
  --Reservoir Management.--Fiscal year 2010 funding would support 
        implementation of a Colorado River native fishes habitat 
        restoration program near BOR reservoirs. Working with BOR and 
        the U.S. Fish and Wildlife Service, one or two high priority 
        reservoirs will be targeted to serve as demonstration projects 
        for how reservoir habitat restoration can lead to improved lake 
        health, increased wildlife-related recreation opportunities and 
        strengthened local economies. In many reservoirs across the 
        west, fish habitat has significantly diminished since 
        construction of the reservoirs. This is due to loss of habitat 
        structure within the reservoir as well as reduced water quality 
        upstream of the reservoir. The Foundation will work with BOR 
        and other partners to improve upstream habitat and water 
        quality for native fish while also improving habitat conditions 
        within the reservoir.
    With a fiscal year 2010 BOR appropriation, the Foundation would 
engage non-Federal donors to support these strategic conservation 
initiatives through corporate contributions, legal settlements, and 
direct gifts. As a neutral convener, the Foundation is in a unique 
position to work with the Federal agencies, State and local government, 
corporations, foundations, conservation organizations and others to 
build strategic partnerships to address the most significant threats to 
fish and wildlife populations and their habitats. Currently, the 
Foundation has active partnerships with more than 30 corporations and 
foundations and 17 Federal agencies.

Efficiency, Performance Measures and Accountability
    In the last couple of years, the Foundation has taken important 
strides to strengthen our performance measures and accountability. For 
example, the Foundation is working with scientists and other experts to 
develop species-specific metrics for each of our keystone initiatives 
that we will use to measure our progress in achieving our conservation 
outcomes. Our grant review and contracting processes have been improved 
to ensure we maximize efficiency while maintaining strict financial and 
evaluation-based requirements. We have enhanced our Web site with 
interactive tools such as webinars and a grants library to enhance the 
transparency of our grant-making, and instituted a new paperless 
application and grant administration system. In 2009, we will continue 
our efforts improve communication between and among our stakeholders 
and streamlining of our grant-making process.
    The Foundation's grant-making involves a thorough internal and 
external review process. Peer reviews involve Federal and State 
agencies, affected industry, non-profit organizations, and academics. 
Grants are also reviewed by the Foundation's issue experts, as well as 
evaluation staff, before being recommended to the Board of Directors 
for approval. In addition, according to our Congressional Charter, the 
Foundation provides a 30-day notification to the Members of Congress 
for the congressional district and State in which a grant will be 
funded, prior to making a funding decision.
    Once again, Mr. Chairman, we greatly appreciate your continued 
support and hope the subcommittee will approve funding for the 
Foundation in fiscal year 2010.
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District

    Dear Chairman Dorgan and Senator Bennett, on behalf of the Northern 
Colorado Water Conservancy District, I am requesting your support for 
an appropriation in the President's recommended budget for fiscal year 
2010 of $3,569,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation we seek is as 
follows: $1,219,000 for construction activities for the Upper Colorado 
River Endangered Fish Recovery Program; $1,950,000 for construction 
activities for the San Juan River Basin Recovery Implementation 
Program; and $400,000 for Fish and Wildlife Management and Development 
activities to avoid jeopardy. This funding is authorized by Public Law 
106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                       Prepared Statement of APS

    Dear Chairman Dorgan and Senator Bennett, we are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2010 of $3,569,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $1,219,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $1,950,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission

    Dear Chairman Dorgan, attached herewith is my statement in support 
of funding for the U.S. Bureau of Reclamation's Colorado River Basin 
salinity control program. I sincerely appreciate your favorable 
consideration of this statement and request that it be made a part of 
the formal hearing record for fiscal year 2010 appropriations for the 
Bureau of Reclamation. Also, I fully support the statement of Jack 
Barnett, Executive Director, Colorado River Basin Salinity Control 
Forum, submitted to you in support of the Bureau of Reclamation's 
Colorado River Basin salinity control program.
                                 ______
                                 
   Prepared Statement of the Central Utah Water Conservancy District

    Dear Chairman Dorgan and Senator Bennett, we are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2010 of $3,569,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $1,219,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $1,950,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
      Prepared Statement of the Santa Clara Valley Water District

                                SUMMARY

    This statement urges the subcommittee's support for a fiscal year 
2010 appropriation of $40 million for California Bay-Delta Restoration.

             STATEMENT OF SUPPORT CALFED BAY-DELTA PROGRAM

    Background.--In an average year, half of Santa Clara County's water 
supply is imported from the San Francisco Bay/Sacramento-San Joaquin 
Delta estuary (Bay-Delta) watersheds through three water projects: The 
State Water Project, the Federal Central Valley Project, and San 
Francisco's Hetch Hetchy Project. In conjunction with locally developed 
water, this water supply supports more than 1.7 million residents in 
Santa Clara County and the most important high-tech center in the 
world. In average to wet years, there is enough water to meet the 
county's long-term needs. In dry years, however, the county could face 
a water supply shortage of as much as 100,000 acre-feet per year, or 
roughly 20 percent of the expected demand. In addition to shortages due 
to hydrologic variations, the county's imported supplies have been 
reduced due to regulatory restrictions placed on the operation of the 
State and Federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water mixing 
in from San Francisco Bay, have the potential to create disinfection by 
products that are carcinogenic and pose reproductive health concerns.
    Santa Clara County's imported supplies are also vulnerable to 
extended outages due to catastrophic failures such as major earthquakes 
and flooding.
    Project Synopsis.--The CALFED Bay-Delta Program is an 
unprecedented, cooperative effort among Federal, State, and local 
agencies to restore the Bay-Delta. With input from urban, agricultural, 
environmental, fishing, and business interests, and the general public, 
CALFED has developed a comprehensive, long-term plan to address 
ecosystem and water management issues in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability and 
water quality for millions of Californians and the State's trillion 
dollar economy and job base.
    The passage of H.R. 2828 (Public Law 108-361) in 2004 reauthorized 
Federal participation in the CALFED Bay-Delta Program and provided $389 
million in new and expanded funding authority for selected projects, 
including the San Luis Reservoir Low Point Improvement Project. The San 
Luis Project is one of six new projects, studies or water management 
actions authorized to receive a share of up to $184 million under the 
conveyance section of the bill. It is critical that Federal funding be 
provided to implement the actions authorized in the bill in the coming 
years.
    Fiscal Year 2009 Funding.--Congress appropriated $40 million to the 
program in fiscal year 2009.
    Fiscal Year 2010 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation of $40 million for 
California Bay-Delta Restoration.
                                 ______
                                 
     Prepared Statement of the Colorado River Energy Distributors 
                          Association (CREDA)

    Dear Chairman Dorgan and Senator Bennett, the Colorado River Energy 
Distributors Association (CREDA) requests your support for an 
appropriation in the President's recommended budget for fiscal year 
2010 of $3,569,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation is as follows: 
$1,219,000 for construction activities for the Upper Colorado River 
Endangered Fish Recovery Program; $1,950,000 for construction 
activities for the San Juan River Basin Recovery Implementation 
Program; and $400,000 for Fish and Wildlife Management and Development 
activities. This funding is authorized by Public Law 106-392, as 
amended.
    CREDA members serve over 4 million electric consumers in the States 
of Arizona, Colorado, Nevada, Utah, New Mexico and Wyoming. CREDA 
members are the purchasers of the clean, renewable hydropower resources 
of the Federal Colorado River Storage Project (CRSP). CREDA is a 
participant in these cooperative programs. CRSP power revenues are 
continuing to be used to provide ongoing base funding for these 
programs. The programs' objectives are to recover endangered fish 
species while water use and development proceeds in compliance with the 
Endangered Species Act.
    CREDA appreciates the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
         Prepared Statement of the Utah Water Users Association

    Dear Chairman Dorgan and Senator Bennett, we are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2010 of $3,569,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $1,219,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $1,950,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                   Prepared Statement of Denver Water

    Dear Chairman Dorgan and Senator Bennett, we are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2010 of $3,569,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $1,219,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $1,950,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
     Prepared Statement of the Grand Valley Water Users Association

    Dear Chairman Dorgan and Senator Bennett, we are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2010 of $3,569,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $1,219,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $1,950,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
 Prepared Statement of the Confederated Tribes of the Umatilla Indian 
                              Reservation

    Honorable Chairman Dorgan, Ranking Member Bennett, members of the 
subcommittee, we respectfully request fiscal year 2010 appropriation of 
funds for two priority watershed restoration and agricultural water 
supply protection projects in Oregon and Washington, the Umatilla Basin 
Water Supply Study Project (previously funded under the Umatilla Basin 
Project Phase III, OR) and the Walla Walla General Investigation Stream 
Flow Restoration Feasibility Study (previously funded under the Walla 
Walla River Watershed, OR & WA).
  --For the Umatilla Basin Water Supply Project, Oregon, we request an 
        appropriation of $150,000 in the Bureau of Reclamation, Pacific 
        Northwest Region, Water and Related Resources budget. This 
        request will enable the Bureau to finish the study and brings 
        to fruition the project that was initiated by the $450,000 
        committed by the Bureau of Reclamation to the project in fiscal 
        year 2007, the approximately $488,000 and $342,000 provided by 
        the subcommittee for fiscal year 2008 and fiscal year 2009 
        respectively.
  --For the Walla Walla River Watershed, Oregon and Washington, we 
        request an appropriation of $500,000 in the U.S. Army Corps of 
        Engineers, Portland Division, Walla Walla District, General 
        Investigations budget, and an additional $270,000 identified 
        for the Corps to provide to the Confederated Umatilla Tribes 
        through inter-governmental agreement to complete work required 
        as project sponsor. This request will allow the district and 
        the tribal government as Project Sponsor to move directly into 
        Pre-Construction Engineering and Design after completion of 
        Feasibility Report in 2010. This project is also known as Walla 
        Walla River Basin Feasibility Report/Environmental Impact 
        Statement.
    Both the Umatilla Basin Water Supply Project and the Walla Walla 
General Investigation Stream Flow Restoration Feasibility Study are 
ongoing projects and have had administration and/or Congressional line 
item funding in past fiscal years.

           UMATILLA RIVER BASIN, OREGON WATER SUPPLY PROJECT

    By letter dated March 19, 2007, the Office of the Secretary of 
Interior responded favorably to the formal requests of the Oregon 
Congressional delegation and of the Confederated Tribes of the Umatilla 
Indian Reservation (CTUIR), Westland Irrigation District and Oregon 
Governor Theodore Kulongoski to initiate the study of the Umatilla 
Basin water development projects and concurrent settlement of the 
tribe's reserved water rights. Counselor to the Secretary, L. Michael 
Bogert, wrote ``I will ask the Secretary's Indian Water Rights Office 
to appoint an Assessment Team . . .'' and ``I will also ask the Bureau 
of Reclamation to move forward with a concurrent appraisal level study 
of water supply options, including a full Phase III exchange . . . to 
help resolve the tribe's water rights claims.''
    The Bureau of Reclamation provided $450,000 in fiscal year 2007 for 
work on the Umatilla Basin water supply appraisal study. The 
subcommittee subsequently provided approximately $488,000 and $342,000 
for this account in the fiscal year 2008 and fiscal year 2009 Energy 
and Water Appropriations bills. The Bureau is actively developing its 
Umatilla Basin Water Supply Study with these funds and will complete 
the project in 2010 with the requested funding.
    The Umatilla Basin Water Supply Project is authorized by the 
Reclamation Feasibility Studies Act of 1966, 80 Stat. 707, Public Law 
89-561, (Sept. 7, 1966).
    The fiscal year 2010 request of $150,000 will enable the Bureau of 
Reclamation to complete the estimated 2\1/2\ year appraisal level study 
in mid 2010. The detailed appraisal study project will inform the 
concurrent Interior Department Indian Water Rights Assessment Team's 
work product. In 2010, Interior should have identified and estimated 
costs and feasibility of a clear project or suite of projects necessary 
to satisfy water rights of the CTUIR and in the Umatilla River.
    This fiscal year 2010 request follows on the work of the Bureau of 
Reclamation, authorized by the Umatilla Basin Project Act of 1988 (100 
Public Law 557; 102 Stat. 2782 title II), to construct and operate the 
Phase I Exchange with West Extension Irrigation District and the Phase 
II Exchange with Hermiston and Stanfield Irrigation Districts. Heralded 
as one of the most successful stream flow restoration and salmon 
recovery projects in the Columbia River Basin, the Umatilla Basin 
Project resulted in partially restored stream flows in the Umatilla 
River and successful reintroduction of spring Chinook, fall Chinook and 
Coho salmon. After nearly a century of dry river bed in summer months 
and extinction of all salmon stocks, there has been an Indian and non-
Indian salmon fishery nearly every year in the Umatilla River since the 
project was completed in the mid-1990s.
    Completion of the Water Supply Study and the concurrent Tribal 
Water Rights Assessment is supported and endorsed by the Honorable 
Governor Ted Kulongoski and by local irrigation districts including 
specifically Westland Irrigation District, the Umatilla County 
Commission, and local municipalities including specifically the city of 
Irrigon.

     WALLA WALLA BASIN, OREGON AND WASHINGTON, GI FEASIBILITY STUDY

    In its eighth and final full year of work leading to Study 
completion, the U.S. Army Corps of Engineers' feasibility study will 
complete a detailed analysis of the preferred alternative selected to 
restore stream flows in the Walla Walla River. Drained nearly dry 
during summer months by irrigation in Oregon and Washington, the Walla 
Walla River is within the aboriginal lands of the CTUIR and the 
complete loss of salmon violates the agreement by the United States in 
the Treaty of 1855 to protect these fish.
    Since the study's inception, approximately $4 million of Federal 
funds have either been budgeted or appropriated for completion of the 
Study through fiscal year 2009. The Walla Walla District will complete 
the Feasibility Study Report in fiscal year 2010 and this request for 
$500,000 for the Corps and $270,000 for the tribe will allow the 
District and CTUIR to move directly into initiation of Pre-Construction 
Feasibility and Design phase.
    The Feasibility Study Project is authorized by the Senate Committee 
on Public Works July 27, 1962 (Columbia River and Tributaries), 87th 
Congress, House Document No. 403 and initiated as a result of a 
positive Reconnaissance Report for the Walla Walla River Watershed 
(1997) under a General Investigation study.
    The CTUIR is the formal sponsor of the Corps of Engineers 
Feasibility Study and has provided over $4.0 million in in-kind 
contributions. Additionally, the State of Washington Department of 
Ecology has provided $400,000 to the Feasibility Study. This is the 
first year the CTUIR will request Federal funding, over and above that 
requested for Corps of Engineers work, to enable the tribe's 
continuation as Project Sponsor. Because of the unique status as a 
Federal-recognized Indian tribe with Treaty Rights to the Walla Walla 
Basin, and owing to the fact the CTUIR is the formal sponsor of the 
Project, the Confederated Umatilla Tribes request an additional 
appropriation of $270,000 to support their sponsor-required work of 
real estate transactions and water right permitting from Oregon and 
Washington. This will allow the tribe to initiate this work and will 
necessitate additional and continued 2011 support to fund acquisition 
of real property and other related activities. Prior to addressing this 
unique situation in an upcoming Water Resources Development Act bill, 
CTUIR requests the subcommittee consider this request as a clear 
exception to the standard requirement that non-Federal sponsors provide 
non-Federal funding.
    Support for the completion of the Feasibility Study and moving to 
construction of the project is strong and diverse and includes the 
Honorable Governor of Washington Christine Gregoire, the Honorable 
Governor of Oregon Ted Kulongoski, the Walla Walla Watershed Alliance, 
the Walla Walla Basin Watershed Council, basin irrigation districts, 
local State legislators, local governments and many local and regional 
advocacy groups.

                               CONCLUSION

    In closing, the CTUIR appreciates the opportunity to provide this 
testimony in support of adding funds for the ongoing Umatilla River 
Basin Water Supply Project, Bureau of Reclamation, and the Walla Walla 
River Basin Watershed Restoration Feasibility Study, Army Corps of 
Engineers. Both projects are critically important to protecting 
existing agricultural economies, completing future water supply 
development and concurrently restoring stream flows and recovering 
threatened salmon and other Columbia River Basin fish stocks.
    Thank you.
                                 ______
                                 
  Prepared Statement of the Uncompahgre Valley Water Users Association

    Dear Chairman Dorgan and Senator Bennett, we are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2010 of $3,569,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $1,219,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $1,950,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the Upper Gunnison River Water Conservancy 
                                District

    Dear Chairman Dorgan and Senator Bennett, we are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2010 of $3,569,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $1,219,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $1,950,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2010 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

        Prepared Statement of the Gas Turbine Association (GTA)

    The Gas Turbine Association appreciates the opportunity to provide 
the United States Senate Committee on Appropriations Subcommittee on 
Energy and Water Development with our industry's statement recommending 
fiscal year 2010 funding levels for the Department of Energy.
    GTA recommends that the fiscal year 2010 appropriation for Fossil 
Energy include $45 million for the Advanced Turbines Program to meet 
critical national goals of fuel conservation, fuel flexibility 
(including syngas and hydrogen), greenhouse gas reduction, and criteria 
pollutant reduction. We also recommend that Congress take appropriate 
action to ensure the Office of Energy Efficiency and Renewable Energy, 
Industrial Technologies Program fiscal year 2010 appropriation include 
$10 million, directed towards small gas turbine research, as part of 
the Distributed Energy program to achieve goals similar to those 
referenced above for the Fossil Energy initiative. In both cases a 
public-private partnership is needed to ensure success.
    It is clear that dramatic reductions in greenhouse gas emissions 
are in the national interest. It is also clear that our economy needs 
more electric generation capacity to resume and promote further growth. 
Without new technology, the power generation industry will be hard 
pressed to produce additional electric capacity, while at the same time 
meeting the strict greenhouse gas emissions standards being set by 
States and the Federal Government.
    Federal investment in research and technology development for 
advanced gas turbines that are more versatile, cleaner, and have the 
ability to burn hydrogen-bearing reduced carbon synthetic fuels and 
carbon-neutral alternative fuels is needed to ensure the reliable 
supply of electricity in the next several decades. Domestic coal based 
Integrated Gasification Combined Cycle (IGCC) with carbon capture and 
sequestration is one such approach that would significantly supplement 
available supplies of domestic natural gas to guarantee an adequate 
supply of clean and affordable electric power. Alternative fuel choices 
range from imported LNG, coal bed methane, and coal-derived synthetic 
or process gas to biogas, waste-derived gases and hydrogen. Research is 
needed to improve the efficiency, reduce capital and operating costs, 
and reduce emissions.

TECHNOLOGIES FOR ADVANCED IGCC/H<INF>2</INF> GAS TURBINE--REDUCING THE 
                   PENALTY FOR CO<INF>2</INF> CAPTURE

    At current rates of research and development it is unlikely that 
the Nation will have available the gas turbine technologies to meet the 
needs of FutureGen type power plants. The advancement of these 
technologies must be undertaken by the DOE since there is currently no 
pathway to the development, insertion, and maturation of these 
technologies into the Nation's electric power infrastructure based on 
market forces. Thus, a combined effort by the public and private 
sectors is necessary.
    The turbines and related technologies being developed under the DOE 
FE Advanced Turbines program will directly advance the performance and 
capabilities of future power generation with CO<INF>2</INF> capture and 
sequestration. Advances are needed to offset part of the power plant 
efficiency and output reductions associated with CO<INF>2</INF> 
capture. Program funding is required to cost-share in the technology 
development of advanced hydrogen/syngas combustors and other components 
to realize the DOE goals.
    Several GTA member companies are working cost-share programs with 
the DOE to develop technologies for advanced gas turbine power plants 
with carbon capture. These technologies will: (1) increase plant 
efficiency; (2) increase plant capacities; and (3) allow further 
reductions in combustion emissions of hydrogen rich fuels associated 
with CO<INF>2</INF> capture and sequestration. This will help offset 
some of the efficiency and output penalties associated with 
CO<INF>2</INF> capture. These programs are funding technology 
advancement at a much more rapid rate than industry can do on their 
own.
    The need for increased levels of Federal cost-share funding is 
immediate. The funding levels in past years for the Advanced Turbines 
program has been inadequate to meet DOE's Advanced Power System goal of 
an IGCC power system with high efficiency (45-50 percent HHV), near-
zero emissions and competitive capital cost. To meet this goal, the 
researchers must demonstrate a 2 to 3 percentage point improvement in 
combined cycle efficiency above current state-of-the-art Combined Cycle 
turbines in IGCC applications.
    The plan for the IGCC-based FutureGen-type application is to 
develop the flexibility in this same machine with modifications to 
operate on pure hydrogen as the primary energy source while maintaining 
the same levels of performance in terms efficiency and emissions. The 
goal is to develop the fundamental technologies needed for advanced 
hydrogen turbines and to integrate this technology with CO<INF>2</INF> 
separation, capture, and sequestration into a near-zero emission 
configuration that can provide electricity with less than a 10 percent 
increase in cost over conventional plants by 2012.
    The Advanced Turbines program is also developing oxygen-fired (oxy-
fuel) turbines and combustors that are expected to achieve efficiencies 
in the 44-46 percent range, with near-100 percent CO<INF>2</INF> 
capture and near-zero NO<INF>X</INF> emissions. The development and 
integrated testing of a new combustor, turbine components, advanced 
cooling technology, and materials in oxy-fuel combustors and turbines 
is needed to make these systems commercially viable.
    The knowledge and confidence that generating equipment will operate 
reliably and efficiently on varying fuels is essential for the 
deployment of new technology. Years of continued under funding of the 
Advanced Turbines program has already delayed the completion dates for 
turbine R&D necessary for advanced IGCC, as well as timing for a 
FutureGen-type plant validation.

                      MEGA-WATT SCALE TURBINE R&D

    In the 2005 Enabling Turbine Technologies for High-Hydrogen Fuels 
solicitation, the Office of Fossil Energy included a topic area 
entitled ``Development of Highly Efficient Zero Emission Hydrogen 
Combustion Technology for Mega-Watt Scale Turbines''. Turbine 
manufacturers and combustion system developers responded favorably to 
this topic, but DOE funding constraints did not allow any contract 
awards. The turbine industry recommends a follow-up to this 
solicitation topic that would allow the developed combustion technology 
to be tested in machines at full scale conditions and allow for 
additional combustion technology and combustor development for high-
hydrogen fuels.
    The turbine industry believes that this technology is highly 
relevant to industrial coal gasification applications including: (1) 
site-hardened black-start capability for integrated gasification 
combined cycle applications (the ability to restart an IGCC power plant 
when the electric grid has collapsed); (2) supplying plant electric 
load fueled on syngas or hydrogen; (3) increasing plant steam cycle 
capacity on hot days when large amounts of additional power are needed; 
and (4) in gas turbines for compression of high-hydrogen fuels for 
pipeline transportation. The development of MW-scale turbines (1-100 
MW) fueled with high-hydrogen fuels will promote the sustainable use of 
coal. In addition, highly efficient aeroderivative megawatt scale 
engines operate under different conditions than their larger 
counterparts and are installed for peaking or distributed generation 
applications. Funding is required to design efficient and low emissions 
combustors that accommodate the new fuels.

   HIGH-EFFICIENCY, LOW CARBON, FUEL FLEXIBLE SMALL GAS TURBINES FOR 
                           DISTRIBUTED ENERGY

    The Distributed Energy Program of EERE's Industrial Technologies 
program should include $10 million to initiate small gas turbine 
research and development programs to dramatically increase their fuel 
efficiency (and thus reduce their carbon footprint) and to make them 
fuel flexible. Distributed energy is critical to building a efficient, 
diverse, and robust electric power infrastructure. Specifically, this 
program should set a goal of 42 percent efficiency (on a lower heating 
value basis) for advanced small gas turbines while enhancing their fuel 
flexibility to include dual fuel and alternative fuel utilization. 
These programs should build on the success of the Advanced Micro-
turbine program of past years to overcome the barriers to insertion of 
Distributed Energy into our Nation's electrical infrastructure and to 
build on potential synergies between advanced small gas turbines and 
the advances in waste heat capture such as combined heat and power 
(CHP) and organic Rankine cycle (ORC).

              GAS TURBINES REDUCE GREENHOUSE GAS EMISSIONS

    The gas turbine industry's R&D partnership with the Federal 
Government has steadily increased power plant efficiency to the point 
where natural gas fired turbines can reach combined cycle efficiencies 
of 60 percent, and quick-start simple cycle peaking units can reach 46 
percent. The gas turbine's clean exhaust can be used to create hot 
water, steam, or even chilled water. In such combined heat and power 
applications, overall system efficiency levels can reach 60 to 85 
percent LHV. This compares to 40-45 percent for even the most advanced 
thermal steam cycles (most of which are coal fired).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Gas turbines already play a very significant role in minimizing 
greenhouse gas emissions worldwide. Gas turbines are both more 
efficient and typically burn lower carbon fuels compared to other types 
of combustion-based power generation and mechanical drive applications. 
The Nation needs to reinvigorate the gas turbine/Government partnership 
in order to develop new, low carbon power plant solutions without 
increasing our reliance on natural gas. This can be done by funding 
research to make gas turbines more capable of utilizing hydrogen and 
synthetic fuels as well as increasing the efficiency, durability and 
emissions capability of natural gas fired turbines. If Congress 
provides adequate funding to DOE's turbine R&D efforts, technology 
development and deployment will be accelerated to a pace that will 
allow the United States to achieve its emissions and energy security 
goals.
    The GTA respectfully requests $45 million in fiscal year 2010 
appropriations for the Fossil Energy Advanced Turbines Program, and $10 
million for the Energy Efficiency & Renewable Energy ITP/Distributed 
Energy Program directed towards small turbines research in fiscal year 
2010 to meet critical national goals of fuel conservation, fuel 
flexibility (including syngas and hydrogen), greenhouse gas reduction, 
and criteria pollutant reduction.

                          GTA MEMBER COMPANIES

    Alstom Power; Capstone Turbine Corporation; GE Energy; Florida 
Turbine Technologies; Rolls-Royce; Siemens Energy; Solar Turbines; 
Pratt & Whitney Power Systems; Strategic Power Systems; and VibroMeter.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    On behalf of the Federation of American Societies for Experimental 
Biology (FASEB), I respectfully request an fiscal year 2010 
appropriation for the Department of Energy Office of Science (DOE SC) 
of 8 percent over fiscal year 2009. This increase will provide the 
Office of Science with the ability to sustain support for critical 
research programs that spur scientific innovation, fuel the economy, 
move the Nation towards energy independence and improve human health.
    As a Federation of 22 professional scientific societies, FASEB 
represents nearly 90,000 life scientists, making us the largest 
coalition of biomedical research associations in the Nation. FASEB's 
mission is to advance health and welfare by promoting progress and 
education in biological and biomedical sciences, including the research 
funded by VA, through service to its member societies and collaborative 
advocacy. FASEB enhances the ability of biomedical and life scientists 
to improve--through their research--the health, well-being and 
productivity of all people.
    FASEB is composed of 22 societies with more than 80,000 members, 
making it the largest coalition of biomedical research associations in 
the United States. Our mission is to advance health and welfare by 
promoting progress and education in biological and biomedical sciences, 
including the science supported by DOE SC.

    ``[T]he Office of Science is commit[ed] to invest in some of the 
most exciting and daring research that humankind has ever conceived, 
from explorations into the origins of our universe and the constituents 
of life, to the scientific knowledge that will deliver new, clean, and 
abundant sources of energy to meet world needs for 10 billion people by 
the year 2050.''

    This bold statement from the DOE SC Strategic Plan \1\ highlights 
DOE SC's unique role in serving as a catalyst for discoveries in basic 
energy research and in environmental and life sciences as well as 
computational science. The research programs and facilities at DOE SC 
support further cutting-edge science and technological innovations that 
safeguard our Nation, strengthen our economy, and improve the daily 
lives of the American people.
---------------------------------------------------------------------------
    \1\ United State Department of Energy. 2004. Office of Science 
Strategic Plan. http://www.er.doe.gov/about/Strategic_Plan/Feb-2004-
Strat-Plan-screen-res.pdf.
---------------------------------------------------------------------------
    Each year, more than 25,000 researchers from universities, other 
government agencies and private industry use DOE SC's extraordinary 
system of national laboratories and research facilities. DOE's state-
of-the-art facilities comprise the most advanced research system of its 
kind in the world and permit the agency to support unique and vital 
programs in climate change, geophysics, genomics, materials and 
chemical sciences, and life sciences. The Office of Science's emphasis 
on interdisciplinary scientific research supports and extends the basic 
research that other Federal agencies sponsor, and much of the research 
that non-DOE science agencies fund could not occur in the absence of 
DOE's highly specialized research infrastructure.
    DOE's contribution to research and science extends beyond the 
benefits of its national laboratories. The Office of Science is also a 
principal supporter of graduate students and early career postdoctoral 
researchers at U.S. colleges and universities. Almost 50 percent of DOE 
SC's research funding supports research at over 300 colleges, 
universities and institutes nationwide.

              DISCOVERIES THAT IMPROVE HEALTH & WELL-BEING

    Scientists whom DOE has supported have uncovered a wealth of basic 
biological knowledge and have produced astounding health technologies.
  --Restoring Function to Patients with Disabilities.--Office of 
        Science funding led to the bion microstimulator, a miniature 
        rechargeable and implantable neurostimulator that may benefit 
        50 million Americans who suffer from debilitating conditions by 
        stimulating viable nerves and muscles to prevent muscle 
        deterioration and help restore nerve and muscle function. The 
        device can address a wide variety of diseases and disorders, 
        including incontinence, chronic headaches, peripheral pain, 
        angina and epilepsy.
  --Targeted Cancer Therapies.--DOE scientists have developed the 
        Cesium-131 Brachytherapy Seed, one of the most significant 
        advancements in brachytherapy (short distance treatment 
        involving the use of carefully placed, radioactive ``seeds'') 
        for cancer treatment in nearly 20 years. In treating prostate 
        and other cancers, it delivers a highly targeted therapeutic 
        dose of radiation to the tumor quickly and with potentially 
        fewer side effects.
    Although research DOE SC has funded has already positively 
influenced our lives and health, opportunities on the horizon are even 
more exciting. For example, the DOE-SC Artificial Retina Project is 
developing an artificial retina that can restore sight in patients who 
are blind; the technology can also help persons who are deaf as well as 
those who have spinal cord injuries, Parkinson's disease and almost any 
other neurological disorder. Additionally, researchers at the Argonne 
National Laboratory and the University of Chicago are engineering an 
``ice slurry'' to cool organs; the slurry may help save stroke or 
cardiac arrest patients from the destruction of their brain and heart 
cells.

                 CLEANER AND MORE SECURE ENERGY FUTURE

    Fundamental discoveries in basic energy sciences funded by DOE SC 
are already having an impact on the energy we use daily and are 
continuing to pave the way for the next generation of environmentally-
conscious, sustainable energy sources. As a recent report \2\ on future 
energy needs produced by DOE stated, ``Major new discoveries are 
needed, and these will largely come from basic research programs.''
---------------------------------------------------------------------------
    \2\ United States Department of Energy, Basic Energy Sciences 
Advisory Committee. 2003. Basic Research Needs to Assure a Secure 
Energy Future. http://www.sc.doe.gov/bes/reports/files/SEF_rpt.pdf.
---------------------------------------------------------------------------
  --Building Better Batteries.--DOE SC discoveries resulted in lithium 
        batteries that offer high-energy storage capacity in an 
        environmentally benign package. Lithium batteries are widely 
        used in both consumer and defense applications, such as 
        cellular telephones and notebook computers. Moreover, DOE 
        researchers have generated a solid-state, fluoride-based 
        battery that is safer than traditional batteries in high-
        temperature applications such as oil, gas and geothermal 
        drilling.
  --Hydrogen Technologies.--At the Argonne National Lab, scientists 
        have constructed the world's fastest commercially producible 
        hydrogen sensor that can be used in hydrogen-powered cars to 
        detect unsafe levels of hydrogen. Scientists have also 
        developed materials resistant to metal dusting degradation, 
        which will be used to make more durable equipment in plants 
        that manufacture hydrogen.
    Researchers are also on the brink of developing new technologies to 
meet our most pressing energy needs. In an effort to increase the 
amount of c solar power in the Nation's energy supply, DOE SC is 
investing in research aimed at improving conversion of solar energy to 
both electricity and chemical fuels. Moreover, fundamental research 
awards have been made to institutions nationwide as scientists work to 
overcome key hurdles in hydrogen production, storage and conversion in 
an effort to increase the feasibility of hydrogen fuel.

               RECOGNIZING THE IMPORTANCE OF DOE RESEARCH

    The passage of the America Creating Opportunities to Meaningfully 
Promote Excellence in Technology, Education and Science (COMPETES) Act 
of 2007 renewed our Nation's commitment to science and technology and 
established a 7 year doubling path for the budget of DOE SC. In 2009, 
generous funding provided in the Omnibus Appropriations Act and the 
American Recovery and Reinvestment Act began to fulfill the commitment 
Congress has made to scientific and technological innovation. In 2010, 
we ask that this support continue, both to protect the investments that 
have been made, and to realize the potential of the scientific 
enterprise. An fiscal year 2010 funding level for DOE SC of 8 percent 
over fiscal year 2009 will allow DOE to greatly enhance its 
groundbreaking research portfolio and permit it to confront current and 
future energy and health challenges. Scientists who have received DOE 
SC funding have made and continue to make extraordinary breakthroughs 
that contribute to the quality of our lives and facilitate advances 
that drive our Nation's innovative technologies.
                                 ______
                                 
  Prepared Statement of the Biomass Energy Research Association (BERA)

                                SUMMARY

    This testimony pertains to fiscal year 2010 appropriations for 
biomass energy research, development, and demonstration (RD&D) 
conducted by the Department of Energy (DOE) Office of Energy Efficiency 
and Renewable Energy (EERE), Biomass Program (OBP). This RD&D is funded 
by the Energy and Water Development bill, under Energy Supply and 
Conservation, Energy Efficiency and Renewable Energy. BERA recommends a 
total appropriation of $400 million in fiscal year 2010 for Biomass and 
Biorefinery Systems R&D. This is an increase of $75 million over the 
U.S. Department of Energy request for fiscal year 2010 for this 
programmatic area. Substantial investments in new technology and 
demonstrations will be needed to meet the RFS goals for advanced 
biofuels. Specific lines items for the DOE biomass RD&D budget are 
below (also see Table 1):
  --$40,000,000 for Feedstock Infrastructure development (regional 
        partnerships, harvesting and storage technology, exploration of 
        new feedstocks).
  --$60,000,000 for Biochemical Conversion Platform Technology 
        (emphasis on cost-effective pretreatment technologies and 
        fermentation organisms--both are large contributors to high 
        cost of biofuels production from cellulosic materials).
  --$60,000,000 for Thermochemical Conversion Platform Technology 
        (conversion of plants, oil crops, energy crops, wood and forest 
        resources to oils, long chain hydrocarbons, or other fuels/
        intermediates).
  --$200,000,000 for Utilization of Platform Outputs: Integrated 
        Biorefinery Technologies demonstrations. Technology 
        demonstrations reduce technical and economic risk and 
        accelerate the potential for private investment.
  --$40,000,000 for Utilization of Platform Outputs: Bioproducts 
        (chemicals and materials).

                               BACKGROUND

    On behalf of BERA's members, we would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority programs that we strongly urge 
be continued or started. BERA is a non-profit association based in the 
Washington, DC area. It was founded in 1982 by researchers and private 
organizations conducting biomass research. Our objectives are to 
promote education and research on the economic production of energy and 
fuels from biomass, and to serve as a source of information on biomass 
RD&D policies and programs. BERA does not solicit or accept Federal 
funding.

   TABLE 1.--FISCAL YEAR 2010 BIOMASS/BIOREFINERY SYSTEMS R&D, ENERGY
             SUPPLY & CONSERVATION, DOE/EERE BIOMASS PROGRAM
                        [In millions of dollars]
------------------------------------------------------------------------
             Program Area                 Description of RD&D     Total
------------------------------------------------------------------------
Feedstock Infrastructure.............  Regional feedstock          $40.0
                                        partnerships
                                       Joint development of
                                        storage and harvesting
                                        technology
                                       Plants species amenable
                                        to thermochemical
                                        (e.g., high lignin) and
                                        biochemical (e.g., more
                                        easily processed
                                        lignin) processes
Biochemical Conversion Platform R&D..  Next generation biofuels/    60.0
                                        processes using a range
                                        of feedstocks
                                       Technologies to reduce
                                        costs of pretreatment
                                       Advanced biological
                                        routes that combine
                                        biological methods with
                                        pretreatment to reduce
                                        enzyme costs
                                        dramatically
                                       Seed funding for
                                        revolutionary new
                                        concepts, including
                                        small businesses and
                                        inventors
Thermochemical Conversion Platform     Next generation biofuels     60.0
 R&D.                                   and processes that can
                                        use a range of
                                        feedstocks (pyrolysis,
                                        gasification, routes)
                                       Technologies to reduce
                                        costs of pretreatment
                                       Seed funding for
                                        revolutionary new
                                        concepts, including
                                        small businesses and
                                        inventors
Platform Outputs: Integrated           Direct funding (cost-       200.0
 Biorefineries.                         shared) of biochemical
                                        and thermochemical
                                        conversion technologies
                                       Public awareness and
                                        outreach programs
                                       National center for
                                        infrastructure issues
                                       Underwriting of loan
                                        guarantees
Platform Outputs: Bioproducts........  Co-production of             40.0
                                        chemicals and materials
                                        from biochemical and
                                        thermochemical output
                                        streams as alternatives
                                        to petroleum-derived
                                        chemicals
                                                                --------
      TOTAL..........................  ........................    400.0
------------------------------------------------------------------------

    There is a growing urgency to diversify our energy supply, develop 
technologies to utilize indigenous and renewable resources, reduce U.S. 
reliance on imported oil, and mitigate the impacts of energy on climate 
and the environment. The benefits will be many--support for economic 
growth, new American jobs, enhanced environmental quality, and fewer 
energy-related contributions to climate change. Economic growth is 
fueled and sustained in large part by the availability of reliable, 
cost-effective energy supplies. The import of oil and other fuels into 
the United States is growing steadily, despite increased volatility in 
supply and prices, especially petroleum and natural gas. This creates 
an economic burden on industry and consumers alike, and adversely 
impacts our quality of life. A diversified, sustainable energy supply 
is critical to meeting our energy challenges and maintaining a healthy 
economy with a competitive edge in global markets. Biomass can 
diversify U.S. energy supply in several ways, and biofuels is only one 
avenue:
  --Biomass is the single renewable resource with the ability to 
        directly replace liquid transportation fuels.
  --Biomass can be used as a feedstock to supplement the production of 
        chemicals, plastics, and materials now produced from crude oil.
  --Gasification of biomass produces a syngas that can be utilized to 
        supplement the natural gas supply, generate electricity, or 
        produce fuels and chemicals.
    While biomass will not solve all our energy challenges, it can 
certainly contribute to the diversity of our supply, and do so in a 
sustainable way, while minimizing impacts to the environment or 
climate. The Energy Independence and Security Act (EISA) of 2007 
mandates increased use of alternative fuels, with a substantial portion 
to come from cellulosic biomass. To meet the ambitious EISA goals will 
require aggressive support for RD&D to move technology forward and 
reduce technical and economic risk.
      overall bera recommendations for u.s. doe/eere biomass rd&d
  --Make Investments to Accelerate Development of Next Generation 
        Biofuels/Processes [Platforms Research and Development--
        Biochemical and Thermochemical Platform R&D].--Balance funding 
        so more is allocated toward next generation biofuels and 
        processes that include both biochemical and thermochemical 
        routes, including pyrolysis, gasification, and others, and 
        hybrid routes; emphasize processes that can use a range of 
        biomass types. Include advanced biological routes that better 
        integrate simplified combined biological methods with 
        pretreatment to reduce enzyme costs dramatically as enzymes 
        followed by pretreatment are the major cost items that are 
        susceptible to change.
  --Make Investments to Bring Down the Cost of Biomass Pretreatment 
        [Platforms Research and Development--Biochemical and 
        Thermochemical Platform R&D].--Invest substantial funds to 
        bring down the capital and operating costs of pretreatment of 
        cellulosic biomass. This is very important and deserves 
        emphasis as pretreatment is a major factor in the cost of 
        production and also influences the cost of the rest of process. 
        It remains a major hurdle for commercialization of new 
        processes and achieving economic viability of operating 
        biofuels facilities. Developing pretreatment processes that 
        integrate better with the entire process are a critical aspect.
  --Underwrite an Unprecedented Number of Loan Guarantees and Directly 
        Fund a Wide Range of Demonstrations [Utilization of Platform 
        Outputs: Integrated Biorefineries].--These actions will raise 
        confidence in private investment during uncertain economic 
        times--facilities need to be put in the ground now to make a 
        difference in the mid and long term. Technology demonstrations 
        reduce technical and economic risk and accelerate the potential 
        for private investment. A major concern is that DOE has not 
        approved and disbursed a single loan guarantee under the 
        innovative technology program established by EPAct 2005. 
        However, DOE Secretary Steven Chu indicates he is committed to 
        reform to speed up the loan guarantee process. We suggest that 
        DOE provide 50 percent of capital for first plants with the 
        rest being private funds to compensate for the risk of first 
        projects while assuring enough private capital is on the line 
        for proper due diligence. This level of guarantee is vital--
        introducing any new fuel in today's petroleum-heavy market is 
        extremely challenging. The capital costs for petroleum 
        processing are paid off, making it a cash producer, while a 
        biofuels facility must cover not only cash costs but make a 
        high return on capital to compensate for first time risk. This 
        is a heavy lift for first-of-a-kind technology.
  --Set Aside Funding for Demonstration of Revolutionary, but Unproven 
        New Concepts [Platforms Research and Development--Biochemical 
        and Thermochemical Platform R&D].--Seed funding is needed for 
        revolutionary new ideas that show great promise. We must appeal 
        to the great American sense of innovation and invention to 
        bring ideas to the table that will help solve our energy 
        crises. Small, entrepreneurial inventors and businesses should 
        be part of this equation. This is an important, but riskier 
        proposition, and will take longer to allow for successive 
        funding of ideas and demonstrations.
  --Invest More Funds in Development of Cost-effective New Bioproducts 
        [Utilization of Platform Outputs: Integrated Biorefineries].--
        Some chemicals could be produced from biomass, reducing our 
        dependence on oil-derived chemicals and materials that go into 
        a myriad of consumer goods from paint to food to drugs to 
        plastics. Positive economic returns (and improved margins for 
        integrated biorefineries) could be achieved by production of 
        value-added co-products, whether the facility is based on 
        thermochemical or biochemical technology. Current funding for 
        this area is extremely limited. The challenge is that large 
        plants are needed for economies of scale, thereby favoring 
        biofuels. Chemicals can improve returns in a fuels biorefinery 
        and provide scale advantages, but financing construction of 
        projects involving more than one product is risky.
  --Invest in Study of New Non-food, Non-commodity Biomass [Feedstocks 
        Infrastructure].--This includes algae, selected perennial 
        grasses, wood, and waste (of any kind, industrial, 
        construction, food processing, etc); include an understanding 
        of the viability of these resources (yields, production issues, 
        chemistry, etc) for producing a wide range of fuels (analogs 
        for gasoline, diesel, jet fuel, marine fuel, etc). This should 
        include developing plants species that are more amenable to 
        thermochemical (e.g., high lignin) and biochemical (e.g., low 
        lignin, more easily processed lignin) processing.
  --Invest Significant Resources on Outreach to Increase Public 
        Awareness [Utilization of Platform Outputs].--The importance of 
        public opinion cannot be overstated. Increasing awareness and 
        understanding of biofuels and their impacts on our energy 
        situation is critical. This includes understanding the positive 
        environmental impacts, and dispelling of misperceptions--we 
        need to get the truth out there, good and bad--and enable 
        consumers to make good choices. Funding should include 
        incentives to States to get the word out and educate the 
        public--and make this information available where people fuel 
        up--at local filling stations and grocery stores, etc.
  --Jointly Fund (With USDA, DOT, EPA) a National Center to Address 
        Infrastructure Issues [Utilization of Platform Outputs].--A 
        national center for centralized information and technology 
        exchange is needed, covering all areas of infrastructure from 
        storage and transport of feedstocks to blending, storage and 
        distribution of fuels to consumers. This center would 
        incorporate a public-private partnership model to encourage 
        investment in infrastructure. Infrastructure has not received 
        much attention, but could severely impede reaching EISA RFS 
        goals.
                                 ______
                                 
 Prepared Statement of the State Teachers' Retirement System, State of 
                               California

    Department of Energy--Elk Hills School Lands Fund: $9.7 million for 
fiscal year 2010 installment of Elk Hills compensation.
    Congress should appropriate the funds necessary to fulfill the 
Federal Government's settlement obligation to provide compensation for 
the State of California's interest in the Elk Hills Naval Petroleum 
Reserve.

                                SUMMARY

    Acting pursuant to congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Federal Government reached a settlement with 
the State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time. The State respectfully requests an 
appropriation of at least $9.7 million in the subcommittee's bill for 
fiscal year 2010, in order to meet the Federal Government's obligations 
to the State under the settlement agreement.

                               BACKGROUND

    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.

            STATE'S CLAIMS SETTLED, AS CONGRESS HAD DIRECTED

    In the National Defense Authorization Act for Fiscal Year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106,  3415). The Secretary 
was required by Congress to ``base the amount of the offered settlement 
payment from the contingent fund on the fair value for the State's 
claims, including the mineral estate, not to exceed the amount reserved 
in the contingent fund.'' (Id.)
    Over the year that followed enactment of the Defense Authorization 
Act mandating the sale of Elk Hills, the Federal Government and the 
State engaged in vigorous and extended negotiations over a possible 
settlement. Finally, on October 10, 1996 a settlement was reached, and 
a written Settlement Agreement was entered into between the United 
States and the State, signed by the Secretary of Energy and the 
Governor of California, under which the State would receive 9 percent 
of the sales proceeds in annual installments over an extended period.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.

   FEDERAL REVENUES MAXIMIZED BY REMOVING CLOUD OF STATE'S CLAIM IN 
                          ADVANCE OF THE SALE

    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale. The Reserve thereafter was sold for a winning bid of $3.53 
billion in cash, a sales price that substantially exceeded earlier 
estimates.

   CONGRESS SHOULD APPROPRIATE $9.7 MILLION FOR THE FISCAL YEAR 2010 
                 INSTALLMENT OF ELK HILLS COMPENSATION

    The State's 9 percent share of the adjusted Elk Hills sales price 
of $3.53 billion is $317.70 million. To date, Congress has appropriated 
seven installments of $36 million and one installment of $48 million 
that was reduced to $47.52 million by the 1 percent across-the-board 
rescission under the fiscal year 2006 Defense Appropriations Act, for 
total appropriations to date of $299.52 million of Elk Hills 
compensation owed to the State. Accordingly, the Elk Hills School Lands 
Fund should have a positive balance of at least $18.18 million.
    We understand that Department of Energy personnel under the Bush 
administration had proffered four purported grounds for suspending 
further payments of Elk Hills compensation to the State. Each of these 
is a ``red herring''.
    Red Herring No. 1. Finalization of respective equity shares of 
Federal Government and ChevronTexaco as selling co-owners of Elk Hills 
oil field still not completed.--The Bush administration's fiscal year 
2009 budget request stated that ``the timing and levels of any future 
budget request [for Elk Hills compensation] are dependent on the 
schedule and results of the equity finalization process'' between the 
Federal Government and ChevronTexaco to determine the relative 
production over the years from their respective tracts in the Elk Hills 
field. (Fiscal Year 2009 Budget Appendix, at p. 403). But DOE already 
has held back $67 million, including $6.03 million from the State's 
share, to protect the Federal Government's interests in a ``worst case 
scenario'' for this equity process. The State has agreed to a ``hold-
back'' of that amount to protect the Federal Government's interest. 
This reduces the available balance in the Elk Hills School Lands Fund 
to $12.15 million. In addition, DOE's fiscal year 2009 congressional 
budget request detail stated that the equity determination is in its 
final stages: ``Of the four applicable zones [in Elk Hills], the Dry 
Gas Zone and Carneros Zone are finalized. The Stevens Zone [the largest 
in Elk Hills] is expected to be completed in 2008. A final 
recommendation for the Shallow Zone is pending.'' (p. 142). 
Accordingly, remaining uncertainty in the equity process thus provides 
no basis for withholding further payment of the State's Elk Hills 
compensation.
    Red Herring No. 2. There is no money left in the Elk Hills School 
Lands Fund right now.--The Bush administration's fiscal year 2009 
budget request stated: ``Under the Act [that mandated the sale of Elk 
Hills], 9 percent of the net proceeds were reserved in a contingent 
fund in the Treasury for payment to the States. . . . Under the 
settlement agreement, $300 million has been paid to the State of 
California.'' (Fiscal Year 2009 Budget Appendix, at p. 403). The fiscal 
year 1999 budget request at the time of the sale notes that $324 
million was deposited into the Elk Hills School Lands Fund. (Fiscal 
Year 1999 Budget Appendix, at pp. 378-9). A post-sale adjustment to the 
Elk Hills sales price reduced this amount to $317.7 million. 
Accordingly, after deducting the $300 million in payments to the State 
to date and the $6 million hold-back to protect the Federal 
Government's interests in the ``worst case'' scenario for the equity 
process, the Elk Hills Fund has ample funds available for appropriation 
of a further payment of compensation to the State.
    Red Herring No. 3. No payment can be made to the State because of 
pending litigation between ChevronTexaco and DOE.--DOE has pointed to 
pending litigation brought by ChevronTexaco against DOE in the U.S. 
Court of Federal Claims (Docket No. 04-1365C) as a reason to suspend 
further payments to the State. This litigation alleges DOE personnel 
committed misconduct in the equity finalization process by having 
improper ex parte contacts and having the same DOE staff serve as both 
advocate for DOE's position and advisor preparing the decision 
documents for the decisionmaker. However, the California State Attorney 
General has analyzed this litigation and advised that this litigation 
is a claim for money damages for DOE staff misconduct that has no 
effect on the Federal Government's equity share, and so there is no 
effect on the State's share of compensation. Indeed, under the 
governing agreement between DOE and Chevron, Chevron had waived any 
right to contest the final equity determination in court. Hence this 
litigation provides no basis for withholding the rest of the State's 
compensation.
    Red Herring No. 4. No payment can be made to the State because the 
State's share must be reduced by the equity finalization costs and 
environmental remediation costs and the final amount of such costs is 
not yet known.--The State's share of compensation is properly reduced 
by the ``direct costs of sale'' as required by Congress. Since the sale 
took place over a decade ago, those costs are fixed and known. The 
State has agreed to bear its share of these sales expenses. However, 
DOE is seeking to charge against the State's share two additional 
categories of costs--costs of determining the equity ownership and 
environmental remediation--that constitute ongoing costs of operating 
the oil field, not sales expenses. The California State Attorney 
General advises that these do not properly constitute sales expenses 
chargeable against the State's share.
    More specifically, the Settlement Agreement between the Federal 
Government and the State provides that the Federal Government shall pay 
the State ``9 percent of the proceeds from the sale of the Federal Elk 
Hills Interests that remain after deducting from the sales proceeds the 
costs incurred to conduct such sale.'' This reflects the congressional 
direction that, ``In exchange for relinquishing its claim, the State 
will receive 7 [9 in the final legislation] percent of the gross sales 
proceeds from the sale of the Reserve that remain after the direct 
expenses of the sale are taken into account.'' (House Rept. No. 104-
131, Defense Authorization Act for fiscal year 1996, Public Law 104-
106).
    The State has agreed that the $27.13 million incurred for 
appraisals, accounting expenses, reserves report, and brokers' 
commission are appropriate sales expenses. Accordingly, the State's 9 
percent share of these proper sales expenses reduces the available 
balance of the Elk Hills School Lands Fund by $2.44 million to $9.7 
million.
    Costs of conducting the equity adjustment are properly viewed as 
ongoing costs incurred due to the joint operation of the Elk Hills oil 
field by the Federal Government and ChevronTexaco, since the equity 
adjustment already was required under their joint operating agreement 
and related to pre-sale production revenues. Similarly, costs of 
environmental remediation of the Elk Hills field was a cost 
attributable to the prior operation of the field, which created any 
environmental problems that exist. The ongoing operational nature of 
this cost is underscored by the fact that the Federal Government is 
currently engaged in the phased environmental remediation of a Naval 
Petroleum Reserve that it is not selling--NPR-3 (Teapot Dome), as 
evidenced by the fiscal year 2009 budget request.

                               CONCLUSION

    Therefore, of the current Elk Hills School Lands Fund balance of 
$18.18 million, taking into account the ``hold-back'' for worst case 
scenario under equity finalization and deducting the appropriate direct 
costs of conducting the sale, the State respectfully requests the 
appropriation of at least $9.7 million for Elk Hills compensation in 
the subcommittee's bill for the fiscal year 2010 installment of 
compensation, in order to meet the Federal Government's obligations to 
the State under the Settlement Agreement.
                                 ______
                                 
 Prepared Statement of Integrated Building and Construction Solutions 
                             (IBACOS), Inc.

    IBACOS (Integrated Building and Construction Solutions) urges the 
Subcommittee on Energy and Water Development to provide $46 million for 
the Building America Program at the Department of Energy's (DOE) Office 
of Building Technologies in fiscal year 2010 Appropriations under the 
Office of Building Technologies, Residential Building Integration, 
Energy Efficiency and Renewable Energy. We further urge that the 
following language is included to ensure that the competitively 
selected Building America teams are funded at a percentage comparable 
to their historic funding: Of these funds, $35 million shall be 
provided for the research activities of the competitively selected 
Building America research teams, the Building America lead research 
laboratory, and other national laboratories conducting research to 
achieve Building America's specified energy performance targets.
    Residential Buildings currently account for over 20 percent of the 
primary energy consumed by the United States. Each year, more than 1 
million new homes are constructed and over a million are remodeled. 
Significant energy savings can be achieved at minimal increases in 
construction costs provided that a long term and consistent commitment 
is made to work in partnership with the housing industry. DOE's 
Building America Program has developed an industry-driven research 
approach that can reduce the average energy use in new housing by 50 
percent by 2015, providing significant benefits to homeowners in terms 
of reduced utility bills and significant benefits to the U.S. economy 
by maintaining housing as a major source of jobs and economic growth. 
If building in significant energy savings isn't done now, the Nation 
risks using an extravagant amount of energy in the future. In order to 
reduce reliance on foreign energy supplies and to support the 
stabilization of greenhouse gas emissions, we must invest appropriately 
in research in the areas of technology, systems integration, and 
builder processes to upgrade the performance of our housing stock; 
otherwise, we are mortgaging our future.
    Research, development, and outreach activities performed by the 
competitively selected industry Teams in the Building America Program 
are the key element in DOE's strategy to reduce energy consumption in 
residential buildings. The Teams' activities focus on increasing the 
performance of new and existing homes by developing advanced energy 
systems that can be implemented on a production basis, while meeting 
consumer and building performance requirements.
    While the Teams have been working on improving efficiency in 
housing since 1992, with successes being embodied in EPA's Energy Star 
Home program and DOE's Builders Challenge, they are now focused on the 
more difficult goal of creating strategies to achieve Zero Energy Homes 
(ZEH)--homes that produce as much energy as they use on an annual 
basis.

             A NEW FRONTIER IN RESEARCH--ZERO ENERGY HOMES

    The research needed to develop systems and strategies to achieve 
the long term goal of ZEH is not simply applying lessons learned; 
rather, fundamental research is still required. This R&D, performed by 
the Building America Teams, is truly high-risk, high-payoff research.
    The research required to meet the goal of ZEH is costly and high 
risk:
  --Significant basic research is required to develop and integrate new 
        technologies into homes before they are proven effective enough 
        to be applied in the field.
  --This research is costly and risky, and not going to be undertaken 
        by the industry alone.
  --The life cycle of this research is significantly longer than that 
        of comparable industries.
  --The homebuilding industry is extremely fragmented, with 
        homebuilders having little ability to drive research, and a 
        lower than average financial commitment to investing in 
        research.
  --Mechanisms do not currently exist within the homebuilding industry 
        to integrate new technologies and strategies effectively.
    The research required to meet the goal of ZEH is also high-payoff 
for the following reasons:
  --Once constructed, homes have a long lifespan, providing the 
        opportunity for a durable long term reduction in energy use.
  --Effective strategies to reduce energy use will positively impact 
        consumers, as well as the Nation's energy demand.
  --Successful research into integration strategies will allow new, 
        high-risk technologies to be adopted more quickly and 
        effectively.

BUILDING AMERICA COMPETITIVE TEAMS--RESEARCH AND IMPLEMENTATION IN THE 
                               REAL WORLD

    The work of the Teams allows industry leadership to drive cost 
effective solutions that move us towards Zero Energy Homes. Building 
America partners have shown that homes with improved efficiency levels 
can have equal or lower purchase prices than conventional homes, in 
addition to much lower energy bills and operating costs, and increased 
building durability as well as occupant safety, health, and comfort. In 
addition to performing the fundamental research needed to advance the 
energy efficiency of our Nation's housing stock, the Building America 
Teams provide recommendations to a broad range of residential 
deployment partners including the EPA's Energy Star Homes Program, 
HUD's Partnership for Advancing Technologies in Housing Program, DOE's 
Builders Challenge, and many industry associations and universities. 
Furthermore, the Teams are perhaps the best resource for DOE to educate 
the builder community on technology and integration breakthroughs. This 
education has been, in part, demonstrated through successful projects, 
where high efficiency housing is being built and bought, such as 
Summerset at Frick Park (Pittsburgh, Pennsylvania); Noisette (North 
Charleston, South Carolina); Civano (Tucson, Arizona); The Landover 
Group (Virginia and Maryland); Forest Glen development in (Carol 
Stream, Illinois); Hunters Point Shipyard (San Francisco, CA); 
Stapleton (Denver, Colorado); Habitat for Humanity (Georgia, Colorado, 
Tennessee, Florida, Michigan, Texas and throughout the United States); 
Summerfield (San Antonio, Texas); Sun City (Las Vegas, Nevada); and 
others throughout the Nation as documented on www.buildingamerica.gov. 
The more than 500 private sector partners who work with the Teams are 
experts in home construction, building products and supply, 
architecture, engineering, community planning, and mortgage lending. 
All construction material and labor costs for homes and communities 
constructed by Building America Teams are provided by DOE's private 
sector partners.

DOE's Role in the Residential Buildings Research Partnerships
    Catalyzing research in residential construction necessary to 
increase the energy performance, and bringing together industry 
partners to leverage research dollars and expertise.
    Matching advanced product research programs to the system 
integration efforts of the Building America Teams to ensure realistic 
approaches to increasing energy performance.
    Reducing risk and increasing reliability of emerging technologies.
    Providing scientific expertise through the involvement of the 
National Renewable Energy Laboratory (NREL) and other national 
laboratories.
    Sharing critical information about research with several thousand 
associated building industry professionals and leveraging information 
through EPA, HUD, and private sector energy efficiency programs.

Program Goals
    Reduce energy use in America's housing stock by 50 percent by 2015 
and provide ZEH by the year 2025, integrating renewable energy when and 
where practical.
    Research and develop the systems and strategies necessary to allow 
our Nation to deliver high performance houses in order to increase our 
national energy security.

Program Status
    Through the competitively selected Teams, Building America works 
closely with America's lead builders, who produce approximately 50 
percent of the Nation's new housing stock. Additionally, the program 
has been tasked with providing the research and development basis for 
the President's Partnership for Housing Energy Efficiency (PHEE). More 
than 30,000 homes have been constructed in 34 States. Increased funding 
is needed to address new program requirements including increased 
energy efficiency goals, increased need for technical support of lead 
builders, contractors, and suppliers for effective participation in the 
program, expansion of applications in existing building stock, 
expansion to multi-family housing stock, and design for integration of 
on-site and renewable power. Specifically, the incorporation of the ZEH 
goals into Building America research and development activities must be 
done in an integrated fashion via the existing competitively selected 
Building America teams, which have begun to include renewable energy 
technologies and on-site energy into some projects. The stated DOE 
goals of the program are unreachable without significant Team funding.

Recommendation for Fiscal Year 2010 Funding
    Provide $46 million, for the Building America Program at the DOE's 
Office of Building Technologies in fiscal year 2010 appropriations 
(under the Office of Building Technologies, Residential Building 
Integration). Additionally, include language as follows to ensure that 
the competitive teams are funded at a percentage comparable to their 
historic funding:

    ``Of these funds, $35 million shall be provided for the research 
activities of the competitively selected Building America research 
teams, the Building America lead research laboratory, and other 
national laboratories conducting research to achieve Building America's 
specified energy performance targets''.
                                 ______
                                 
                    Prepared Statement of GE Energy

    The following testimony is submitted on behalf of GE Energy (GE) 
for the consideration of the subcommittee during its deliberations 
regarding the fiscal year 2010 budget requests for the Department of 
Energy (DOE). Among GE's key recommendations are:
  --Renewable Energy.--GE supports the fiscal year 2010 increases in 
        Wind and Solar.
  --Fossil Energy.--(1) Increase Coal funding by $75 million for off-
        the-shelf carbon capture plant designs to accelerate the near-
        term deployment of large-scale carbon capture and 
        sequestration; (2) provide $45 million for Advanced Turbines in 
        fiscal year 2010 support of advanced IGCC with carbon capture; 
        (3) restore funding for water-related R&D activities.
  --Nuclear Energy.--Additional funding is needed for loan guarantees, 
        to support new nuclear plant development.

                            RENEWABLE ENERGY

    DOE has played a critical role in the development of renewable 
energy technologies over the past three decades. The fiscal year 2010 
budget request proposes $75 million for Wind and $320 million for 
Solar, representing 36 percent and 83 percent increases, respectively, 
from fiscal year 2009 appropriations. GE welcomes these funding 
increases as critical investments in the transformation of the Nation's 
energy infrastructure. We continue to believe that these appropriations 
must be sustained and increased over time. The American Wind Energy 
Association has recommended that annual Wind appropriations of $200 
million are needed to meet the 20 percent wind by 2030 scenario. The 
fiscal year 2010 budget request is an important step in this direction.
    DOE proposes to utilize the $20 million increase in Wind program 
funds to accelerate offshore wind technology development and improve 
the reliability and cost performance of land-based wind turbines; 
improve grid integration; and support efforts related to workforce 
development, wind-radar mitigation efforts, education, and community 
applications. GE has recommended that the DOE focus its Wind program on 
performance, reliability and grid integration, particularly in areas 
such as blade manufacturing; drivetrain technology; and grid operator 
solutions such as managing variability, ramp rate control, frequency 
regulation, and fault response. We support these new funds as critical 
investments toward achieving the 20 percent wind scenario while 
building U.S. technology and supporting increased U.S. jobs.
    The proposed $145 million increase in Solar program funds includes 
substantial increases in Photovoltaic and Concentrating Solar Power 
R&D, as well as additional investments in systems integration, market 
transformation, and PV manufacturing. GE has recommended that the DOE 
focus its Solar program on improving PV module cost, reliability, and 
efficiency performance, particularly with regard to thin film PV 
technology; and on advanced controls and diagnostics to support the 
grid integration of solar assets. We support these funding increases as 
essential for realizing the DOE's goal of deploying 5-10 gigawatts of 
solar by 2015.

                             FOSSIL ENERGY

    Commercial Scale CCS Demonstrations.--Demonstration of CCS at 
commercial scale is urgently needed to demonstrate to the public that 
geologic sequestration of CO<INF>2</INF> is a safe and environmentally 
acceptable solution for low carbon coal power. The continued use of our 
Nation's abundant coal resources requires proving that integration of 
power plants and sequestration resources can provide competitive and 
reliable electrical generation.
    CCS Deployment.--GE recommends that DOE focus support on the near-
term deployment of large-scale, utility CCS. In its fiscal year 2010 
budget request, the DOE described the $3.4 billion provided through the 
American Recovery and Reinvestment Act (``ARRA'') as the foundation of 
its clean coal program. However, of the $3.4 billion, the only certain 
funding that will be made available for utility CCS projects is the 
$800 million that will be provided for Round 3 of the Clean Coal Power 
Initiative. Much more is needed. GE is a member of the US Climate 
Action Partnership (USCAP), which recommended in its ``Blueprint for 
Legislative Action'' (January 2009) that a Federal CCS program 
establish at least five (5) gigawatts (GW) of CCS-enabled coal fueled 
facilities. Such a level of CCS deployment is needed to support 
implementation of coal performance standards that are key to achieving 
national greenhouse gas reduction goals. Even if CCPI Round 3 funds can 
be combined with other funding mechanisms for utility projects (e.g. 
EPAct 2005 section 48A Investment Tax Credits, loan guarantees and 
section 48Q CO<INF>2</INF> production credits), funding falls well 
short of that necessary to offset the additional capital and several 
years of additional operating costs of 5GW of utility CCS. While 
funding sufficient for 5GWs is not likely without new legislation, DOE 
can provide incentives to help remove barriers and accelerate CCS 
deployment.
    Therefore, GE recommends that DOE fiscal year 2010 Coal funding be 
increased by $75 million (to $478.9 million) to fund the development of 
off-the-shelf Front-End Engineering Designs (FEEDs) for IGCC Greenfield 
plants optimized for CCS for Bituminous and Western coals. IGCC is 
ready for carbon capture now, but only needs the detailed engineering 
to support commercial proposals. Funding of FEEDs should accelerate 
development of commercial CCS projects and reduce the difficulty of 
obtaining approval from State regulators for recovery of project 
development costs. The development of these FEEDs will also deliver 
immediate and foster long-term job creation.
    Geologic Sequestration.--Another significant barrier to the 
deployment of first-mover CCS projects is the uncertainty associated 
with availability of geologic storage. Comprehensive and expensive 
geologic characterization is necessary to ensure that a plant will have 
a sequestration resource with sufficient capacity for a 30-40 year 
life. As with up-front engineering costs, public utility commissions 
are reluctant to approve cost recovery of studies relating to the 
availability of geologic storage, although they are necessary to assure 
project viability. Therefore, GE recommends that DOE fiscal year 2010 
Carbon Sequestration funding be increased by $100 million (to $279.9 
million) for co-funding of detailed geologic characterization to more 
fully validate storage sites for commercial CCS projects that are 
starting development.
    FutureGen.--GE has three recommendations for the structure of the 
FutureGen program that will significantly improve its value in moving 
CCS forward: First, make the successful demonstration of integrated 
carbon capture and sequestration the primary focus of FutureGen. 
Reliable CO<INF>2</INF> production is essential to a successful 
sequestration demonstration. Second, FutureGen must demonstrate 
commercially relevant coal power generation with CCS. Carbon capture 
using gasification is widely performed economically and reliably in the 
commercial chemical process industry. The FutureGen project should 
incorporate technology and equipment in a design configuration that is 
representative of commercial practice in order to provide critical 
experience on integration of capture and sequestration at a commercial 
scale. Third, and as is essential to achieving the two foregoing goals, 
we recommend that FutureGen be contracted on a commercial and 
competitive basis for the design and construction of the plant and its 
sequestration facility. FutureGen can draw from existing experience and 
investment and avoid duplication of engineering costs. Carbon capture 
using gasification is widely performed economically and reliably in the 
commercial chemical process industry. GE has invested substantially in 
the development of its standard 630MW IGCC plant and an ancillary 
Carbon Island<SUP>TM</SUP> for carbon capture. A commercial contract 
with its guarantees and warrantees will provide the performance, 
schedule and cost certainty with reliable CO<INF>2</INF> supply for 
sequestration that FutureGen needs to achieve its primary goal of 
successful sequestration with reliable power generation.
    Advanced Turbines.--GE recommends that annual funding of $45 
million be provided in fiscal year 2010 to maintain needed progress in 
the Advanced Turbines. The Advanced Turbines program represents the 
Department's high priority research effort focusing on the development 
of enabling technologies for high efficiency hydrogen turbines for 
advanced gasification systems with carbon capture. It is on target to 
enable future advanced IGCC coal fueled power plants to offset much of 
the performance penalties associated with carbon capture while also 
achieving very low NO<INF>X</INF> emissions. In addition to benefiting 
future coal IGCC applications, the technologies that come out of this 
program will also benefit existing and future natural gas combined 
cycle power plants. Improved efficiency of these applications will mean 
reduced emissions and reduced CO<INF>2</INF> for the same power output. 
This improvement would be by either implementing the technology on new 
advanced products or retrofitting the technology into existing gas 
turbines. A one point improvement in efficiency on GE's existing F-
class fleet would result in 4.4 million tons less of CO<INF>2</INF> 
emissions per year.
    Water.--Large amounts of water are needed to produce or extract 
energy, and large amounts of energy are needed to treat or transport 
water. This co-dependency is called the Water/Energy Nexus. In order 
for the DOE to achieve its aggressive goals of reducing freshwater 
withdrawals and consumption 50 percent by 2015 and 70 percent by 2020, 
water related R&D funding is needed. GE recommends water-related 
funding under Innovations for Existing Plants be restored and 
significantly increased above the $12 million allocated under the 
fiscal year 2009 budget. Funding for R&D and demo projects including: 
Non-traditional Waters for Cooling Make-up, Water Reuse and Recovery, 
Advanced Cooling Technologies, and Water Treatment and Detection will 
help to ensure DOE's goals are met. GE also recommends $40 million be 
allocated to innovative water reuse technologies and demonstration 
projects in the production of oil and natural gas to further reduce 
environmental impacts and operational costs of upstream energy 
processes. Support is also needed to advance reuse/treatment 
technologies for the conversion of impaired wastewater streams into 
sources of renewable water in areas of water scarcity, reducing the 
need to use energy to transport water over long distances and to 
support electricity generation.

                             NUCLEAR ENERGY

    Nuclear power plant operation provides baseload energy generation 
with no greenhouse gas emissions. Each operating nuclear plant avoids 
the production of 8 million tons of CO<INF>2</INF> annually and in 
total the U.S. fleet of 104 reactors avoids nearly 1 billion tons of 
CO<INF>2</INF> annually. GE supports the use of nuclear energy as part 
of a diverse portfolio of power generation technologies and fuels.
    Loan Guarantees and New Plant Development.--Federal investment has 
been instrumental in the licensing and partial development of 
standardized designs for advanced light water reactors and has helped 
form the foundation for a nuclear renaissance through programs such as 
the NP2010 program. In addition to the continuation of existing 
programs, more actions are required to ensure successful 
commercialization of new nuclear technologies. The Energy Policy Act of 
2005 authorized loan guarantees to support advanced nuclear energy 
facilities. Due to the capital-intensive nature of nuclear plant 
deployment, these loan guarantees are key to the ability of utilities 
to attract financing and move forward with this clean, carbon-free 
technology. The current credit crisis in the United States makes it 
increasingly difficult to finance these and other capital-intensive 
projects. The original $18.5 billion in available loan guarantees is 
sufficient to support 2 to 3 new nuclear projects. DOE has already 
received applications for significantly more than that number of 
projects and to have meaningful progress on both climate change and 
energy security certainly more are needed. Based on this level of 
industry demand, the benefit to be derived, and the fact that these 
loan guarantees are self-funded and have no budget impact, GE supports 
an additional $50 billion in authorized loan guarantees through the 
DOE's Loan Guarantee Program for nuclear power facility projects.
    Energy Parks--Research and Development for Commercial Deployment.--
GE believes that a strong private public partnership should be formed 
to support the Energy Park concept outlined as part of the Office of 
Environmental Management's efforts for footprint reduction of the 
legacy DOE sites. GE believes that the installment of advanced light 
water reactors and research and development to support advanced 
recycling at the existing DOE sites in the Energy Park concept is a 
logical application for these locations. These sites are well 
understood from a permitting aspect and their existing workforce has 
skills that would be directly transferrable to commercial nuclear power 
applications. The Environmental Management office has received funding 
under ARRA. GE supports near term actions as part of this program 
including the community outreach, permitting, siting, design, and 
license application development for new nuclear reactors.
    Non-proliferation and Waste Minimization.--GE supports used nuclear 
fuel recycling as a means to close the fuel cycle, to minimize nuclear 
proliferation risks and provide an alternative to Yucca Mountain. As 
the Nation explores solutions to nuclear waste issues, GE supports and 
seeks an opportunity to participate in the soon to be formed Blue 
Ribbon Waste Panel. The GE team has decades of experience in nuclear 
methods and designs based on U.S. technology that are available to 
close the nuclear fuel cycle. It is in the best interests of national 
security that U.S. technology be used to close the fuel cycle in a 
manner that does not result in separated plutonium.

                        ARPA-E; LOAN GUARANTEES

    GE supports the DOE's budget request for $10 million in program 
direction to support the new ARPA-E program ($400 million appropriated 
through the ARRA) to advance disruptive, high-risk and high-potential 
technologies.
    GE also supports $43 million ($6 billion appropriated through the 
ARRA) for the temporary Loan Guarantee Programs (LGP). Rapid 
implementation of the LGP is central to the recovery of the renewable 
energy industry, and these program operation and personnel funds 
deserve full and immediate support.
                                 ______
                                 
    Prepared Statement of the Alliance for Materials Manufacturing 
                           Excellence (AMMEX)

    The Alliance for Materials Manufacturing Excellence (AMMEX) 
welcomes this opportunity to provide its input to the subcommittee on 
the proposed budget for fiscal year 2010 for the Industrial 
Technologies Program (ITP) at the Department of Energy. AMMEX is a 
coalition of organizations representing the basic materials 
manufacturing sector (aluminum, chemicals, forest products, glass, 
metal casting, steel) in the U.S. economy along with key stakeholders 
in materials manufacturing, such as the Northeast Midwest Institute, 
the National Association of State Energy Officials and the American 
Council for an Energy-Efficient Economy.
    We are writing to urge Congress to increase the funding to the ITP 
to the level of $150 million and to restore the structure of the 
program to one that emphasizes new process development in individual 
materials industries, including the six historically funded by this 
effort, as opposed to the currently proposed cross-cutting research 
approach. These changes would bring the program into alignment with 
Congress' intent in both section 452 (Energy Intensive Industries 
Program) of the Energy Independence and Security Act of 2007, which was 
signed into law on December 19, 2007, as well as the Energy Efficiency 
and Renewable Energy Act of 2007, which passed the House unanimously on 
October 22, 2007.
    The member organizations of AMMEX have been partners with ITP since 
the inception of the program's cooperative, industry-specific research 
activities. These research activities are a true public-private 
partnership. DOE and materials manufacturers jointly fund cutting-edge 
research that addresses the needs of the Nation and materials 
manufacturers. All projects have the shared goals of reducing energy 
consumption, reducing environmental impact, and increasing the 
competitive advantage of U.S. materials manufacturers.
    Reducing our need for oil imports, developing an economy that is 
sustainable in energy supply, and reducing our environmental impact are 
important national policy goals. There is no more effective way to 
achieve these goals than through energy efficiency. The lowest cost, 
cleanest, and most reliable energy is the energy that is not consumed 
because of improved efficiency. By reducing the energy intensity of 
materials manufacturing and accelerating the delivery of new 
technology, ITP has helped make U.S. materials manufacturers more 
competitive in global markets, preserving and creating good-paying jobs 
in the process. The program is unique because it selects only projects 
with ``dual benefits'': a public benefit such as reduced emissions or 
energy use justifies the Federal funding, and an industry benefit such 
as a more efficient process or improved product justifies the 
industrial funding.
    U.S. materials manufacturing continues to face challenges resulting 
from increased cost and decreased availability of traditional energy 
supply resources. These challenges have stimulated innovation in the 
materials manufacturing sector in order to create significant energy 
improvements and to diversify energy supplies. While the innovations of 
the past have brought materials manufacturing a long way, the sector 
cannot go further without new innovations. To this end, the materials 
manufacturing processes must be transformed; new processes and new 
innovations must be developed which will consume far less energy and 
that will be able to utilize diverse forms of energy.
    To accomplish these goals, the Federal Government and industry will 
need to re-embark upon a joint effort to broaden and accelerate 
inherently high-risk research, development, and deployment of new 
materials manufacturing processes that utilize diverse energy sources. 
This effort will also allow the materials manufacturing sector to 
lessen dependence on natural gas, oil, and conventional electricity 
sources, thus benefiting consumers through contribution to a stable 
energy market.
    Dramatic increases in industrial energy prices and growing global 
competition threaten the vitality and the future of U.S. materials 
manufacturing. Unless this trend is reversed, American manufacturing 
jobs in these key industries will increasingly move overseas. 
Manufacturers have responded to such challenges in the past by applying 
the power of innovation to create new products and processes that 
sustain the foundation of the U.S. economy.
    Our request for funding in fiscal year 2010 for ITP entails two 
parts:
  --An increase to a total program level of $150 million, as authorized 
        in the Energy Independence and Security Act of 2007.
  --A re-structuring of the program so as to return to the structure 
        that was so successful from 1990 to 2003--a balanced portfolio 
        of research from the point of view of research impact; i.e., a 
        greater focus on energy intensive industrial processes. For the 
        2010 budget, we request that the Industries of the Future 
        industry-specific R&D be increased to $30 million. We further 
        recommend that in future budgets at least 50 percent of the 
        funding go to research into new process development where the 
        energy savings potential in industry is highest.
    Figure 1 below is representative of the gains in energy efficiency 
made by materials manufacturers since 1990, when they began partnering 
with ITP.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This chart shows that materials manufacturing processes have become 
increasingly efficient from 1990 to 2000, and that new process 
developments are required to continue making similar gains in the 
future.
    Between 1990 and 1996 the program consisted largely of ``industry-
specific'' funding and averaged $100 million annually. There were some 
``cross-cutting'' projects in this time, but they were a relatively 
small percentage of the total. As the program grew, spending still 
remained focused on industry-specific projects. Figure 2 below shows 
the funding history of the DOE ITP program since 1998.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure Notes:
  --IAC and Distributed Generation funding are subsets of ``Cross 
        Cutting RD&D''
  --``Other Funding'' includes management and technical planning and 
        support, as well as other funding not listed under ``Industry-
        Specific'' or ``Cross Cutting'' in budget documents. The $50 
        million ``Other Funding'' in 2009 is for information and 
        communications technology efficiency.
  --2010 AMMEX recommendation includes: $30 million for Industry 
        Specific R&D, $65 million for Cross Cutting RD&D (including $8 
        million for the IAC program), and $55 million for Distributed 
        Generation.
    By 2004, ITP was not only the target of drastic cuts, but remaining 
funds were rebalanced to favor cross-cutting projects over industry-
specific projects as well. While Figure 1 shows that new process 
developments are needed to improve the energy efficiency of materials 
manufacturing industries, Figure 2 shows that these necessary funding 
levels are not being met. A recent peer review of the program indicated 
that the technology pipeline for R&D projects is now running dry. It is 
imperative to fund these programs now, as it takes time to refill the 
pipeline and achieve additional energy savings.
    AMMEX members that DOE has recently supported have identified their 
top new process development concepts, not listed in order of priority, 
which would be pursued at the funding levels and structure defined 
above:

Aluminum
  --Improved energy-efficient burners and furnaces for aluminum 
        melting.
  --Improved energy efficiency and recovery rates for recycling 
        technologies.

Chemicals
  --Development of alternative feedstocks for the chemical industry to 
        reduce dependence on petroleum and natural gas derived 
        feedstocks.
  --Nano-manufacturing scale-up methodologies for key unit operations: 
        synthesis, separation, purification, stabilization, and 
        assembly.
  --Development of low-energy, low-capital membrane or hybrid 
        separations technology.

Glass
  --Submerged Combustion Melter.
  --Waste Heat Recovery and Use as Electrical or Chemical Energy.
  --Increase glass strength (towards theoretical) to reduce weight and 
        energy per unit made.

Forest Products
  --Energy-efficient pulping and papermaking.
  --Eliminating use of fossil fuels in manufacturing.
  --Significantly reducing fresh water consumption in pulp and paper 
        mills.

Metal Casting
  --Net Shaped Manufacturing through Advanced Lost Foam Casting 
        technologies.
  --Smart coatings and advanced surface treatments for energy efficient 
        tooling technologies.
  --Disruptive approaches for nano-composites for lighter weight cast 
        components.
  --High Strength Steels for improved service performance.

Steel
  --Ironmaking by Molten Oxide Electrolysis.
  --Ironmaking by Flash Smelting using Hydrogen.
  --Demonstration of the Paired Straight Hearth Furnace Process.
    Other industries, such as cement, would benefit from expanded R&D 
as well, but have not been engaged with the Department.
    The United States also faces serious shortages in the science and 
engineering workforce that is needed to keep our Nation's competitive 
edge in world markets through technology innovation and timely 
application. There is a clear need for a reinvigoration of our 
commitment to technology education. Advanced R&D projects are often 
undertaken in conjunction with major American research universities. 
These projects help to expose students to the kind of research 
necessary to serve the future energy efficiency needs of industry. 
Other ITP efforts such as the Industrial Assessment Center program 
complement this R&D funding by helping to train this future workforce.
    Our proposal to the subcommittee is an effort to both rebuild 
America's materials manufacturing industries and revitalize our science 
and engineering institutions. It builds a new public-private 
partnership to support these twin goals, and will ensure that the U.S. 
materials manufacturing industry will remain vital and competitive 
through:
  --Accelerating technology innovation to ensure the future 
        competitiveness, resource efficiency, and sustainability of our 
        domestic materials manufacturing industry;
  --Building the vital intellectual infrastructure in American 
        universities and laboratories that will work in partnership 
        with the materials manufacturing industry; and
  --Maintaining a healthy American materials manufacturing base, which 
        is vital to our national security.
    On behalf of the AMMEX coalition, we thank you for the opportunity 
to submit this statement. We look forward to continuing to work with 
the subcommittee as you move forward on the fiscal year 2010 
Appropriations legislation for the Department of Energy.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
Department of Energy (DOE) science programs. The ASM is the largest 
single life science organization in the world with more than 43,000 
members. The ASM mission is to enhance the science of microbiology, to 
gain a better understanding of life processes, and to promote the 
application of this knowledge for improved health and environmental 
well-being.
    The DOE Office of Science funds basic research in support of the 
DOE's mission of energy security, national security, and environmental 
restoration. Research supported by the Office of Science encompasses 
such diverse fields as materials sciences, chemistry, high energy and 
nuclear physics, plasma science, biology, advanced computation, and 
environmental studies.
    The ASM supports the administration's pledge to substantially 
increase funding for basic science research and scientific user 
facilities and urges Congress to fund the DOE office of science at $5.2 
billion for fiscal year 2010, an 8 percent increase.
    We commend Congress for the substantial and much needed funding for 
the DOE in the American Recovery and Reinvestment Act of 2009 and the 
Omnibus Appropriations Act of 2009. The need remains, however, for a 
steady and reliable increase of fiscal year appropriations to provide 
real growth for DOE science budgets in future years.

              BIOLOGICAL AND ENVIRONMENTAL RESEARCH (BER)

    Operating within the DOE Office of Science, the BER division 
facilitates the growth of a strong science based platform to continue 
to work with national laboratories, universities and private 
institutions to harness the capabilities of microbial and plant 
systems. A fundamental task of the BER is supporting and providing 
research for the President's National Energy Plan. Research from BER 
contributes to developing cost-effective, renewable energy, increasing 
the Nation's energy security, and works to slow or stop increases in 
atmospheric carbon dioxide among other crucial priorities.
    The ASM urges Congress to support an increase for the BER on par 
with the overall increase in fiscal year 2010 funding for the Office of 
Science.
    Research on microbes contributes advances to critical technologies 
and processes necessary for addressing the Nation's great energy and 
environmental challenges in a number of ways:
  --Carbon Sequestration.--Microbes offer multiple possibilities for 
        enhancing carbon sequestration, a process that can reduce 
        CO<INF>2</INF> accumulation in the atmosphere. These options 
        include enhancing plant growth, some of which may be used for 
        biofuels, and promoting carbon storage belowground. The latter 
        process involves manipulation of microbial communities and 
        activities to help stabilize organic carbon in soils.
  --Environmental Remediation.--Microbes play major roles in modifying 
        sub-surface environments, where many major pollutants 
        accumulate and are subsequently dispersed. Microbial activities 
        affect the chemical form and movement of many contaminants. The 
        work of various research groups has shown that microbes can be 
        manipulated to directly or indirectly provide potential cost-
        effective bioremediation strategies for immobilizing 
        contaminants. For instance, two different microbes, Shewanella 
        and Geobacter, transform toxic metals such as uranium from a 
        soluble form that moves in groundwater, to an insoluble form 
        that can then be recovered for decontamination. These and other 
        microbes also decontaminate many other metals, radionuclides 
        and toxic chemicals.
  --Renewable Energy.--A greater understanding of the process by which 
        crude oil is transformed into methane, or natural gas, opens 
        the door to recovering clean-burning methane directly from 
        deeply buried or in situ oil sands deposits. A recent study 
        demonstrated methane production from anaerobic hydrocarbon 
        degradation; these findings offer the possibility of 
        ``feeding'' specific hydrocarbons to microbes and rapidly 
        accelerating their conversion into methane. Additional research 
        has shown that hydrogen can be produced from partly degraded 
        oil, and used with CO<INF>2</INF> to form methane. This paves 
        the way for using the microbes to capture this CO<INF>2</INF> 
        as methane, which could then be recycled as fuel in a closed-
        loop energy system.
    Microbial enzymes are also important sources of catalysts for 
conversion of plant biomass, including cellulose and lignins to 
biofuels (e.g., ethanol and butanol). Continued support of basic 
microbiological research is essential for ensuring that the potential 
for biomass as a source of renewable, alternative fuels can be 
realized.

                             GENOMICS: GTL

    The Genomics.--GTL program supports basic research in plant and 
microbial systems biology and explores microbes and plants at the 
molecular cellular and community levels. The ASM supports an increase 
in funding for GTL in fiscal year 2010 to allow it to continue to 
advance DOE wide missions in environment, climate and energy.
    The GTL goal remains to expand insights about fundamental 
biological processes and a predictive understanding of how living 
systems operate. This understanding, linked with DNA sequences and 
widely available, will catalyze the translation of science to new 
technologies for application in energy and environmental issues.
    The GTL works with the DOE Joint Genome Institute (JGI), one of the 
world's largest and most productive public genome sequencing centers, 
to map genomes of microbes and fungi that degrade biomass or impact 
plant productivity. This relationship has created a vital knowledge 
base within the DOE from which scientists are able to purposefully 
redesign proteins, biochemical pathways, and even entire plants or 
microbes to help solve bioenergy challenges.
    Three GTL Bioenergy Research Centers were established in 2007, the 
Bioenergy Science Center, the Great Lakes Bioenergy Research Center, 
and the JGI. These centers, which are actively working toward making 
the production of biofuels more efficient, less costly, and 
commercially viable; results of ongoing studies are changing the way we 
think about biotechnology, and transforming how we power our Nation. 
The centers are creating knowledge underlying three grand challenges 
faced by biology within the DOE mission: (1) development of the next-
generation bioenergy crops; (2) discovery and design of enzymes, and 
microbes with novel biomass degrading capabilities; and (3) discovery 
and design of microbes that transform fuel production from biomass. 
Meeting these challenges will benefit all biological research efforts.
    Areas of emphasis in Genomics: GTL include:
    Bioenergy Production.--A broad range of research has been 
undertaken to optimize bioenergy production from a variety of renewable 
sources. Past and ongoing research has made significant progress in a 
number of areas: understanding the details of plant biomass structures 
and how they might be manipulated to improve conversion to biofuels; 
discovery of novel enzymes for improving conversion of biomass to 
biofuels; understanding the details of plant and microbial metabolism 
at a level that promotes controlled synthesis of desired end-products.
    Environmental Remediation.--Research sponsored by Genomics: GTL has 
made major progress in understanding the functions and behavior of 
specific microbes (e.g., Geobacter and Shewanella) and microbial 
communities that play important roles in strategies for remediating a 
wide range of environmental problems, including clean-up of toxic 
wastes and radioactive materials. This work integrates from microbial 
genomes through the functions of microbes in the environment, and 
provides a foundation for altering microbial activities for to solve 
specific problems.
    Carbon Cycling.--Microbes play major roles in the transformation of 
carbon in natural systems. Some of these transformations can promote 
carbon sequestration, while others produce greenhouse gases. Genomics: 
GTL research helps understand how complex microbial communities 
function in nature, and how these communities respond to changes and 
stresses. This information is not only critical for developing 
predictions of microbial responses to climate and other environmental 
changes, but is essential for developing approaches for managing those 
responses to minimize adverse impacts of change.
    The ASM urges Congress to fully support the GTL program with 
increased funding to JGI. In fiscal year 2009, the President's budget 
request included $162.7 million in funding for GTL, but significantly 
cut funding for JGI by $5 million. It is imperative to ensure that 
funding increases are seen for both of these vital programs in fiscal 
year 2010.

              ENVIRONMENTAL REMEDIATION SCIENCES DIVISION

    The Environmental Remediation Sciences Division (ERSD) within BER 
sponsors and supports fundamental scientific research to understand the 
complex physical, chemical, and biological properties of contaminated 
sites in order to develop new solutions for environmental remediation. 
DOE is responsible for the largest, most complex, and diverse 
collection of environmental remediation challenges in the Nation. ERSD 
supports two major activities: (1) the Environmental Remediation 
Sciences Program (ERSP), which seeks to provide the fundamental 
scientific knowledge needed to address challenging environmental 
problems that impede the remediation of contaminated environmental 
sites; and (2) the Environmental Molecular Sciences Laboratory (EMSL), 
which is a national scientific user facility that provides integrated 
experimental and computational resources for discovery and 
technological innovation in the environmental molecular sciences to 
support the needs of DOE and the Nation.
    DOE's remediation challenges occur in the field where highly 
interactive natural processes acting over a broad range of scales 
control the fate and transport of contaminants. The ERSD goal is to 
help provide the basis for development of innovative remediation 
measures to support decisionmaking critical to long-term stewardship. 
Of the 144 sites where DOE has remediation, waste management, or 
nuclear materials and facility stabilization responsibilities, nearly 
100 have soils, sediments, or groundwater contaminated with 
radionuclides, metals, or organic materials.
    The ASM urges Congress to fully support ERSD, which will help 
support DOE's goal to ``provide sufficient scientific understanding 
such that DOE sites would be able to incorporate physical, chemical and 
biological processes into decisionmaking for environmental remediation 
and long-term stewardship.''

                           ENERGY BIOSCIENCES

    The ASM supports increased funding for the Energy Biosciences 
program within the Basic Energy Sciences Division of Chemical Sciences, 
Geosciences, and Biosciences. The Energy Biosciences (EB) program 
within the Basic Energy Sciences (BES) division supports fundamental 
research to promote the development of future energy-related 
technologies. There is a specific emphasis in research on plant and 
non-medical microbial energy transduction systems. The EB program 
provides a fundamental understanding of the complex processes that 
convert and store energy in living systems and impacts numerous DOE 
interests, enhanced biofuel production strategies, next generation 
energy conversion/storage devices, and efficient and environmentally-
friendly catalyst development in particular.
    In fiscal year 2009, EB was divided into two separate programs:
    Photosynthetic Systems.--This program is focused on fundamental 
research to elucidate the specific mechanisms by which plants and 
microbes convert solar energy into chemically-stored forms of energy. 
Results from this new program will create a foundation for the 
development of enhanced biological and engineered systems to harvest 
solar energy, thus contributing to the Nation's goal of energy 
independence.
    Physical Biosciences.--This program combines tools and approaches 
from the physical sciences with the disciplines of molecular biology 
and biochemistry to create new understandings of the detailed 
mechanisms for energy storage and use in plants and microbes. Results 
for this new program will promote the development of improved systems 
for harvesting energy in multiple forms and enhancing their use for 
human needs.

                         WORKFORCE DEVELOPMENT

    Scientific research and subsequent discovery is vital for the 
Nation to remain competitive in the global economy and ensuring support 
for a well trained workforce of teachers and scientists at all levels, 
is imperative. The ASM supports increased funding for Workforce 
Development for Teachers and Scientists within the DOE Office of 
Science which funds undergraduate research internships, graduate and 
faculty fellowships, pre-college activities, laboratory equipment 
programs, and teacher programs.

                               CONCLUSION

    The ASM supports increased funding for the DOE Office of Science in 
fiscal year 2010, and urges Congress to provide adequate funding for 
the BER, ERSD, and Genomics: GTL, and the JGI, which are essential to 
DOE's mission. The DOE Office of Science programs enhance United States 
competitiveness through fundamental research and advanced scientific 
breakthroughs that revolutionize the Nation's approach to challenging 
energy and environment challenges.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2010 appropriation for the DOE.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists

    To the Chair and members of the subcommittee, thank you for this 
opportunity to provide testimony on the importance and need for strong 
Federal R&D efforts in the fields of oil and natural gas, coal, and 
geothermal technologies. These activities reside in the U.S. Department 
of Energy's fossil energy program (oil, natural gas, coal) and energy 
efficiency and renewable energy program (geothermal). They are an 
essential investment in this Nation's energy security.
    The American Association of Petroleum Geologists (AAPG) is the 
world's largest scientific and professional geological association. The 
purpose of AAPG is to advance the science of geology, foster scientific 
research, and promote technology. AAPG has nearly 34,000 members around 
the world, with roughly two-thirds living and working in the United 
States. These are the professional geoscientists in industry, 
government, and academia who practice, regulate, and teach the science 
and process of finding and producing energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
geosciences, and particularly petroleum geology play in energy security 
and our society.
    Our members have a big job. Fossil fuels supply 87 percent of the 
world's total energy needs, down only 4 percent in the past quarter 
century. Transportation represents about 30 percent of end use demand 
and is dominated by liquid fuels derived from oil. Heating is another 
30 percent and dominated by oil and natural gas. Electricity represents 
the remaining 40 percent with a broadening portfolio of fuel sources. 
Coal, nuclear, and natural gas currently dominate electricity 
production, but alternatives like wind are growing rapidly. However, 
because electricity demand is also growing, alternatives remain a small 
fraction of total production.
    Today's energy debate is often framed as a choice between fossil 
fuels or alternative (non-fossil) fuels, or between fossil fuels and 
the environment, but these are red herrings. Sustaining a healthy U.S. 
and global economy, and thus enabling substantial investment in our 
environment, requires a stable and continuous supply of fossil fuels 
while simultaneously developing and expanding alternative and new 
fuels. This is the bridge to our energy future. We need both, and the 
process of building this bridge will take 25 to 40 years, perhaps 
longer. Our Nation's energy policies and investments must reflect this 
reality.
    For example, President Obama's fiscal year 2010 budget includes the 
rollback of a series of tax provisions currently available to the oil 
and gas industry, which is dominated today by the U.S. independent 
producer. It also proposes assessing new fees and taxes on oil and 
natural gas producers, and repealing the ultra-deepwater and 
unconventional research programs.
    Compounded by a weak economy and limited access to capital, these 
proposed policies on top of an already heavily taxed industry would 
have a chilling effect on oil and natural gas drilling, production, and 
energy investment in this country, cost many jobs, and directly 
undermine U.S. energy security.
    The United States tried this experiment from 1980-1988 with the 
windfall profits tax which, compounded with the drop in price of oil in 
the 1980's, had a disastrous effect on drilling, industry employment 
and U.S. energy production for nearly two decades to follow. We face a 
very similar price situation now and cannot afford to repeat an 
experiment that has already been tried and failed.
    These either/or policy choices fail to recognize that as we bridge 
to an alternative energy future, we must preserve and even strengthen 
the fossil energy foundation underlying it. Research and development 
investments are critical to developing alternative and new fuel 
sources, but are also needed in fossil energy to develop the science 
and technology to ensure their future availability.

               OIL AND NATURAL GAS TECHNOLOGIES PROGRAMS

    The oil and natural gas technology research programs at DOE have 
received grossly inadequate appropriations for many years. In fact, in 
fiscal year 2009 Federal oil and natural gas R&D represented a 
miniscule proportion of total energy R&D expenditures, while, 
ironically, oil and natural gas combined contribute 65 percent to our 
Nation's energy portfolio.
    President Obama's fiscal year 2010 budget request continues this 
ill-advised pattern by proposing to eliminate DOE's petroleum-oil 
technologies program, funded at $5 million in fiscal year 2009, and 
increasing by $5 million the natural gas technologies program (for a 
total program of $25 million) to study natural gas hydrates.
    Instead, these programs should be increased substantially to ensure 
the technology will be available to find, develop, and produce these 
natural resources.
    Criticisms of these research programs are frequently couched in 
terms of ``corporate welfare'' or a notion that the private sector 
should support all oil and natural gas research on its own. But these 
charges reveal a fundamental misunderstanding of several important 
trends:
  --The transition to non-fossil fuel alternative energies will take 
        much longer than a few decades. Alternatives are currently more 
        expensive, less reliable and simply cannot meet the scale of 
        energy demand. To try to force the United States on a different 
        course than the rest of the world, at a cost of literally 
        trillions of dollars, will disadvantage the United States at a 
        minimum and worse further hurt the U.S. economy.
  --Increasingly, domestic oil and natural gas production is shifting 
        to non-traditional (unconventional) resources, such as the 
        Barnett Shale in Texas or the Bakken formation in the Williston 
        basin. These resources are different from the conventional 
        resources of the past and hold great promise, but realizing 
        that potential requires significant R&D and technology 
        development. Each resource has unique challenges and if the 
        United States is to leverage their global potential it must 
        invest accordingly and substantially.
  --Over the past decade the United States has added substantial 
        natural gas reserves with a net increase on the order of 15 
        trillion cubic feet (TCF) in the past 3 years owing to drilling 
        and expansion of shale gas. Proven reserves of dry natural gas, 
        including Prudhoe Bay, are about 300 TCF. Natural gas resource 
        estimates are 6-7 times the proven reserves. U.S. domestic 
        production of dry natural gas in 2008 was 20.6 TCF. Natural gas 
        is the largest source of domestically produced energy, slightly 
        greater than coal, substantially greater than oil, nuclear, and 
        all other sources. With the proper incentives, and combined 
        with a commitment to LNG, natural gas could support all of the 
        demand growth in power generation needed for several decades. 
        Such a shift in the fossil fuel mix would have a very positive 
        impact on reducing CO<INF>2</INF> emissions growth.
  --The U.S. oil and gas industry is in decline. Many of the top public 
        companies that built the U.S. energy advantage no longer exist. 
        Such names as Mobil, Amoco, Texaco, Phillips, Unocal, Arco, 
        Kerr McGee and others are gone as the result of mergers and 
        acquisitions. This decline has not stopped. All combined public 
        companies control less than 10 percent of the world's oil and 
        natural gas reserves; the remainder is controlled by national 
        oil companies (NOCs), many of them OPEC nations. These NOCs are 
        now leasing up resources globally and will become the 
        international oil companies of the future.
  --Domestic oil and natural gas resources are increasingly developed 
        by independent producers, ranging from individuals to large 
        companies. They do not have the capacity or resources to 
        conduct independent research. They have, however, been willing 
        and able to quickly adopt and commercialize new technologies 
        when appropriate technology transfer occurs.
  --Federal R&D has historically provided support for the Nation's 
        universities and colleges, which have proven to be a rich 
        source of technological innovation. But as Federal support for 
        oil and natural gas technologies has waned, so has the ability 
        to conduct this type of research and train the next generation 
        of U.S. scientists and engineers. This trend is particularly 
        worrisome, because developing nations are investing 
        significantly in fossil energy research and development and 
        U.S. universities are now heavily enrolled by non U.S. 
        students.
    Given the important role that oil and particularly natural gas 
currently play in our energy portfolio, we must rebuild and expand the 
Nation's Federal R&D and training capacity for oil and natural gas 
through a partnership of government, academia, and industry. These and 
other trends demonstrate the need for a robust Federal oil and natural 
gas program, one that is funded on the scale of coal, nuclear and 
alternatives.
    We request the subcommittee on Energy and Water Development and 
Related Agencies appropriate $500 million for oil and natural gas 
technology programs to be administered by the Department of Energy's 
Office of Fossil Energy to support research projects that target 
increased production of domestic oil and natural gas resources.

                              COAL PROGRAM

    The Nation's coal resource is vitally important to U.S. energy 
security. AAPG supports significant research and development funding 
for coal, including clean coal technologies such as carbon capture and 
sequestration. We support the funding provided in the American Recovery 
and Reinvestment Act of 2009 for coal research, and encourage Congress 
to sustain this commitment in its fiscal year 2010 appropriations by 
funding at fiscal year 2009 levels or higher.
    Again, these investments must be balanced. In evaluating the DOE 
coal program, I urge you to review the findings of the National 
Academy's report entitled Coal: Research and Development to Support 
National Energy Policy, released in June 2007. The study finds that 
while there are significant uncertainties in U.S. coal reserve and 
resource estimates, there is sufficient coal at current consumption to 
last for more than 100 years.
    However, there is a real need for more ``upstream'' coal research 
to increase our understanding of the Nation's resource base. They 
observe that currently, over 90 percent of Federal R&D spending for 
coal is on the ``downstream'' side, focused on utilization, carbon 
capture and sequestration, and transport and transmission. Only 10 
percent goes to resource and reserve assessment, mining and processing, 
environment/reclamation, and safety and health.
    AAPG supports the $3.4 billion for coal R&D provided in the 
American Reinvestment and Recovery Act of 2009, and supports President 
Obama's fiscal year 2010 request of $404 million.

                 GEOTHERMAL ENERGY TECHNOLOGIES PROGRAM

    Geothermal energy is an important alternative energy resource that 
provides baseload power to the Nation's electrical grid. Significant 
expansion of geothermal power production may be possible through the 
development of enhanced or engineered geothermal systems, but 
developing and proving these technologies will require R&D investment.
    AAPG supports the $400 million for geothermal energy R&D and 
deployment in the American Reinvestment and Recovery Act of 2009. AAPG 
supports President Obama's fiscal year 2010 request for $50 million for 
this program, and encourages Congress to appropriate at this level.

                                SUMMARY

    Thank you for the opportunity to present this testimony to the 
subcommittee. Building a bridge to our energy future requires 
significant investment in new and alternative energy and fuel sources, 
but it also requires significant R&D investment in fossil fuels, the 
foundation of our global energy system, to ensure an orderly 
transition.
                                 ______
                                 
      Prepared Statement of the National Mining Association (NMA)

                          NMA RECOMMENDATIONS

Department of Energy--Office of Fossil Energy
    Background.--NMA is disappointed that the U.S. Department of Energy 
(DOE) fiscal year 2010 request severely reduced the overall fossil 
energy budget, with steep declines in funding for coal programs. While 
we recognize that the economic stimulus package enacted earlier this 
year included demonstration project and Clean Coal Power Initiative 
funding, we do not believe that such funding justifies the 20 percent 
for all fossil energy programs including in the fiscal year 2010 budget 
request. A cut of this magnitude will compromise advances in clean coal 
and carbon capture and sequestration efforts.
            Office of Fossil Energy
    NMA fully supports and urges maximum funding for carbon capture and 
storage (CCS) projects that avoid, reduce or store air pollutants and 
greenhouse gases while contributing long-term economic growth and 
international competitiveness. Substantial Federal funding for 
continued research, development and demonstration of CCS technologies 
will be required before CCS can be applied to large-scale commercial 
power plants. The construction and operation of near-zero emission and 
low carbon projects, such as the proposed FutureGen project in Mattoon, 
Ill., are indispensable to demonstrate that the technology necessary to 
meet domestic energy demands of the 21st century are available on a 
commercial scale. NMA strongly supports the recent agreement between 
the DOE and the FutureGen Alliance to proceed with a reconfigured 
carbon capture and storage energy facility at Mattoon, Ill. We support 
the use of $1.073 billion from the American Recovery and Reinvestment 
Act for use in this endeavor and look forward to working with the 
Alliance and DOE to further advance CCS technologies.
    Funding for basic research and development of new, innovative clean 
coal technologies is necessary to continue the progress made over the 
last 35 years. Regulated emissions from coal-based electricity 
generation have decreased by nearly 40 percent since the 1970s while 
the use of coal has tripled. Well funded basic coal research by DOE and 
clean coal technology demonstrations undertaken by DOE-private sector 
partnerships will continue this significant progress in energy 
production and environmental improvement. Technological advancements 
achieved in the base coal research and demonstration programs such as 
gasification, advanced turbines and carbon sequestration provide the 
component technologies that will ultimately be integrated into the 
FutureGen project as recently reconfigured. NMA supports funding 
several of these programs at levels higher than the President's 
request, specifically $80 million for IGCC/gasification (DOE's 
requested amount: $55 million), $45 million for advanced combustion 
(DOE's request does not include direct funding) and $45 million for 
advanced turbines (DOE's request: $31 million). We are, however, 
pleased that DOE provides nearly $180 million for the Carbon 
Sequestration Research & Development program and Carbon Sequestration 
Injection Tests combined. We hope that DOE will work with industry to 
identify specific programmatic activities and funding for these 
programs. The increase in funding for these and other programs will 
ensure the FutureGen project meets the intended goals outlined in DOE's 
2004 report to Congress, ``FutureGen, Integrated Sequestration and 
Hydrogen Research Initiative--Energy Independence through Carbon 
Sequestration and Hydrogen from Coal.''
    In addition, NMA recommends $3 million of funding for the Center 
for Advanced Separation Technologies (CAST), which is a consortium of 
seven universities lead by Virginia Tech. CAST has developed many 
advanced technologies that are used in industry to produce cleaner 
fuels in an environmentally acceptable manner, with some having cross-
cutting applications in the minerals industry. Further development of 
advanced separation technologies will help encourage developing 
countries, such as China and India, to deploy affordable clean coal 
technologies and reduce CO<INF>2</INF> emissions. Research in Advanced 
Separations is mandated by the 2005 Energy Policy Act, section 962.
U.S. Army Corps of Engineers--Regulatory and Civil Works Programs
    Background.--The U.S. Army Corps of Engineers' (Corps) Regulatory 
Branch plays a key role in the U.S. economy through the Corps annual 
authorizations of approximately $200 billion of economic activity 
through its regulatory program. NMA recommends that a portion of the 
Corps' regulatory program funding be used to develop a more efficient 
process for expediting permit decisions associated with surface coal 
mining operations. In addition, NMA supports the inclusion of language 
directing the Corps to dedicate sufficient personnel and financial 
resources needed to support an efficient permit review process.
            Regulatory Program
    NMA supports increased funding for administering the Corps' Clean 
Water Act (CWA) section 404 permit program and for devising an 
efficient permitting program for authorizing surface coal mining 
permits.
            Civil Works Programs
    NMA opposes the Corps' proposed concept of a new inland waterways 
``lockage fee/tax,'' which would replace the current diesel fuel tax, 
to fund improvements to the Nation's inland waterways system. A lockage 
tax would more than double the taxes paid by the towing industry. The 
coal industry ships approximately 185 million short tons of coal 
annually on the inland waterways systems, therefore the cost of a new 
tax will ultimately be borne by the consumers of coal-fueled 
electricity. NMA opposes such a tax increase and urges Congress to 
reject this proposal and maintain the current diesel fuel tax.
                                 ______
                                 
       Prepared Statement of the American Wind Energy Association

                              INTRODUCTION

    America's wind industry enjoyed a record year of growth last year, 
deploying over 8,500 megawatts (MW) nationwide, which amounted to more 
than 40 percent of the country's new electricity generating capacity. 
Although wind is commercially deployable today, increased research, 
development, and deployment (RD&D) funding could significantly reduce 
its overall cost, improve reliability, and help keep America's domestic 
wind industry competitive with other electric generation sources and 
the wind industries in other countries.
    To meet these goals, the American Wind Energy Association (AWEA) 
requests that the subcommittee provide $105 million for the Department 
of Energy's (DOE) Wind Energy Program for fiscal year 2010, an increase 
of $30 million over the President's budget request. AWEA also requests 
that the subcommittee provide the DOE Office of Electricity Delivery 
and Energy Reliability (OE) with the $208 million included in the 
President's budget request. The President's budget request for OE 
includes approximately $73 million for transmission development and 
grid integration that could directly benefit wind deployment, including 
$20 million specifically for ``transmission reliability and renewable 
integration.''

              IMPORTANCE AND BENEFITS OF WIND ENERGY RD&D

    The DOE Wind Program has provided essential help to the wind 
industry over the years by supporting technology development and 
assisting in market acceptance of wind. The job is not done, however. 
Wind power is still constrained by difficulties in market acceptance 
and needed improvements in cost, performance, and reliability.
    As wind energy meets more of our energy needs, it is crucial to 
increase Federal funding to lower capital costs and improve turbine 
reliability. DOE's 20 percent Wind Energy by 2030 report assumes that 
capital costs decrease by 10 percent and that turbine efficiency 
increases by 15 percent to reach the goal of providing 20 percent of 
our Nation's electricity from wind by 2030. The need for continued 
Federal investment in wind RD&D is made clear in the report when DOE 
states, ``In a functional sense, wind turbines now stand roughly where 
the U.S. automotive fleet stood in 1940.\1\''
---------------------------------------------------------------------------
    \1\ U.S. Department of Energy, ``20% Wind Energy by 2030'' (July 
2008), http://www.20percentwind.org/20p.aspx?page=Report.
---------------------------------------------------------------------------
    Meeting the 20 percent goal by 2030 would provide a host of 
benefits nationwide, including:
  --Supporting 500,000 jobs, generating over $1 trillion in economic 
        impact by 2030;
  --Reducing natural gas demand by approximately 7 billion cubic feet/
        day, nearly half of the current consumption in the electric 
        sector;
  --Decreasing natural gas prices by approximately 12 percent, saving 
        consumers approximately $128 billion through 2030;
  --Avoiding 825 million tons of carbon dioxide emissions in the 
        electric sector in 2030, equivalent to 25 percent of expected 
        electric sector emissions; and
  --Reducing cumulative water consumption in the electric sector by 17 
        percent in 2030 (one-third of which would come from the arid 
        West).

                 EXPLANATION OF APPROPRIATIONS REQUEST

    Last year, as part of an AWEA Research and Development (R&D) 
Committee effort, a team of over 80 AWEA members and advisors from 
industry, government, and academic institutions met to determine how 
much funding would be needed to meet the goal of providing 20 percent 
of our Nation's electricity from wind energy by 2030. Participants 
determined that $217 million in annual Federal funding, combined with a 
$224 million annual industry/State cost share, would be necessary to 
support the research and development and related programs needed to 
meet that goal. The group determined that $201 million should be 
directed to DOE, with an additional $15.5 million for the Department of 
Labor (DOL) for workforce development.
    AWEA greatly appreciates DOE's designation of funding from the 
American Recovery and Reinvestment Act (ARRA) for wind energy RD&D and 
transmission and systems integration. AWEA is also grateful for the 
increases for the DOE Wind Program and OE transmission activities in 
the President's fiscal year 2010 budget. The combined funding will 
finance a number of key wind industry priorities to help overcome the 
challenges to meet the 20 percent by 2030 vision. However, neither the 
ARRA nor the President's budget appears to fully address a number of 
key wind energy challenges.
    Technology R&D funding through the ARRA and the President's budget 
provides a much needed boost to bring down the cost of wind energy and 
improve wind turbine efficiency. However, more funding is needed to 
address issues related to wind turbine technology, siting and public 
education, wind resource modeling and wind power plant efficiency 
assessment. In April, Secretary Chu announced $93 million from the ARRA 
for wind energy RD&D, including $45 million to build a wind turbine 
drivetrain testing facility and $10 million for the National Renewable 
Energy Laboratory's (NREL) National Wind Technology Center (NWTC). In 
May, he announced $25 million to construct and fund first-year 
operating expenses for the Massachusetts Wind Technology Testing Center 
to test large wind turbine blades.
    In total, the ARRA funding and the President's budget still fall 
short of the $161 million in annual DOE, non-transmission funding 
identified through the AWEA R&D Committee effort to meet the goal of 
providing 20 percent of our Nation's electricity from wind energy by 
2030. $45 million for the drivetrain testing facility will be used for 
construction expenses, as will most of the $25 million provided for the 
large blade test facility. The $10 million for the NWTC will fund 
infrastructure improvements to the facility. As a result, a budget gap 
of $30 million remains between the wind industry's RD&D needs and 
fiscal year 2010 Federal funding for wind RD&D.
    The President's fiscal year 2010 budget for the DOE Wind Program 
includes just over $11 million for ``technology acceptance.'' Within 
this category, one of the wind industry's top priorities is improving 
radar and electro-magnetic fields assessment and mitigation. The 
Department of Defense, Federal Aviation Administration, and other 
Government agencies are concerned about the impact wind projects have 
on radar systems. Funding mitigation methods is crucial for opening new 
areas for wind energy development.
    The wind industry has also identified the need to fund programs to 
educate local policymakers and the general public. Such programs are 
critically important to provide communities with reliable, objective 
information about wind projects.
    The working group mentioned above determined that $19 million is 
needed to fund radar assessment and mitigation and the education of the 
public and local decisionmakers on wind energy issues. Out of the $105 
million request, AWEA would appreciate an increase of $8 million to 
ensure that the DOE Wind Program's technology acceptance efforts meet 
industry needs and to facilitate the installation of more wind energy 
projects across the country.
    Finally, as mentioned earlier, overcoming the transmission 
challenges associated with grid integration and transmission expansion 
is another top priority for the wind industry. Regardless of which 
office receives funding for grid integration and transmission 
development, it is crucial that OE and DOE's Office of Energy 
Efficiency and Renewable Energy (EERE) work together to assist 
utilities in their efforts to produce grid integration solutions 
related to wind variability while incorporating expertise in place at 
DOE national laboratories, such as NREL. EERE, OE, and NREL should also 
work closely with organizations like the Utility Wind Integration Group 
(UWIG) to resolve grid integration challenges associated with wind 
energy development.

                    GENERAL WIND INDUSTRY PRIORITIES

    The wind industry generally supports Federal funding for the 
following areas:
    Wind Turbine Technology and Reliability.--This area should focus on 
the development of wind turbine components to reduce capital costs, 
improve performance, and enhance reliability to achieve the 20 percent 
vision by 2030.
    AWEA also recognizes the need to reduce the cost of offshore wind 
energy technology to provide the estimated 54 gigawatts (GW) of the 300 
GW needed to meet the 20 percent goal by 2030. For this reason, AWEA 
requests that any funding for the DOE Wind Program above the $105 
million request be provided for the development of offshore-specific 
technology. Although the immediate needs for wind technology and 
deployment are focused on land-based development, AWEA recognizes that 
offshore wind development offers a substantial opportunity for 
additional wind development.
    Systems Integration.--This program area focuses on the power system 
operations issues of integrating variable, non-dispatchable power 
sources into the power system. Areas of special focus include 
developing and promoting advanced forecasting methods, developing and 
analyzing additional sources of system flexibility, expanding and 
implementing power system operation tools, and supporting 
interconnection-wide integration studies and plans.
    Transmission Expansion.--Transmission expansion has been identified 
as one of the key areas of focus for meeting the 20 percent by 2030 
wind energy goal. This area of funding should focus on issues related 
to expanding the transmission grid to increase access to wind resource 
areas.
    Education and Workforce Development.--NREL has identified the lack 
of skilled workers as one of the biggest non-technical barriers to the 
growth of renewable energy industries. In addition to educating 
policymakers and stakeholders about wind power development, areas of 
special focus include making sure that DOL and DOE work together to 
increase the supply of professionals and technical specialists with 
wind-energy specific knowledge.
    Resource Modeling and Wind Power Plant Efficiency Assessment.--A 
better understanding of wind resources and of turbine wake effects 
would provide an immediate benefit for projects to be sited and 
arranged to optimize energy yield and improve performance. Areas of 
special focus include funding for test centers to better understand 
wind flow models, research on the effect of wind turbines under unusual 
atmospheric conditions, and funding for wake loss models.
    Siting (Resources, Land Use, Environmental Interface).--Greater 
funding for wind project siting issues would help the wind industry 
avoid unnecessary wind deployment delays, thus helping the industry to 
stay on track to meet the 20 percent vision by 2030. In general, 
increased funding in this area should be targeted toward better 
understanding the impact of wind turbines on wildlife and radar 
installations and mitigating these impacts.
    Small Wind (Turbines 100 Kilowatts and Smaller).--Greater Federal 
funding for these systems would help the small wind industry serve end 
users directly with domestic, on-site generation.

                               CONCLUSION

    The President and Congress have called for a bolder commitment to 
the development of domestic renewable energy resources, particularly 
wind energy, to meet our Nation's growing energy needs. Continued 
investments in wind energy RD&D are delivering value for taxpayers by 
fostering the development of a domestic energy source that strengthens 
our national security, provides economic development, spurs new high-
tech jobs, and helps protect the environment.
    While the wind industry continues adding new generation capacity, a 
number of challenges still exist. Continued support for DOE's wind 
program is vital to helping wind become a more prominent energy source 
that leads to a host of economic and environmental benefits. AWEA urges 
the subcommittee to include $105 million for the DOE Wind Energy 
Program in fiscal year 2010. Any additional funding above this amount 
should be directed toward the advancement of offshore wind system 
technology.
    AWEA would also appreciate the subcommittee providing OE with the 
$208 million included in the President's budget request. As mentioned 
earlier, the President's budget request for OE includes approximately 
$73 million that, at least in part, would benefit transmission 
development and grid integration related to wind deployment, including 
$20 million specifically for ``transmission reliability and renewable 
integration.''
    AWEA appreciates this opportunity to provide testimony on DOE's 
fiscal year 2010 Wind Energy Program budget before the Senate 
Appropriations Subcommittee on Energy and Water Development. We thank 
the subcommittee for its time and attention to our request.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this statement for the official record to support increased 
funding for the Department of Energy's Office of Science for fiscal 
year 2010 that would keep the Office on a doubling path. The testimony 
highlights the importance of biology, particularly plant biology, as 
the Nation seeks to address vital issues including climate change and 
energy security. We would also like to thank the subcommittee for its 
consideration of this testimony and for its strong support for the 
basic research mission of the Department of Energy's Office of Science.
    The American Society of Plant Biologists is an organization of more 
than 5,000 professional plant biologists, educators, graduate students, 
and postdoctoral scientists. A strong voice for the global plant 
science community, our mission--which is achieved through engagement in 
the research, education, and public policy realms--is to promote the 
growth and development of plant biology and plant biologists and to 
foster and communicate research in plant biology. The Society publishes 
the highly cited and respected journals Plant Physiology and The Plant 
Cell, and it has produced and supported a range of materials intended 
to demonstrate fundamental biological principles that can be easily and 
inexpensively taught in school and university classrooms by using 
plants.

  FOOD, FUEL, CLIMATE CHANGE, AND HEALTH--PLANT BIOLOGY RESEARCH AND 
                            AMERICA'S FUTURE

    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Indeed, basic plant biology 
research is making many fundamental contributions in the areas of fuel 
security and environmental stewardship; the continued and sustainable 
development of better foods, fabrics, and building materials; and in 
the understanding of basic biological principles that underpin 
improvements in the health and nutrition of all Americans. To go 
further, plant biology research can help the Nation both predict and 
prepare for the impacts of climate change on American agriculture, and 
it can make major contributions to our Nation's efforts to combat 
global warming.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Despite the fact that plant biology research--the kind of research 
funded by the DOE--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors of the economy like energy 
and agriculture.

                            RECOMMENDATIONS

    ASPB, as a spokesperson for the plant science community, is in an 
excellent position to articulate the Nation's plant science priorities 
as they relate to bioenergy and, specifically, with regard to 
recommendations for bioenergy research funding through the Department 
of Energy's Office of Science. Our recommendations, in no particular 
order, are as follows:
  --We commend the DOE Office of Science, through their Divisions of 
        Basic Energy Sciences (BES) and Biological and Environmental 
        Research (BER) for funding the Bioenergy Research Centers (BER) 
        and the recently awarded Energy Frontier Research Centers 
        (BES). Although these efforts are well designed and a 
        significant step forward, these large centers will not have a 
        monopoly on good ideas. Therefore, ASPB strongly encourages the 
        appropriation of additional funds for the DOE Office of Science 
        that would be specifically targeted to the funding of 
        individual or small group grants for bioenergy research, like 
        the Single-Investigator and Small-Group Research (SISGR) 
        projects funded through BES in fiscal year 2009.
  --The DOE Office of Science is the primary funding agency for 
        physical science research. Past experience teaches us that many 
        major scientific and technical breakthroughs occur at the 
        interface between traditional scientific disciplines. 
        Therefore, ASPB recommends appropriations that would 
        specifically target the interface between plant biology and the 
        physical sciences to encourage multidisciplinary and cross-
        disciplinary research that would address significant problems 
        in bioenergy research.
  --Photosynthetic research is one clear example of an interface 
        between the physical sciences and biology. The DOE BER has been 
        the major source of funds for basic studies of photosynthesis, 
        which is the primary source of chemical energy on the planet. 
        After all, fossil fuels are just photosynthetic energy that was 
        trapped eons ago and converted through natural processes into 
        the forms in which we use it today. However, the current 
        funding available for photosynthetic research is not 
        commensurate with the central role that photosynthesis plays in 
        energy capture and carbon sequestration. Hence, ASPB calls for 
        an increase in appropriations to BER to expand its research 
        portfolio in the area of photosynthesis and carbon capture.
  --Climate change is real and will have significant impacts on 
        agriculture and our way of life for the foreseeable future. 
        There are significant questions that must be answered as to how 
        climate change will impact food production and the environment. 
        There are also clear opportunities to use biological systems to 
        ameliorate climate change, such as through carbon sequestration 
        or modification of plants to resist environmental stress. 
        Therefore, ASPB calls for additional funding focused on studies 
        of the effect of climate change on agricultural cropping 
        systems, basic studies of effects on plant growth and 
        development, and targeted research focused on modification of 
        plants to resist climate change and for use in carbon 
        sequestration.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce in the energy area. The 
        DOE Office of Science has traditionally not been a major 
        funding agency for education and training, other than that 
        which occurs through the funding of individual investigator and 
        center grants. Given the expected need for additional 
        scientists and engineers who are well-grounded in 
        interdisciplinary research and development activities, ASPB 
        calls for funding of specific programs (e.g., training grants) 
        that are targeted to provide this needed workforce over the 
        next 10 years and to adequately prepare them for careers in the 
        interdisciplinary energy research of the future.
  --The revolution in biological technology that has given rise to the 
        various--omics subdisciplines has also generated enormous 
        datasets that reveal the tremendous complexity of biological 
        systems. Computational biology is a relatively new discipline 
        that arose from the interface of computer science and biology. 
        These new technologies and approaches provide the only means by 
        which these large biological datasets can be integrated and 
        mined for new, relevant biological knowledge. Therefore, as 
        discussed in item two above, ASPB calls for additional funding 
        that would target this interface between biology and computer 
        science. Specifically, we call for additional funding to 
        develop computational platforms to develop a systems-level view 
        of biology through the integration of data obtained from a 
        variety of functional genomics approaches. This is clearly a 
        ``grand challenge'' that is currently limiting the utility of 
        this information. Additionally, we call for the funding of 
        robust education and professional development programs, 
        including training grants, that target the interface between 
        computer and biological science.
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. Progress in this area has 
        been strongly affected by the ``fuel vs. food'' debate, which 
        arose from the current emphasis on the use of corn for ethanol 
        production. A response to this debate has been to switch the 
        focus to plants that can be grown exclusively for biomass 
        (e.g., switchgrass, miscanthus, etc). However, if these crops 
        are to be used to their full potential, considerable effort 
        must be expended to improve our understanding of their basic 
        biology and development, as well as their agronomic 
        performance. Unlike our current, major crops (e.g., soybean, 
        corn), these novel crops have not benefitted from the many 
        years of improvements in crop management and breeding--
        improvements that, among other things, have vastly increased 
        yield and agronomic efficiency. Although similar efforts to 
        improve targeted bioenergy crops are just beginning, we have 
        established very aggressive goals for the use of these crops to 
        meet the Nation's fuel needs. Therefore, ASPB calls for 
        additional funding that would be targeted to efforts to 
        increase the utility and agronomic performance of bioenergy 
        crops.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future. For more information about the American Society of Plant 
Biologists, please see www.aspb.org.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
      Society of America, and the Soil Science Society of America

    Dear Chairman Dorgan, Ranking Member Bennett and members of the 
subcommittee, the American Society of Agronomy (ASA), Crop Science 
Society of America (CSSA), and Soil Science Society of America (SSSA) 
are pleased to submit the following funding recommendations for the 
Department of Energy for fiscal year 2010. For the Office of Science, 
ASA, CSSA, and SSSA recommend a funding level of $5.0 billion, a 4.8 
percent increase over fiscal year 2009 ($4.722 billion). For the Office 
of Energy Efficiency and Renewable Energy, we recommend a funding level 
of $2.061 billion, a 7 percent increase over fiscal year 2009. 
Specifics for each of these and other budget areas follow below.
    With more than 25,000 members and practicing professionals, ASA, 
CSSA, and SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA, CSSA, and SSSA play a major role in promoting progress in these 
sciences through the publication of quality journals and books, 
convening meetings and workshops, developing educational, training, and 
public information programs, providing scientific advice to inform 
public policy, and promoting ethical conduct among practitioners of 
agronomy and crop and soil sciences.

                 DEPARTMENT OF ENERGY OFFICE OF SCIENCE

    The American Society of Agronomy, Crop Science Society of America, 
and Soil Science Society of America (ASA, CSSA, and SSSA) thank the 
Senate Energy and Water Appropriations Subcommittee (subcommittee) for 
providing $1.6 billion from Public Law 111-5, the ``American Recovery 
and Reinvestment Act of 2009 (act)'' for research funding through DOE's 
Office of Science, which oversees the Nation's research programs in 
climate science, advanced computing, and biofuels areas crucial to our 
energy future. The act also provides $2.5 billion for Research, 
Development, and Demonstration at universities, companies, and national 
laboratories for which we are very grateful.
    ASA, CSSA, and SSSA understand the challenges the Senate Energy and 
Water Appropriations Subcommittee faces with the tight budget for 
fiscal year 2010. We also recognize that the Energy and Water 
Appropriations bill has many valuable and necessary components, and we 
applaud the subcommittee for funding the DOE Office of Science in the 
fiscal year 2009 Omnibus Appropriations bill at $4.772 billion. For 
fiscal year 2010, ASA, CSSA, and SSSA recommend a funding level of $5.0 
billion, a 4.8 percent increase over fiscal year 2009. Under the Energy 
Policy Act of 2005 (Public Law 109-58), the Office of Science was 
authorized to receive $5.2 billion in fiscal year 2009.
    The Office of Science supports graduate students and postdoctoral 
researchers early in their careers. Nearly one-third of its research 
funding goes to support research at more than 300 colleges and 
universities nationwide. Moreover, approximately half the users at 
Office of Science user facilities are from colleges and universities, 
providing further support to their researchers. The Office of Science 
also reaches out to America's youth in grades K-12 and their teachers 
to help improve students' knowledge of science and mathematics and 
their understanding of global energy and environmental challenges. This 
recommended funding level of $5.0 billion is critical to ensuring our 
future energy self-sufficiency and as a means to address major 
environmental challenges including global climate change. Finally, a 
funding level of $5.0 billion will allow the Office of Science to: 
maintain and strengthen DOE's core research programs at both the DOE 
national laboratories and at universities; provide support for 1,000 
PhDs, postdoctoral associates, and graduate students in fiscal year 
2010; ensure maximum utilization of DOE research facilities; allow the 
Office of Science to develop and construct the next generation 
facilities necessary to maintain U.S. preeminence in scientific 
research; and enable DOE to continue to pursue the tremendous 
scientific opportunities outlined in the Office of Science Strategic 
Plan and in its 20 Year Scientific Facilities Plan.

                         BASIC ENERGY SCIENCES

    Within the Office of Science, the Basic Energy Sciences (BES) 
Program is a multipurpose, scientific research effort that fosters and 
supports fundamental research to expand the scientific foundations for 
new and improved energy technologies and for understanding and 
mitigating the environmental impacts of energy use. ASA, CSSA, and SSSA 
support a fiscal year 2010 funding level of $1.682 billion, a 7 percent 
increase over fiscal year 2009, for BES.
    The portfolio of programs at BES supports research in the natural 
sciences by focusing basic (discovery) research on, among other 
disciplines, biosciences, chemistry and geosciences. Practically every 
element of energy resources, production, conversion and waste 
mitigation is addressed in basic research supported by BES programs. 
Research in chemistry has lead to the development of new solar 
photoconversion processes and new tools for environmental remediation 
and waste management. Research in geosciences leads to advanced 
monitoring and measurement techniques for reservoir definition. 
Research in the molecular and biochemical nature of photosynthesis aids 
the development of solar photo-energy conversion.
    Within the Basic Energy Sciences Program, the Chemical Sciences, 
Geosciences, and Energy Biosciences subprogram supports fundamental 
research in geochemistry, geophysics and biosciences. ASA, CSSA, and 
SSSA recommend $317,910,910 a 7 percent increase over the fiscal year 
2009 funding level. The Geosciences Research Program supports research 
focused at developing an understanding of fundamental Earth processes 
that can be used as a foundation for efficient, effective, and 
environmentally sound use of energy resources, and provide an improved 
scientific basis for advanced energy and environmental technologies. 
The Biosciences Research Program supports basic research in molecular 
level studies on solar energy capture through natural photosynthesis; 
the mechanisms and regulation of carbon fixation and carbon energy 
storage; the synthesis, degradation, and molecular interconversions of 
complex hydrocarbons and carbohydrates; and the study of novel 
biosystems and their potential for materials synthesis, chemical 
catalysis, and materials synthesized at the nanoscale.

                 BIOLOGICAL AND ENVIRONMENTAL RESEARCH

    Within the Office of Science, the Biological and Environmental 
Research (BER) Program, is a key component to developing and delivering 
the knowledge needed to support the President's plan to make America 
energy independent. ASA, CSSA, and SSSA support a 7 percent increase 
for BER which would bring the funding level to $643,647,800 for fiscal 
year 2010. ASA, CSSA, and SSSA support a variety of programs within BER 
including the Life Sciences subprogram which supports Carbon 
Sequestration Research (we recommend $8 million for fiscal year 2010), 
and the Genomes to Life (GTL) program. Within Genomes to Life are 
programs supportive of bioenergy development including GTL Foundation 
Research, GTL Sequencing, GTL Bioethanol Research, and GTL Bioenergy 
Research Centers, all playing an important role in achieving energy 
independence for America. Also within BER is the Environmental 
Remediation subprogram and its Environmental Remediation Sciences 
Research program, both critical programs to advancing tools needed to 
clean up contaminated sites. ASA, CSSA, and SSSA recommend a funding 
level of $190,381,000, a 7 percent increase over fiscal year 2010 for 
Climate Change Research subprogram. This subprogram supports important 
areas of climate change research including: Climate Forcing which 
supports the Terrestrial Carbon Processes program and the Ameriflux 
network of research sites (which should receive $17 million in 
funding), as understanding the role that terrestrial ecosystems play in 
capturing and storing carbon is essential to developing strategies to 
mitigate global climate change. An additional program of high 
importance within the Climate Change Research subprogram is the Climate 
Change Response and its associated programs--Ecosystem Function and 
Response, and Education. Finally, also under the Climate Change 
Research subprogram is the Climate Change Mitigation program, part of 
BER's support to the Climate Change Technology Program, which will 
continue to focus only on terrestrial carbon sequestration.
 department of energy office of energy efficiency and renewable energy
    The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in the research and development (RD&D) of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. For the Office of Energy Efficiency and Renewable Energy, we 
recommend a funding level of $2.061 billion, a 7 percent increase over 
fiscal year 2009. The fiscal year 2010 EERE budget should continue to 
maintain focus on key components of the AEI and Twenty in Ten including 
the Biofuels Initiative to develop affordable, bio-based transportation 
fuels from a wider variety of feedstocks and agricultural waste 
products.
    Note: ASA, CSSA, and SSSA strongly oppose the use by the Department 
of the terms ``agricultural wastes'' or ``crop wastes'' when referring 
to crop residue. Crop residues, e.g., corn stover, etc. play a very 
important role in nutrient cycling, erosion control and organic matter 
development. Recent studies have shown that excessive removal of crop 
residues from agricultural lands can lead to a decline in soil quality. 
By no means should they ever be referred to as ``wastes''.

                    BIOMASS AND BIOREFINERY SYSTEMS

    Within EERE, the Biomass and Biorefinery Systems R&D program plays 
an important role providing support for Regional Biomass Feedstock 
Development Partnerships and Infrastructure Core R&D programs, both 
within Feedstock Infrastructure. For the Biomass and Biorefinery 
Systems R&D program, we recommend a 7 percent increase for fiscal year 
2010 which would bring funding to $190,381,000. The mission of the 
Biomass Program is to develop and transform our domestic, renewable, 
and abundant biomass resources into cost-competitive, high performance 
biofuels, bioproducts and biopower through targeted RD&D leveraged by 
public and private partnerships. ASA, CSSA, and SSSA support $18 
million in funding for the Feedstock Infrastructure program.

                        CLIMATE CHANGE RESEARCH

    ASA, CSSA, and SSSA urge the subcommittee to continue to provide 
strong support for Climate Change Research to the following programs as 
follows: Climate Change Science Program (CCSP), $150 million; Climate 
Change Research Initiative (CCRI), $25,672,000; and Climate Change 
Technology Program (CCTP), $850,301,000. These three programs together 
will increase our understanding of the impacts of global climate change 
and also develop tools and technologies to mitigate these impacts.

                   BASIC AND APPLIED R&D COORDINATION

    The Office of Science continues to coordinate basic research 
efforts in many areas with the Department's applied technology offices. 
Within this area is Carbon Dioxide Capture and Storage R&D for which we 
recommend $20,055,000.

                         NATIONAL LABORATORIES

    The Office of Science manages 10 world-class laboratories, which 
often are called the ``crown jewels'' of our national research 
infrastructure. The national laboratory system, created over a half-
century ago, is the most comprehensive research system of its kind in 
the world. Five are multi-program facilities including the Oak Ridge 
National Laboratory.

              NATIONAL ENERGY TECHNOLOGY LABORATORY (NETL)

    ASA, CSSA, and SSSA urge the subcommittee to direct the Department 
to increase funding for its terrestrial carbon sequestration program, 
specifically The Regional Carbon Sequestration Partnerships, whose 
collaborations are essential to maintain.

                  OAK RIDGE NATIONAL LABORATORY (ORNL)

    ORNL is one of the world's premier centers for R&D on energy 
production, distribution, and use and on the effects of energy 
technologies and decisions on society.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
Prepared Statement of the Center for Advanced Separation Technologies, 
          Virginia Polytechnic Institute and State University

    Chairman Dorgan, Ranking Member Bennett, and members of the 
subcommittee, I represent the Center for Advanced Separation 
Technologies (CAST), which is a consortium of five universities with 
strong programs in coal mining and processing. I appreciate the 
opportunity to submit this testimony requesting that your subcommittee 
add $3 million to the 2010 Fuels Program budget, Fossil Energy Research 
and Development, U.S. Department of Energy, for advanced separations 
research. Research in advanced separations technology development is 
authorized by the Energy Policy Act of 2005, title IX, subtitle F, sec. 
962. I am joined in this statement by my colleagues from four other 
member universities: Richard A. Bajura, West Virginia University; Rick 
Q. Honaker, University of Kentucky; Peter H. Knudsen, Montana Tech of 
the University of Montana; Jan D. Miller, University of Utah.
    funding request for center for advanced separation technologies
    Fossil energy accounts for 86 percent of the energy used in the 
United States and the world. Due to concerns for global warming, the 
U.S. Government is making major investments in developing renewable 
energy resources and carbon capture and sequestration (CCS) 
technologies. However, it will take a while for many of the new 
technologies to come on line. Therefore, CAST will continue to develop 
advanced technologies that can be used to produce fossil fuels with 
minimal environmental impacts and to capture the harmful effluents 
generated from the utilization of fossil fuels.
    Between 1990 and 2008, U.S. emissions of CO<INF>2</INF> from fossil 
fuel combustion grew by 27 percent. But the emissions in China rose 150 
percent, from 2.3 to 5.9 billion tons. China's CO<INF>2</INF> emissions 
are now estimated to be about 24 percent of the global total, 
surpassing the U.S. contribution of 21 percent (State of the World 
2009). It is projected that by 2030 developing countries will account 
for more than 75 percent of the increase in global CO<INF>2</INF> 
emissions. Thus, the United States must engage developing countries in 
its effort to curb CO<INF>2</INF> emissions.
    A serious problem in China and India is that much of the coal is 
burned as mined without cleaning, causing low thermal efficiencies. In 
these two countries, the thermal efficiencies for power generation are 
29 percent in average as compared to 38 percent in the United States. 
By increasing the efficiency to 33 percent by way of improving coal 
quality, the CO<INF>2</INF> emissions in China can be reduced by 20 
percent. According to a recent IEA report, India could reduce 
CO<INF>2</INF> emissions by 55 percent using state-of-the-art 
technologies relating to coal quality, boiler/generator design, 
instrumentation and control, and high voltage distribution systems 
(Couch, 2002). Unfortunately, much of the coal burned in India is of 
low quality, assaying 35-42 percent ash, while the ash contents of the 
coals burned for power generation are mostly less than 8 percent. 
Helping China and India improve the quality of their coal burned for 
power generation would be the first step toward deploying clean coal 
technologies (CCT) and reducing CO<INF>2</INF> emissions substantially.
    It is, therefore, the objective of CAST research to develop 
advanced technologies that can be used to remove various impurities 
from coal, so that it can be burned more cleanly and efficiently. These 
technologies can also be used to minimize the problems associated with 
waste disposal at mine sites and power plants, and help reduce 
CO<INF>2</INF> emissions in developing countries. It is also the 
objective to study and develop methods of extracting other fossil 
energy resources, such as oil sands, oil shale, and methane hydrates in 
environmentally acceptable manner.

                       SUMMARY OF ACCOMPLISHMENT

    Cleaning coal becomes more difficult and costly as the size of coal 
particles becomes smaller. Therefore, many companies discard coal fines 
to impoundments along with the water that is used for their washing 
operations, or inject the coal-water slurries into abandoned, 
underground mines. The latter practice has been drawing criticism, as 
the water containing toxic elements (and sometimes the slurry itself) 
contaminates drinking water (Smith, V., AP News, March 21, 2009). The 
fine coal impoundments also pose environmental threats as they 
occasionally fail, releasing billions of gallons of slurry into the 
neighborhoods and rivers. Recognizing the seriousness of these 
problems, CAST has been developing a series of advanced fine coal 
cleaning technologies over the years. During the last few years, we 
have been focusing on developing methods of removing water (dewatering) 
from fine coal slurry, which is regarded one of the most 
technologically challenging problems for the coal industry. During 
2008-2009, CAST has completed testing the hyperbaric centrifugal 
dewatering technology in operating plants. The results of the 
successful test program have been highlighted in Techline, DOE's web 
newsletter, in February 2009. Industry leaders consider this new 
development as the most significant technological breakthrough in 20 
years.
    CAST is also well known for its expertise in separating fine coal 
from ash-forming minerals. One success story was the development of the 
Microcel<SUP>TM</SUP> flotation technology, which is widely used around 
the world. During the last 2 years, FLSmidth Minerals, Salt Lake City, 
Utah, which is one of the world's largest mining equipment companies, 
has provided $900,000 of research funding to develop a mathematical 
model for the separation process. This industrial funding was provided 
as a matching fund against the $250,000 of CAST fund allocated for this 
project. The results of the project will be used to help the company 
improve the designs of the currently marketed flotation machines.
    Indian coal is notoriously difficult to clean, because ash-forming 
minerals are finely disseminated in the coal matrix. Using conventional 
methods, it is difficult to reduce the ash content to below 12-14 
percent by weight even for high-quality metallurgical coals. With the 
help of the U.S. Department of Energy, CAST is negotiating a $1.2 
million research contract with Coal India Limited (CIL), in which a 75-
tonnes per hour coal cleaning plant is designed, constructed by CIL, 
and demonstrated. The plant will be using the advanced technologies 
developed at CAST to reduce the ash content to below 8 percent.
    In addition, CAST is testing a pilot-scale dry coal cleaning 
technology in India. This project is funded by the Department of State 
(DOS) in the amount of $1.1 million as part of the Asia Pacific 
Partnership (APP) for Clean Development and Climate program. The pilot-
scale test unit has been shipped to India for on-site testing, which 
will begin within a month. The objective of this project and the one 
described in the forgoing paragraph is to help India clean coal before 
burning, which is considered the lowest-cost option to reduce 
CO<INF>2</INF> emissions in the country.
    CAST research activities helped the fossil energy industries in 
Utah, including coal, oil sand and oil shale industries. For example, 
CAST funds have helped to sustain the development of new technology for 
the efficient utilization of western coal by Ambre Energy, North 
America, a Salt Lake City based company. Ambre Energy has licensed a 
University of Utah technology as part of their plans to construct a 
$300 million plant which will include, among others the production of 
advanced transportation fuels from western coal resources.
    In the areas of post-combustion clean-up, CAST has developed 
metallic filters that can remove mercury from the flue gas generated at 
coal-fired power plants. Based on the successful laboratory test 
results, the mercury filters were tested at the PPL's Colstrip power 
plant in Montana. The removal efficiency was greater than 90 percent, 
verifying laboratory experiments. The mercury absorbed on the metallic 
filters were stripped off by an in situ thermal treatment, so that the 
filter can be reused and the mercury be collected for commercial use.
    All of the fossil fuels, including coal, oil, natural gas, methane 
in hydrate, kerogen in oil shale, and bitumen in oil sands, are 
naturally hydrophobic. During 2008-2009, CAST has made significant 
advancements in the basic understanding of the nature of hydrophobicity 
and hydrophobic interactions. The results will be useful not only for 
developing these energy resources but also for separating different 
gases from each other. It is possible to convert one type of gas to 
hydrate (solid) leaving the others in gaseous form, thereby achieving 
separation.

                             PROPOSED WORK

    Although coal is regarded as ``dirty'' fuel, it will take some time 
before clean, renewable fuels can replace coal substantially. According 
to the 2008 International Energy Outlook (EIA, September 2008), coal 
consumption will increase faster than any other energy resource, 
particularly in China. Therefore, it is important to continue to 
develop methods of recovering and utilizing coal with minimal 
environmental impacts. To meet this objective, CAST will develop 
technologies that can be used to minimize the environmental problems 
both at mine sites (e.g., refuse pond and runoff water from valley-fill 
mining operations) and coal-burning power plants (e.g. ash pond, 
mercury emissions, and CO<INF>2</INF> emissions).
    In addition to the hyperbaric centrifuge described above, CAST has 
been developing a novel technology that can remove water, ash, and 
other impurities simultaneously. Laboratory tests showed that this new 
technology can produce clean coal with lower moisture and lower ash 
contents at higher coal recoveries than can be achieved by using a 
combination of the Microcel and the centrifuge technologies. The new 
technology can, therefore, be implemented at lower capital cost and 
will be particularly useful for recovering coal from fine coal 
impoundments. During 2009-2010, the new process will be tested on a 
bench-scale continuous mode. Several companies have expresses strong 
interest in commercializing this new technology.
    An important part of developing coal cleaning technologies is 
technology transfer. Therefore, CAST will devote considerable resources 
for on-site testing, problem solving, and offering short-courses and 
seminars for plant operators. Keeping industry operators abreast of 
CAST research will expedite the technology transfer and help the U.S. 
companies maintain a clean environment near mine sites.
    Using the improved understanding of the basic sciences involved in 
gas hydrate formation, CAST will also develop methods of separating 
gases from each other. The methods will be based on solidifying one-
type of gas as hydrate while keeping the others in gaseous form. For 
example, CO<INF>2</INF> and nitrogen present in combustion gases can be 
readily separated from each other by the selective hydrate formation 
method. One problem associated with the approach is the slow kinetics 
of hydrate formation. It is, therefore, proposed to find ways to 
increase the kinetics by using additives. The gas-gas separation 
process by forming hydrates can have higher capacity and lower cost 
than other methods.
    The proposed research can also lead to the development of efficient 
methods for extracting methane from hydrate resources. The National 
Energy Technology Laboratory is spearheading a program to extract 
methane from the Alaskan North Slope with the objective of producing 
methane by 2015. CAST will explore the possibility of extracting 
methane from marine hydrate resources. It is estimated that the United 
States has 200,000 Tcf of methane as hydrate, while the proven reserve 
for dry natural gas is only 238 Tcf. The Blake Ridge deposit alone, off 
the shores of the Carolinas, has 1,300 Tcf of methane. Thus, the 
research on gas hydrate will lead to the development of unconventional 
gas resources, development of efficient gas-gas separation methods, 
sequestration of CO<INF>2</INF> as hydrate, and transport and storage 
of methane and hydrogen.

                            FUNDING REQUEST

    It is requested that $3 million of funding for CAST be added to the 
fiscal year 2010 Fuels Program budget, Fossil Energy R&D, U.S. 
Department of Energy. Continued funding will allow CAST to develop 
advanced technologies for producing domestic energy resources in an 
environmentally acceptable manner, while helping developing countries 
reduce CO<INF>2</INF> emissions. The new technologies can also minimize 
concerns related to ash and refuse ponds and the runoff water at 
valley-fill mining operations. In addition, the new gas-gas separations 
technologies will have crosscutting applications for a wide spectrum of 
the Fossil Energy R&D programs.
                                 ______
                                 
  Prepared Statement of the Friends Committee on National Legislation 
                               (Quakers)

    The Friends Committee on National Legislation (Quakers) thanks the 
subcommittee for the opportunity to submit this testimony for the 
record. We appreciate the subcommittee's transparency and willingness 
to open its proceedings to the public. The Washington Post paraphrased 
NNSA Administrator Thomas D'Agostino's testimony before the House 
Appropriations Energy and Water Development Subcommittee on March 24 as 
saying, ``the number of new plutonium triggers that will be needed to 
keep the U.S. nuclear weapons stockpile reliable and secure has 
steadily dropped from 450 a year to 20.''
    Decreased demand, paired with President Obama's call for drastic 
reductions in the U.S. nuclear arsenal, requires for changes at NNSA. 
Our testimony centers on the need to restructure the NNSA budget in 
order to meet today's security demands by adequately funding nuclear 
nonproliferation programs, supporting disablement and dismantlement 
programs in North Korea, reforming spending on the nuclear weapons 
complex, and discontinuing new nuclear weapons programs.

                   NUCLEAR NONPROLIFERATION PROGRAMS

    The subcommittee's commitment to nuclear nonproliferation programs 
has increased international security. The best example of that 
commitment is the increased funding allocated to the Global Threat 
Reduction Initiative (GTRI) in the omnibus appropriations bill for 
fiscal year 2009. Testifying before the Senate Appropriations 
Subcommittee on Energy and Water Development last year (April 30, 
2008), former NNSA Deputy Administrator for Defense Nuclear 
Nonproliferation William Tobey pointed out the successes of GTRI:

    The GTRI program, and its antecedents, have removed approximately 
68 nuclear bombs' worth of highly enriched uranium and secured more 
than 600 radiological sites around the world, collectively containing 
over 9 million curies, enough radiation for approximately 8,500 dirty 
bombs. In the United States the GTRI program has removed over 16,000 
at-risk radiological sources, totaling more than 175,000 curies--enough 
for more than 370 dirty bombs.

    A graph of funding for GTRI over the past 4 years shows why the 
program has succeeded. We thank the subcommittee for supporting GTRI 
and believe, as is evidenced by Deputy Administrator Tobey's testimony, 
that the marginal benefit to international security from every dollar 
spent on nuclear nonproliferation programs is greater than that of any 
other dollar spent on national defense.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Other nuclear nonproliferation programs, such as the International 
Nuclear Materials Protection and Cooperation Program (MPC&A), which 
secures weapons-usable nuclear material in other countries, are in need 
of similar funding increases to accelerate the speed of finding and 
securing nuclear material, and upgrading the infrastructure which keeps 
weapons-grade material out of the wrong hands. As you can see, the 
previous administration's requests for MPC&A funding has been just 
above stagnant over the past several years. This year, Congress cut 
funds for MPC&A by $230 million because the program is winding down in 
Russia. Nevertheless, we believe the program should be expanded beyond 
Russia. Increasing and expanding MPC&A could be critical to achieving 
President Obama's goal to account for and secure all nuclear warheads 
and loose nuclear material around the world by the end of his first 
term.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We call on the subcommittee to make sufficient investments in the 
next generation of nuclear nonproliferation scientists. President Obama 
has stated that a top priority of his administration will be 
negotiating a verifiable fissile material cutoff treaty. Without 
expanding the pool of safeguards and other nonproliferation experts and 
drawing new talent into the field, the President's goal will not be 
achieved.
    Administrator D'Agostino testified before the House Appropriations 
Energy and Water Development Subcommittee that the Federal Government 
has been unable to lure top tier scientific talent at institutions of 
higher learning away from the private sector. The Administrator pointed 
to fields such as radioanalytic chemistry, in which graduates could 
seek research careers in nuclear forensics. Instead, these students are 
increasingly choosing lucrative offers from private industry over the 
opportunity to serve the country. The subcommittee must determine ways 
to reverse this trend.

                        NUCLEAR WEAPONS COMPLEX

    Administrator D'Agostino was blunt in pointing out that, ``We must 
stop pouring money into an old, cold war complex that is too big and 
too expensive.'' We could not agree more strongly. The discourse over 
the size and scope of the nuclear weapons complex in recent years has 
mirrored moral, political, and global realities that nuclear weapons 
are becoming obsolete.
    The numbers are striking. In 2005, NNSA proposed a new plutonium 
production facility with a capacity of 450 pits per year. In 2006, this 
figure was reduced to a capacity of 125 pits per year. Again, in 2007, 
the estimated necessary capacity was reduced to 80 pits per year. 
Administrator D'Agostino's testimony indicated that due to the changes 
on nuclear policy set forth by President Obama, NNSA is operating at 
the minimum production capacity of 20 pits per year. Simply put, with 
every passing year, the need for a large-scale capacity to produce 
plutonium pits bounds toward zero.
    We recommend abandoning expensive plans to build new plutonium 
production facilities and focusing on how to secure existing facilities 
while decreasing pit production capacities as the country reduces its 
nuclear stockpile and pushes nuclear weapons toward irrelevance.

                          NEW NUCLEAR WEAPONS

    Proponents of new nuclear weapons have been unable in past years to 
justify to lawmakers a need for programs like the nuclear ``bunker 
buster'' and so-called Reliable Replacement Warhead. Congress has 
declined to fund these programs year after year, culminating with a 
line in the fiscal year 2009 omnibus appropriations bill, ``Development 
work on the Reliable Replacement Warhead will cease.''
    Developing new nuclear weapons sends the wrong message to other 
nations. Rather than leading the way on the path to a nuclear weapons 
free world, the United States would be perceived as taking provocative 
actions and possibly spur reactions that increase global nuclear 
proliferation.
    The subcommittee's scrutiny of nuclear weapons programs in a 
bipartisan basis has led to responsible decisions that avoid sending 
these mixed messages and demonstrate the leadership necessary to move 
forward on the bold changes necessary to achieve the elimination of 
nuclear weapons.

               NORTH KOREAN DISABLEMENT AND DISMANTLEMENT

    Last year, the Bush administration secured a waiver to the 1994 
Glenn amendment to enable the National Nuclear Security Administration 
to provide assistance for the disablement and dismantlement of North 
Korea's nuclear facilities. However, the waiver, which passed in a 
supplemental appropriations bill for fiscal year 2008 (Public Law 110-
252, sec. 1405), has not been implemented. The Obama administration 
must implement this waiver to allow for these activities to occur. We 
ask that the subcommittee encourage the administration to implement the 
waiver despite North Korea's recent actions. Should the six party talks 
with North Korea resume and inspectors be allowed back into North 
Korea, delays in implementing the waiver would only slow disablement 
and dismantlement programs.
    Additionally, we urge the subcommittee to fund dismantlement and 
disablement activities in the fiscal year 2009 supplemental 
appropriations bill and the fiscal year 2010 budget at the level of the 
administration's request.
    Thank you for your consideration.
                                 ______
                                 
           Prepared Statement of Southern Company Generation

    Mr. Chairman and members of the subcommittee, Southern Company 
operates the U.S. Department of Energy's (DOE's) National Carbon 
Capture Center (NCCC) at the Power Systems Development Facility (PSDF) 
in Wilsonville, AL (http://psdf.southernco.com) for DOE's National 
Energy Technology Laboratory (NETL) and several industrial 
participants.\1\ The PSDF was conceived as the premier advanced coal 
power generation research and development (R&D) facility in the world. 
It has fulfilled this expectation. I would like to thank the Senate for 
its past support of the PSDF and request the subcommittee's continued 
support as the PSDF responds to the need for developing cost-effective 
carbon dioxide (CO<INF>2</INF>) capture technology for coal fueled 
power generation. This statement supports the administration's budget 
request for DOE coal R&D which includes about $41.5 million for work at 
the PSDF. These funds are necessary to conduct the future test program 
developed in collaboration with DOE which includes wide-ranging support 
of the DOE Carbon Sequestration Technology Roadmap. The future focus of 
the PSDF is to conduct sufficient R&D to advance emerging 
CO<INF>2</INF> control technologies to commercial scale for effective 
integration into either combustion or Integrated Gasification Combined 
Cycle (IGCC) processes.
---------------------------------------------------------------------------
    \1\ Current PSDF participants include Southern Company, the 
Electric Power Research Institute (EPRI), American Electric Power, 
Luminant, Peabody Energy, Arch Coal, Inc., and Rio Tinto.
---------------------------------------------------------------------------
    A key feature of the PSDF is its ability to test new carbon capture 
technologies for coal-based power generation systems at an integrated, 
semi-commercial scale. Integrated operation allows the effects of 
system interactions, typically missed in un-integrated pilot-scale 
testing, to be understood. The semi-commercial scale allows the 
maintenance, safety, and reliability issues of a technology to be 
investigated at a cost that is far lower than the cost of commercial-
scale testing. Capable of operating at pilot to near-demonstration 
scales, the PSDF is large enough to produce data to support commercial 
plant designs, yet small enough to be cost-effective and adaptable to a 
variety of technology research needs.
    In addition to semi-commercial scale testing, the PSDF will serve 
as a test bed for cost-effective technology screening by providing 
slipstreams of actual syngas from coal gasification and flue gas from 
coal combustion. Future test work at the PSDF will include the scale-up 
and continued development of several CO<INF>2</INF> capture 
technologies being developed either at DOE's NETL facility, at private 
R&D laboratories or at the PSDF. The DOE program for CO<INF>2</INF> 
capture in coal-fueled powerplants is divided into three areas: post-
combustion capture for conventional pulverized coal plants, pre-
combustion capture for coal gasification powerplants, and oxy-
combustion processes which produce a more CO<INF>2</INF>-rich flue gas 
than conventional combustion for easier CO<INF>2</INF> capture. The 
PSDF's CO<INF>2</INF> capture efforts would address all three areas.
    Southern Company also supports the goals of the Clean Coal 
Technology Roadmaps developed by DOE, EPRI, and the Coal Utilization 
Research Council (CURC). These Roadmaps identify the technical, 
economic, and environmental performance that advanced clean coal 
technologies can achieve over the next 20 years. Over this time period 
coal-fired power generation efficiency can be increased to over 50 
percent (compared to the current fleet average of 32 percent) while 
producing de minimis emissions and developing cost-effective 
technologies for CO<INF>2</INF> management.

                                SUMMARY

    The United States has historically been a leader in energy 
research. Adequate funding for fossil energy research and development 
programs, including environmental and climate change technologies will 
provide our country with secure and reliable energy from domestic 
resources while protecting our environment. Current DOE fossil energy 
research and development programs for coal, if adequately funded, will 
assure that a wide range of electric generation options are available 
for future needs. Congress faces difficult choices when examining near-
term effects on the Federal budget of funding energy research. However, 
continued support for advanced coal-based energy research is essential 
to the long-term environmental and economic well being of the U.S. 
Prior DOE clean coal technology research has already provided the basis 
for $100 billion in consumer benefits at a cost of less than $4 
billion. Funding the administration's budget request for DOE coal R&D 
and long-term support of the Clean Coal Technology Roadmap can lead to 
additional consumer benefits of between $360 billion and $1.38 
trillion.\2\ But, for benefits to be realized from advanced coal R&D, 
the critically important R&D program outlined in the Clean Coal 
Technology Roadmap must be conducted.
---------------------------------------------------------------------------
    \2\ EPRI Report No. 1006954, ``Market-Based Valuation of Coal 
Generation and Coal R&D in the U.S. Electric Sector'', May 2002.
---------------------------------------------------------------------------
    One of the key national assets for achieving these benefits is the 
PSDF. The fiscal year 2010 funding for the PSDF needs to be about $41.5 
million to support construction of new facilities to test technologies 
that are critical to the goals of the DOE Carbon Sequestration 
Technology Roadmap and to the success of the development of cost-
effective climate change technologies that will enable the continued 
use of coal to supply the Nation's energy needs. The major 
accomplishments at the PSDF to date and the future test program planned 
by DOE and the PSDF's industrial participants are summarized below.

                          PSDF ACCOMPLISHMENTS

    The PSDF test-bed has operated successfully for many years in 
support of U.S.-DOE's advanced coal program. Skilled staff from 
disciplines essential for a successful research program has gained 
experience by designing and operating the test equipment and by working 
with vendors to develop and improve their technologies. The PSDF has 
developed testing and technology transfer relationships with over 50 
vendors to ensure that test results and improvements developed at the 
PSDF are incorporated into future plants. In some instances, testing 
has eliminated technologies from further consideration. Such screening 
is valuable in that it concentrates R&D effort on those technologies 
most likely to succeed and is an essential part of managing the U.S.-
DOE's financial resources. Major subsystems tested and some highlights 
of the test program at the PSDF include:
    Transport Reactor.--The transport reactor has been operated 
successfully on sub-bituminous, bituminous, and lignite coals as a 
pressurized combustor and as a gasifier in both oxygen- and air-blown 
modes and has exceeded its primary purpose of generating gases for 
downstream testing. Since modifications were made in 2006, subsequent 
testing with air-blown gasifier operations has indicated substantial 
improvements in syngas heating value and carbon conversion. This 
transport technology is projected to be the lowest capital cost coal-
based power generation option, while providing the lowest cost of 
electricity and excellent environmental performance.
    Advanced Particulate Control.--Two advanced particulate removal 
devices and 28 different filter elements types have been tested to 
clean the product gases, and material property testing is routinely 
conducted to assess their suitability under long-term operation. The 
material requirements have been shared with vendors to aid their filter 
development programs.
    Filter Safe-Guard Device.--To enhance reliability and protect 
downstream components, ``safe-guard'' devices that reliably seal off 
failed filter elements have been successfully developed.
    Coal Feed and Ash Removal Subsystems.--A key to successful 
pressurized gasifier operation is reliable operation of the coal feed 
system and ash removal systems. Developmental work on the pressurized 
coal feed systems has increased the understanding and optimization of 
their performance. Modifications developed at the PSDF and shared with 
equipment suppliers allow current coal feed equipment to perform in a 
commercially acceptable manner. An innovative, continuous process has 
also been designed and successfully tested that reduces capital and 
maintenance costs and improves the reliability of fine and coarse ash 
removal.
    Syngas Cooler.--Syngas cooling is of considerable importance to the 
gasification industry. Devices to inhibit erosion, made from several 
different materials, were tested at the inlet of the gas cooler and one 
ceramic material has been shown to perform well in this application.
    Advanced Syngas Cleanup.--A slipstream unit has provided a very 
flexible test platform for testing numerous syngas contaminant removal 
technologies to improve environmental footprint and reduce costs in 
IGCC gas clean-up.
    Sensors and Automation.--Significant progress with sensor 
development and process automation has been achieved. More than 20 
instrumentation vendors have worked with the PSDF to develop and test 
their instruments under realistic conditions. Development of reliable 
and accurate sensors for the gasification process has concentrated on 
coal feed, Transport Gasifier, and filter systems. Automatic 
temperature control of the Transport Reactor has been successfully 
implemented.
    Fuel Cell.--Two test campaigns were successfully completed on 0.5 
kW solid oxide fuel cells manufactured by Delphi on syngas from the 
transport gasifier marking the first time that a solid oxide fuel cell 
(SOFC) has been operated on coal-derived syngas. In addition, a NETL-
erected SOFC multi-cell array test skid was used at PSDF to 
successfully conduct parallel testing of many cells directly on coal 
syngas.
    CO<INF>2</INF> Capture.--Slipstream CO<INF>2</INF> capture testing 
has been completed on both simulated and actual syngas and results have 
been used to design larger test equipment.

                        PSDF FUTURE TEST PROGRAM

    Developing technology options that will reduce CO<INF>2</INF> 
emissions is a primary goal for future work at PSDF. These technologies 
will be screened in close collaboration with NETL for selection for 
testing at the PSDF. This facility will serve as a productive test-bed 
for developing advanced technology and is capable of operating from 
bench- and pilot-scale to near demonstration scales allowing results to 
be scaled to commercial application. The PSDF will concentrate on 
developing cost-effective, commercially viable carbon capture 
technology for coal-fueled powerplants through scale-up and continued 
development of several technologies (including for example those being 
developed either at DOE's facilities or by third party technology 
developers).
    For both new and existing powerplants, post-combustion capture 
technology must be made more efficient and cost-effective. In post-
combustion capture, CO<INF>2</INF> is separated from the flue gas in a 
conventional coal-combustion powerplant downstream of the pulverized 
coal boiler. Many technologies are under consideration for post-
combustion capture, but these technologies need to be proven and 
integrated in an industrial powerplant setting. Activities at the PSDF 
for post-combustion capture technology will include:
    Pilot-Scale Test Modules.--Pilot-scale test modules of advanced 
post-combustion technologies will be designed, installed, and operated 
in an existing pulverized coal plant adjacent to the PSDF. The flexible 
design of these test modules will allow the testing of a wide range of 
technologies on actual flue gas.
    Technology Screening.--Available solvents developed by NETL, PSDF 
and others will be screened to assess readiness for testing at the site 
using improved contacting devices that are now under development.
    Alternative Solvent Processes.--Alternative solvents with lower 
heats of regeneration and more compact, lower cost gas-liquid 
contacting equipment will be developed and tested.
    Advanced Technology.--Compact membrane contactors and solid phase 
CO<INF>2</INF> sorbents that are currently being investigated by DOE-
NETL and private companies will be assessed and installed. PSDF will 
provide a scaled-up testing platform for these technologies as 
development progress warrants.
    In pre-combustion capture, CO<INF>2</INF> is separated from the 
syngas in a coal gasification powerplant upstream of combustion in the 
gas turbine. Research & development activities at PSDF for pre-
combustion capture technology for application to gasification-based 
power generation include:
    Advanced CO<INF>2</INF> Capture Systems.--New solvents and gas-
liquid contacting devices will be evaluated on air-blown and oxygen-
blown syngas. New sorbent-based or membrane-based CO<INF>2</INF> 
separation technologies will be scaled-up and tested based on progress 
in fundamental R&D by third party developers.
    Water Gas Shift Enhancements.--New water gas shift reactor 
configurations and sizes are planned for testing at the PSDF. The 
operation of shift catalysts when exposed to syngas at the PSDF will be 
optimized and their technical and economic performance will be 
evaluated.
    Advanced Syngas Cleanup.--New advanced syngas cleanup systems will 
be tested for reducing hydrogen sulfide, hydrochloric acid, ammonia, 
and mercury to near-zero levels.
    In order to develop a cost-effective advanced coal powerplant with 
CO<INF>2</INF> capture, all process blocks within the powerplant must 
be optimized in addition to the capture block. Including CO<INF>2</INF> 
capture in an advanced coal powerplant will increase the plant cost of 
electricity (COE), so opportunities to reduce cost in every part of the 
process will be explored. Although highest priority will be given to 
low-cost CO<INF>2</INF> capture process development, projects that 
reduce overall process capital and operating costs will also be 
included in the PSDF test plan to partially offset incremental cost 
increases due to the addition of CO<INF>2</INF> capture. These cost 
reduction projects include technology development for syngas cleanup, 
particulate control, fuel cells, sensors and controls, materials, and 
feeders.
                                 ______
                                 
                       Prepared Statement of ASME

    Mr. Chairman, ranking member, and members of the subcommittee, the 
ASME Energy Committee is pleased to provide this testimony on the 
fiscal year 2010 budget request for research and development programs 
in the Department of Energy (DOE).

           INTRODUCTION TO ASME AND THE ASME ENERGY COMMITTEE

    The 127,000-member ASME is a nonprofit, worldwide educational and 
technical Society. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets some 600 
industrial and manufacturing standards. The Energy Committee of ASME's 
Technical Communities comprises 30 members from 17 divisions of ASME, 
representing approximately 40,000 of ASME's members.
    ASME has long advocated a balanced energy supply mix to meet the 
Nation's energy needs, including advanced coal, petroleum, nuclear, 
natural gas, biomass, solar, wind and hydroelectric power, and energy 
efficient building and transportation technologies. Only such a 
portfolio will allow the United States to maintain its quality of life 
while addressing future environmental and security challenges. 
Sustained growth will also require stability in licensing and 
permitting processes not only for power stations but also for 
transmission and transportation systems.
    A forward-looking energy policy will require enhanced, sustained 
levels of funding for R&D as well as Government policies that encourage 
deployment and commercialization. While the Energy Committee supports 
much of the fiscal year 2010 budget request, especially the increases 
in funds for fundamental scientific research, we wish to reemphasize 
that a balanced approach to our energy needs is critical and we are 
concerned about the decrease in funding for nuclear energy, which is 
essential to meeting our national energy needs.

                            CRITICAL ISSUES

    The Energy Committee would like to point out some critical energy 
issues:
  --Additional investment guarantees for construction of new clean and 
        especially nuclear facilities must be enacted in future energy 
        legislation. These guarantees will enable lower financing costs 
        for a variety of energy technologies leading to lower energy 
        costs for the American public. Extending these programs further 
        into the future will allow a reasoned rate of increase in 
        construction and application of these technologies for electric 
        generation.
  --There is a critical shortage of trained persons in the workforce at 
        all levels. This includes persons in the various building 
        trades that will be involved in the construction of our energy 
        systems, persons in the manufacturing industry that will 
        manufacture the components that make up our energy systems, 
        persons who will be available to operate and maintain the 
        energy systems when they are built, and persons trained as 
        engineers and scientists at all levels who will perform the R&D 
        and design functions for all energy systems. A recent 
        initiative, ``Regaining our ENERGY Science and Engineering 
        Edge'' or ``RE-ENERGYSE,'' a program being conducted jointly by 
        the DOE EERE and the National Science Foundation (NSF) and 
        geared to young scientists and engineers, is a positive step 
        toward addressing this chronic issue.

                             FOSSIL ENERGY

    The fiscal year 2010 budget request of $884 million for fossil 
energy represents a $513 million decrease over the fiscal year 2009 
appropriation. Fossil Energy Research and Development would be reduced 
$112 million to $403 million. The R&D budget for oil and natural gas 
related research has been eliminated. It should be noted that the DOE 
Office of Fossil Energy received $3.4 billion for Research and 
Development as part of ARRA, for research, development and deployment 
of carbon capture and sequestration, therefore the ASME Energy 
Committee supports this funding request. The Energy Committee supports 
the current proposed funding for coal research programs at $617 million 
for fiscal year 2010. The effective use of coal in today's environment 
demands an increase in efficiency and a decrease in release of 
environmentally harmful waste streams. A large portion of this effort 
right now is the Clean Coal Program Initiative (CCPI), which received 
$1.5 billion as part of ARRA and therefore, did not request any 
additional funding for fiscal year 2010. This approach builds on 
technological R&D advancements in IGCC and CCS technology achieved over 
the past 5 years and provides commercial-scale demonstration 
opportunities for fossil energy powerplants.
    The use of more efficient processes for coal use, such as advanced 
integrated gasification combined cycle technology, combined with carbon 
sequestration will allow the United States to utilize its coal 
resources in a more environmentally sound and cost effective manner. We 
encourage strong and consistent funding for these programs now and in 
future years.

                        ADVANCED FUELS RESEARCH

    The Energy Committee agrees that the advanced fuels research should 
be aimed at fuels used in the transportation system. We believe that 
the development of transportation fuel systems that are not petroleum 
based is a critical part of our future national energy policy. The 
fiscal year 2010 budget for biomass and bio-refinery systems R&D is 
increased by $18 million to $235 million. The Energy Committee 
encourages Congress to ensure that these research programs continue to 
receive adequate funding. We are also pleased to see the increase to 
$330 million in the effort related to vehicle technologies with a 
program emphasis on plug-in hybrid electric vehicles.

                             NUCLEAR ENERGY

    The Energy Committee is discouraged to see a steep decrease in the 
DOE Nuclear Energy budget to $844 million in fiscal year 2010. Even 
with the reduction of the MOX fuel fabrication facility from the 
Nuclear Energy budget, placing it back with the Nuclear National 
Security Administration (NNSA), the nuclear R&D portion of the budget 
request is reduced by $112 million to $403 million for fiscal year 
2010. Because of the sharp reduction in funding, and the decision to 
exclude the Office of Nuclear Energy from ARRA, the Committee strongly 
recommends restoring funding for DOE Office of Nuclear Energy to at 
least the levels appropriated in fiscal year 2009. Nuclear power, as a 
non-greenhouse gas-emitting resource, is a critical component of a 
diverse U.S. power generation mix and should play a larger role in the 
Nation's base power supply. Sustained increases in nuclear power 
research are justified by the imperative of low cost, low emissions 
electricity.
    Proposed increases in the Nuclear Energy budget are most evident in 
the Generation IV Nuclear Energy Systems, $191 million, Fuel Cycle R&D, 
$192 million, and Nuclear Power 2010 program at $20 million. The 
primary decrease is in the Generation IV Nuclear Systems Initiative 
which is $45 million. The Energy Committee believes that nuclear 
generated electricity is important to the Nation, especially in a more 
carbon conscious environment. Therefore continued R&D looking at 
advanced nuclear systems is critical.
    The GNEP program, before its cessation in the fiscal year 2009 
Omnibus Appropriations bill, was a vital means to enhancing the future 
of safe, reliable, nuclear energy through the establishment of 
international centers for nuclear fuel cycle services for nations both 
large and small. Although no funding is provided for GNEP, the Advanced 
Fuel Cycle Initiative, now called Fuel Cycle R&D, would receive $192 
million in funding in fiscal year 2010. The Energy Committee concurs 
with the DOE goal to establish a full scale demonstration of the 
required facilities, including a burner reactor and fuel recycle plant 
that will not produce a pure plutonium product stream. The ASME Energy 
Committee is disappointed with the cancellation of the GNEP program and 
urges Congress and the administration to reconsider the discontinuation 
of GNEP. GNEP was established as an international effort and many 
international partners had agreed to participate. This is consistent 
with efforts to establish an international nuclear fuel bank.

                 ENERGY EFFICIENCY AND RENEWABLE ENERGY

    The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in research, development and deployment of the 
Department of Energy's (DOE) diverse energy efficiency and renewable 
energy applied science portfolio. It should be noted that the DOE EERE 
received $16.5 billion as part of ARRA, including $2.5 billion for 
Research and Development. The fiscal year 2010 request of $2.02 
billion, $570 million above the fiscal year 2009 appropriated amount, 
provides a broad and balanced portfolio of solutions to address the 
urgent energy and environmental challenges currently facing our Nation. 
Most of the key EERE programs, including Biomass, Solar, Wind, 
Geothermal, Building Technologies, Vehicle Technologies, and Industrial 
technologies, have received sizable increases in funding to support the 
growth of renewable energy that the United States needs. The potential 
to reduce the production of greenhouse gases and to meet the growing 
need for domestically produced energy justifies sustained and increased 
support for these programs.
    The Fuel Cell Technologies program, formerly known as the Hydrogen 
technology program has been reduced $100 million from the fiscal year 
2009 appropriation. While the administration has publicly indicated 
that they view the probability of fuel cell vehicles as ``low'', this 
program is a key driver in the development of fuel cell technology. The 
Energy Committee encourages restoring funding to the Hydrogen Program 
consistent with the fiscal year 2009 appropriation. The other 
technology program to receive a cut was the Water Power Program, which 
is now requested to receive $30 million in fiscal year 2010--a 25 
percent or $10 million cut from fiscal year 2009. While relatively 
small, this program supports R&D for wave and ocean energy technologies 
as well as conventional and pumped storage hydropower. Water power will 
contribute significantly to the eventual transition to clean and 
renewable power generation in the United States. The Energy Committee 
encourages restoring funding to the Water Power Program consistent with 
the fiscal year 2009 appropriation.
    The integration of renewable electric generating systems into the 
operation of the electricity distribution system is critical to 
economic operation of these systems. DOE's support of R&D into 
distributed systems integration began in fiscal year 2007. The Energy 
Committee believes that R&D related to the integration of the electric 
grid and its control as a national system is imperative to the growth 
of renewable energy generating technologies and we encourage full 
funding for such research.

             SCIENCE AND ADVANCED ENERGY RESEARCH PROGRAMS

    The Energy Committee is pleased by the increased request for the 
Office of Science (OS) which restores the funding trajectory mandated 
in the America Competes Act of 2007. It should be noted that the DOE 
Office of Science received $1.6 billion as part of ARRA. The fiscal 
year 2010 budget proposal of $4.94 billion is an increase of $184 
million over the fiscal year 2009 appropriation. OS programs in high 
energy physics, fusion energy sciences, biological and environmental 
research, basic energy sciences, and advanced scientific computing, 
serves, in some small way, every student in the country. These funds 
support not only research at the DOE Laboratories but also work at a 
large number of universities and colleges. We believe that basic energy 
research will also improve U.S. energy security over the long term, 
through its support for R&D on cellulosic ethanol, advanced battery 
systems, and fusion.

                           OTHER DOE PROGRAMS

    DOE is also very active in areas outside of R&D. The environmental 
remediation program that funds the decommissioning and decontamination 
of old DOE facilities is one such program. The Energy Committee 
questions the advisability of all of the budget decreases in this 
program. The coming resurgence in the commercial nuclear arena is 
likely to deplete the trained professionals available for this program 
as engineers choose to move to the more stable commercial environment. 
Congress should appropriate the budget to ensure that this work is 
accomplished in an expeditious manner.

                               CONCLUSION

    Members of the ASME Energy Committee consider the issues related to 
energy to be one of the most important issues facing our Nation. The 
need for a strong and coherent energy policy is apparent. We applaud 
the administration and Congress for their understanding of the 
important role that scientific and engineering breakthroughs will play 
in meeting our energy challenges. In order to promote such innovation, 
strong support for energy research will be necessary across a broad 
portfolio of technology options. DOE research can play a critical role 
in allowing the United States to use our current resources more 
effectively and to create more advanced energy technologies.
    Thank you for the opportunity to offer testimony regarding both the 
R&D and other parts of the proposed budget for the DOE. The ASME Energy 
Committee is pleased to respond to additional requests for additional 
information or perspectives on other aspects of our Nation's energy 
programs.
    This statement represents the views of the Energy Committee of 
ASME's Technical Communities and is not necessarily a position of ASME 
as a whole.

</pre></body></html>
